APPENDIX

1a
APPENDIX A
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 14-14544
Non-Argument Calendar
D.C. Docket No. 1:13-cv-24508-WPD
CITY OF MIAMI,
a Florida municipal corporation,
Plaintiff - Appellant,
versus
WELLS FARGO & CO.,
WELLS FARGO BANK, N.A.,
Defendants - Appellees.

No. 14-14543
Non-Argument Calendar
D.C. Docket No. 1:13-cv-24506-WPD
CITY OF MIAMI,
a Florida Municipal Corporation,
Plaintiff - Appellant,
versus

2a
BANK OF AMERICA CORPORATION,
BANK OF AMERICA, N.A.,
COUNTRYWIDE FINANCIAL CORPORATION,
COUNTRYWIDE HOME LOANS,
COUNTRYWIDE BANK, FSB,
Defendants - Appellees.
Appeals from the United States District Court
for the Southern District of Florida
(May 3, 2019)
Before MARCUS and WILSON, Circuit Judges, and
SCHLESINGER,1 District Judge.
MARCUS, Circuit Judge:
This pair of ambitious fair housing lawsuits brought
by the City of Miami against major financial
institutions returns to our Court after having been
appealed to the Supreme Court and resolved there in
Bank of American [sic] Corp. v. City of Miami, 137 S.
Ct. 1296 (2017). Miami alleges that, for years, the
defendant institutions, major nationwide banks,
carried on discriminatory lending practices that
intentionally targeted black and Latino Miami
residents for predatory loans. The City says this
resulted in disproportionate foreclosures on
homeowners of those races, diminished property
values in predominantly minority neighborhoods,
substantially reduced tax revenue for the City, and
increased expenditures by the City for municipal
1

Honorable Harvey E. Schlesinger, United States District
Judge for the Middle District of Florida, sitting by designation.

3a
services. When we first heard these cases, we
determined that Miami had standing under the Fair
Housing Act, and that it had adequately pled
proximate cause. See City of Miami v. Bank of Am.
Corp., 800 F.3d 1262 (11th Cir. 2015); City of Miami
v. Wells Fargo & Co., 801 F.3d 1258 (11th Cir. 2015).
The Supreme Court agreed in part. It resolved the
hotly contested standing issue in the City’s favor, but
vacated and remanded with regard to proximate
cause. See Bank of Am., 137 S. Ct. at 1305-06.
The Court held that the standard that this panel
had applied—foreseeability—was not enough on its
own to demonstrate proximate cause. Id. at 1306.
Instead, the Court said that proximate cause under
the FHA also required “some direct relation between
the injury asserted and the injurious conduct alleged.”
Id. at 1306 (quotations omitted). But the Court
declined to “draw the precise boundaries of proximate
cause under the FHA and to determine on which side
of the line the City’s financial injuries fall.” Id. It
remanded the case, preferring to leave this issue open
for percolation in the lower courts. See id. Today, we
take up the question of how the principles of
proximate cause identified by the Court’s opinion
function when applied to the FHA and to the facts as
alleged in the City’s complaints.
At this preliminary stage in the lawsuit, we
conclude that the City has adequately pled proximate
cause in relation to some of its economic injuries when
the pleadings are measured against the standard
required by the Fair Housing Act. Proximate cause
asks whether there is a direct, logical, and identifiable
connection between the injury sustained and its
alleged cause. If there is no discontinuity to call into

4a
question whether the alleged misconduct led to the
injury, proximate cause will have been adequately
pled. The question for now is whether, accepting the
allegations as true, as we must, the City has said
enough to make out a plausible case—not whether it
will probably prevail. Considering the broad and
ambitious scope of the FHA, the statute’s expansive
text, the exceedingly detailed allegation found in the
complaints, and the application of the administrative
feasibility factors laid out by the Supreme Court in
Holmes v. Securities Investor Protection Corp., 503
U.S. 258 (1992), we are satisfied that the pleadings set
out a plausible claim.
The City’s pleadings meet this standard because
Miami has alleged a substantial injury to its tax base
that is not just reasonably foreseeable, but also is
necessarily and directly connected to the Banks’
conduct in redlining and reverse-redlining throughout
much of the City. This injury plausibly bears “some
direct relation” to the claimed misconduct. Bank of
Am., 137 S. Ct. at 1306. The injury to the City’s tax
base is uniquely felt in the City treasury, and there is
no risk that duplicative injuries could be pled by
another plaintiff or that the apportionment of
damages amongst different groups of plaintiffs would
be a problem. As we see it, the City is in the best
position. Indeed only the City can allege and litigate
this peculiar kind of aggregative injury to its tax base.
Simply put, a lawsuit commenced by an individual
homeowner cannot challenge the Banks’ policies on
the same citywide scale that the alleged misconduct
took place on.
However, the City’s pleadings fall short of
sufficiently alleging “some direct relation” between

5a
the Banks’ conduct and a claimed increase in
expenditures on municipal services. The complaints
fail to explain how these kinds of injuries—increases
in police, fire, sanitation, and similar municipal
expenses—are anything more than merely foreseeable
consequences of redlining and reverse-redlining. The
Court has told us that foreseeability alone is not
enough.
We do not mean to suggest that the City’s claims are
destined to succeed. Many questions, and many
difficult questions, remain and will have to be worked
out in the district court. At the motion to dismiss
stage, though, we are not asking whether the
complaints meet any probability requirement, only
whether they plausibly allege violations of the FHA.
Since we have found that they do, we allow this
discrete portion of the City’s claims to proceed for now.
The plaintiff has said enough to get into the
courthouse and be heard. We decide nothing more
today.
I. Background
A. The City’s Claims
On December 13, 2013, the City of Miami brought
three complex civil rights actions in the Southern
District of Florida against several different financial
institutions. One suit was filed against Bank of
America Corporation, Bank of America N.A.,
Countrywide Financial Corporation, Countrywide
Home Loans, and Countrywide Bank, FSB
(collectively “Bank of America”), and another against
Wells Fargo & Co. and Wells Fargo Bank, N.A.
(collectively “Wells Fargo”). For simplicity, we refer
to all these defendants jointly as “the Banks.” These
were accompanied by another similar case against

6a
Citigroup, Inc. and related institutions. See City of
Miami v. Citigroup, Inc., 801 F.3d 1268 (11th Cir.
2015). The first time this panel considered this set of
cases, we heard the Citigroup case as well, but that
case was not appealed to the Supreme Court. It has
returned to the district court, where it has been stayed
pending resolution of the other two. See Order
Staying Case Pending the Supreme Court’s
Disposition of Matters Now Before the Court, City of
Miami v. Citigroup Inc., No. 13-cv-24510 (S.D. Fla.
July 13, 2016). As a result, our opinion today concerns
only Bank of America and Wells Fargo.
The City alleged in considerable detail that the
Banks had violated § 3604(b) and § 3605(a) of the Fair
Housing Act. The first of these provisions makes it
unlawful “[t]o discriminate against any person in the
terms, conditions, or privileges of sale or rental of a
dwelling, or in the provision of services or facilities in
connection therewith, because of race, color, religion,
sex, familial status, or national origin.” 42 U.S.C. §
3604(b). The second states that “[i]t shall be unlawful
for any person or other entity whose business includes
engaging
in
residential
real
estate-related
transactions to discriminate against any person in
making available such a transaction, or in the terms
or conditions of such a transaction, because of race,
color, religion, sex, handicap, familial status, or
national origin.” Id. § 3605(a). The City alleged that
the Banks had violated these provisions by
intentionally engaging in discriminatory mortgage
lending practices that resulted in a disproportionate
and excessive number of defaults by black and Latino

7a
homebuyers and caused substantial financial harm to
the City.2
The City said the Banks made a practice of
systematically and intentionally refusing to extend
credit to minority borrowers on the same terms as
they would extend credit to non-minority borrowers
and, when they did extend credit to comparably
situated minority borrowers, doing so only on
predatory terms, worse than the terms non-minorities
received. First Amended Complaint for Violations of
the Federal Fair Housing Act at 2-5, City of Miami v.
Bank of Am., No. 13-cv- 24506 (S.D. Fla. Sept. 9, 2014)
(“BoA FAC”); First Amended Complaint for Violations
of the Federal Fair Housing Act at 2-5, City of Miami
v. Wells Fargo & Co., No. 13-cv-24508 (S.D. Fla. Sept.
9, 2014) (“WF FAC”).3 This amounted to both
2 The City also alleged that the Banks unjustly enriched
themselves by taking advantage of “benefits conferred by the
City” at the same time that they engaged in unlawful lending
practices which “denied the City revenues it had properly
expected through property and other tax payments and . . . cost[]
the City additional monies for services it would not have had to
provide . . . absent [the Bank’s] unlawful activities.” Wells Fargo,
801 F.3d at 1261 (quoting Complaint for Violations of the Federal
Fair Housing Act at 61, City of Miami v. Wells Fargo & Co., No.
13-24508-CIV (S.D. Fla. July 9, 2014), 2013 WL 6903725); Bank
of Am., 800 F. 3d at 1267; see also Complaint for Violations of the
Federal Fair Housing Act at 52-55, City of Miami v. Bank of Am.
Corp., No. 13-24506-CIV (S.D. Fla. July. 9, 2014), 2013 WL
6903721 (raising the same claims and allegations). The district
court held that these claims failed. City of Miami v. Bank of Am.,
No. 13-24506-CIV, 2014 WL 3362348 at *6-7 (S.D. Fla. July 9,
2014). We affirmed, Bank of Am., 800 F.3d at 1287; Wells Fargo,
801 F.3d at 1267, and the City did not appeal these claims to the
Supreme Court. Accordingly, they are no longer in this case.
3 The operative complaints for our purposes are the First
Amended Complaints in both cases. As we explain, infra, the City

8a
“redlining” (refusing to extend credit) and “reverse
redlining” (extending credit on worse terms). Black
and Latino borrowers were thus unable to refinance
their loans effectively. BoA FAC at 4; WF FAC at 4;
see also Wells Fargo, 801 F.3d at 1261; Bank of Am.,
800 F. 3d at 1267. The City’s complaints detailed at
appealed the denial of motions in both cases asking the district
court to reconsider the dismissal of its initial Complaints and to
grant leave to file the First Amended Complaints. After this
panel reversed the decisions in September 2015, litigation
proceeded in the district court for some months before the
Supreme Court granted the Banks’ petitions for certiorari in
June 2016. On remand from this Court, the City filed what it
styled “Second Amended Complaints,” (even though the First
Amended Complaints had not technically been filed), and both of
these were dismissed on multiple grounds, but with leave to
amend. Order Granting Motion to Dismiss Second Amended
Complaint, Bank of Am., No. 13-cv-24506 (Mar. 17, 2016) (No.
98); Order Granting Motion to Dismiss Second Amended
Complaint, Wells Fargo, No. 13-cv-24508 (Mar. 17, 2016) (No.
77). By the time the Supreme Court granted the petition for
certiorari, the City had filed Third Amended Complaints, and
both Banks had moved to dismiss these as well. See Defendants’
Motion to Dismiss Third Amended Complaint with Prejudice and
Request for Hearing, Bank of Am., No. 13-cv-24506 (May 16,
2016) (No. 103); Wells Fargo’s Motion to Dismiss with Prejudice
the City’s Third Amended Complaint and Request for Hearing,
Wells Fargo, No. 13-cv-24508 (May 24, 2016) (No 83). Both cases
were then stayed pending resolution in the Supreme Court.
Order Staying Case Pending the Supreme Court’s Disposition of
Matters Now Before the Court, Bank of Am., No. 13-cv-24506
(July 13, 2016) (No. 128); Order Granting Unopposed Motion to
Stay Further Proceedings Pending the Supreme Court’s
Disposition of Matters Now Before the Court, Wells Fargo, No.
13-cv-24508 (July 13, 2016) (No. 102). Since nothing had been
appealed since the Second and Third Amended Complaints were
filed, the Supreme Court was explicit that it was looking to the
First Amended Complaints, see Bank of Am., 137 S. Ct. at 1301,
and we do the same on remand.

9a
considerable length the nature of these practices and
characterized them as “abusive” because they resulted
in loans with “unfair terms that [borrowers] could not
afford.” BoA FAC at 13; WF FAC at 11; see, e.g., BoA
FAC at 22 (explaining what kinds of loans the City
would categorize as “predatory”); WF FAC at 34
(same).
The City claims that these policies were entirely
deliberate on the part of the Banks. The Amended
Complaints explain that confidential witnesses—
former employees at both Bank of America and Wells
Fargo—will testify to how minorities and residents of
minority neighborhoods were targeted for predatory
loan terms. E.g., BoA FAC at 19; WF FAC at 29.
Moreover, witnesses allegedly will testify that Wells
Fargo specifically targeted Latino and African
American community groups and churches (but never
white churches) and that employees were assigned
based on their race to make presentations to these
groups. WF FAC at 30. Witnesses from Bank of
America likewise will testify that they were
encouraged to steer less financially savvy borrowers,
often racial minorities, toward loan products that
were decidedly unfavorable to the customer and
different from loan products offered to white
applicants, but highly favorable to the bank. BoA
FAC at 19-20.
According to the City, all of this violated the FHA in
two stages.
To start, the Banks intentionally
discriminated against minority borrowers by
targeting them for burdensome loans. This had a
disparate impact on minority borrowers, leading,
down the line, to a disproportionate number of
exploitative loans in minority neighborhoods and,

10a
eventually, to a disproportionate number of
foreclosures on minority-owned properties. BoA FAC
at 15-19; WF FAC at 21-29.
The City employed detailed regression analyses of
the Banks’ self-reported data to show that a Bank of
America loan in a predominantly African-American or
Latino Miami neighborhood was 5.857 times more
likely to result in foreclosure than a Bank of America
loan in a non-minority Miami neighborhood. BoA
FAC at 26. For a minority-neighborhood loan from
Wells Fargo, foreclosure was 6.975 times more likely.
WF FAC at 39. Further calculations indicated that,
controlling for credit history and other factors, a black
Miami borrower was 1.581 times more likely than a
white borrower to receive a predatory loan from Bank
of America and 4.321 times more likely to receive one
from Wells Fargo. BoA FAC at 22; WF FAC at 34. A
Latino borrower was 2.087 times more likely to
receive such a loan from Bank of America and 1.576
times more likely to receive one from Wells Fargo.
BoA FAC at 22; WF FAC at 34. Notably, even among
borrowers with good credit (FICO scores over 660),
black borrowers were 1.533 and 2.572 times more
likely to receive a predatory loan from Bank of
America and Wells Fargo, respectively. BoA FAC at
22; WF FAC at 34. For Latino borrowers with good
credit, the figures were 2.137 and 1.875 times more
likely. BoA FAC at 22; WF FAC at 34. The City
identified similar disproportionalities on a larger
scale
by
comparing
predominantly
white
neighborhoods with predominantly minority ones.
See BoA FAC at 23-25; WF FAC at 35-37.
The complaints further alleged that the Banks’
lending practices resulted in minority borrowers

11a
suffering especially fast and frequent foreclosures, an
important indicator of predatory lending practices.
See BoA FAC at 29-30; WF FAC at 41. White
borrowers’ average time from origination to
foreclosure was 3.448 years for a Bank of America
loan or 3.266 years for a Wells Fargo loan; for black
and Latino borrowers the averages were 3.144 (black)
and 3.090 (Latino) years from Bank of America and
2.996 (both black and Latino) from Wells Fargo. BoA
FAC at 28; WF FAC at 41. Confidential witnesses
from both Banks will allegedly support the claims that
each had deliberately targeted black and Latino
borrowers for predatory loans. E.g., BoA FAC at 1921; WF FAC at 30-31.
What’s more, according to the complaints, the
Banks’ misconduct was not limited to loan origination
but instead continued almost to the point of
foreclosure. As the Supreme Court noted, Bank of
Am., 137 S. Ct. at 1301, the predatory practices
alleged by the City included denying black and Latino
customers opportunities to refinance or make loan
modifications on fair terms. E.g. BoA FAC at 21; WF
FAC at 32. According to the complaints, both Banks
would cause foreclosures when “a minority borrower
who previously received a predatory loan sought to
refinance the loan, only to discover that [the bank]
refused to extend credit at all,” or refused to do so on
the same terms they extended when “refinancing
similar loans issued to white borrowers.” BoA FAC at
4; WF FAC at 4. We note that such refinancing and
loan modification decisions can occur before or after a
property enters default.
The City alleged that it suffered both economic and
noneconomic injuries. BoA FAC at 31-35; WF FAC at

12a
44-48. In both complaints the alleged noneconomic
injury was that the Banks’ conduct “adversely
impacted the racial composition of the City and
impaired the City’s goals to assure racial integration
and desegregation and the social and professional
benefits of living in an integrated society.”4 BoA FAC
at 31; WF FAC at 44. The City identified two forms of
economic injuries. It claimed damages from each
bank based on reduced property tax revenues, arguing
that the Banks’ lending policies caused minorityowned properties to fall into unnecessary or
premature foreclosure, causing them to lose
substantial value and, in turn, decreasing the values
of surrounding properties. BoA FAC at 32-34; WF
FAC at 45-47. This reduced the City’s tax base and
the tax revenue it took in. According to the City,
“Hedonic regression” techniques could be used to
quantify with considerable particularity what portion
of its losses was attributable to the Banks’ conduct.
BoA FAC at 32-34; WF FAC at 45-47. Additionally,
the City claimed damages based on the cost of the
increased municipal services it provided to deal with
problems attributable to the foreclosed and often
vacant properties—including police, firefighters,
building inspectors, debris collectors, and others.
These increased services too, the City claimed, would
not have been necessary if the properties had not been
foreclosed upon as a result of the Banks’

4 Because we find that the City adequately pled proximate
cause for one of its economic injuries, we need not evaluate
whether it also did so for its noneconomic injuries. The parties in
their briefing have not squarely addressed these injuries, and the
Supreme Court had little to say about them. We leave this matter
to the district court to address in the first instance.

13a
discriminatory lending practices. BoA FAC at 34-35;
WF FAC at 47-48.
The City also asked for a declaratory judgment
stating that the Banks’ conduct violated the FHA, an
injunction barring the Banks from engaging in similar
predatory conduct, compensatory and punitive
damages, and attorneys’ fees. BoA FAC at 40-41; WF
FAC at 53-54.
B. District Court and 11th Circuit Decisions
On July 9, 2014, the district court granted motions
to dismiss by both banks.5 City of Miami v. Bank of
Am., No. 13-24506-CIV, 2014 WL 3362348 (S.D. Fla.
July 9, 2014). The court determined first that the City
lacked standing because, according to this Court’s
opinion in Nasser v. City of Homewood, 671 F.2d 432
(11th Cir. 1982), its claims fell outside the “zone of
interests” protected by the FHA. Bank of Am., 2014
WL 3362348 at *3-4. Miami had alleged “merely
economic injuries” that were not “affected by a racial
interest.” Id. at *4. The trial court also determined
that the FHA contained a proximate cause
requirement, and that this requirement had not been
met because the City failed to “demonstrate that the
[Banks’] alleged redlining and reverse redlining
caused the foreclosures to occur.” Id. at *5. According
to the district court, the City should have “allege[d]
facts that isolate [the Banks’] practices as the cause of
any alleged lending disparity.” Id. Additionally, the

5 The court issued a detailed opinion in the Bank of America
case. It then adopted and incorporated that opinion in the Wells
Fargo case. City of Miami v. Wells Fargo & Co., No. 13-24508CIV (S.D. Fla. July 9, 2014).

14a
district court said that the FHA claims fell outside the
statute of limitations. Id. at *6-7.
The City moved for reconsideration and for leave to
file amended complaints in both cases, arguing that it
had standing and that it could remedy the statute of
limitations issue by amending the complaint. See
Bank of Am., 800 F.3d at 1271; Wells Fargo, 801 F.3d
at 1264. The amended complaints added further
details concerning noneconomic injuries suffered by
the City as a result of the Banks’ discriminatory
lending practices. See BoA FAC at 31; WF FAC at 44.
The City also argued in its amended complaints that
predatory lending had “adversely impacted the racial
composition of the City,” “impaired the City’s goals to
assure racial integration and desegregation,” and
“frustrate[d] the City’s longstanding and active
interest in securing the benefits of an integrated
community.” BoA FAC at 31; WF FAC at 44. The
district court denied the motion, and the City
appealed to this Court. Bank of Am., 800 F.3d at
1271; Wells Fargo, 801 F.3d at 1265.
We reversed and remanded in a series of opinions,
the most detailed of which we issued in City of Miami
v. Bank of America Corp., 800 F.3d 1262 (11th Cir.
2015). We began by addressing standing and held
that the City had alleged an injury in fact sufficiently
concrete and immediate to confer Article III standing.
Id. at 1272. Next we addressed “statutory standing”
—a misnomer, since it really concerns “whether the
plaintiff has a cause of action under the statute.” Id.
at 1273 (quotation omitted). We determined that this
plaintiff did because the key statutory language
“swe[pt] as broadly as allowed under Article III” and
placed the City within the statute’s zone of interests.

15a
Id. at 1278; see also Trafficante v. Metro Life Ins. Co.,
409 U.S. 205, 209 (1972) (identifying “a congressional
intention to define [FHA] standing as broadly as is
permitted by Article III”).
We next held that the FHA did require proximate
cause, but that the City’s pleadings were adequate.
Bank of Am., 800 F.3d at 1279-80, 1283. We rejected
the idea that the City needed to “allege that the
[Banks’] actions directly harmed the City.” Id. As we
saw it, the “strict directness requirement” suggested
by the Banks could not be the proper standard for the
FHA because it “would run afoul of Supreme Court
and Eleventh Circuit caselaw allowing entities who
have suffered indirect injuries . . . to bring a claim
under the FHA.” Bank of Am., 800 F.3d at 1281 (citing
Gladstone, Realtors v. Village of Bellwood, 441 U.S.
91, 109-11 (1979) (allowing a village to sue a firm for
discriminatory practices that caused segregation);
Havens Realty Corp. v. Coleman, 455 U.S. 363, 37879 (1982) (allowing suit by a non-profit for
“impairment of its organizational mission” and “drain
on its resources”); Baytree of Inverrary Realty
Partners v. City of Lauderhill, 873 F.2d 1407, 1408-09
(11th Cir. 1989) (allowing a non-minority developer to
challenge a zoning decision as discriminatory)).
Proximate cause, we said, was “not a one-size fits-all
analysis.” Id. Rather, it “can differ statute by statute.”
Id.
Instead, noting the Supreme Court’s “broad and
inclusive” readings of the FHA, e.g., Trafficante, 409
U.S. at 209, we agreed with the City that the proper
standard for proximate cause was “foreseeability.” Id.
at 1281-82. Damages claims under the FHA were
analogous to tort claims, we reasoned, and tort law

16a
had traditionally relied on foreseeability as the
standard by which to evaluate causal relationships
and to limit the expansion of liability. See id. at 1282.
The City had met this standard; “it claim[ed] that the
[Banks’] discriminatory lending caused property
owned by minorities to enter premature foreclosure,
costing the City tax revenue and municipal
expenditures.” Id. at 1282. We said that “[a]lthough
there are several links in that causal chain, none are
unforeseeable,” and also noted that the regression
analyses in the complaints made the pleadings more
than just speculative. Id. We made no comment,
though, on “whether the City will be able to actually
prove its causal claims.” Id. at 1283 (emphasis added).
That would be worked out in the district court on a
factual basis far beyond the four corners of the
complaint. Accordingly, we remanded the case. Id. at
1289.
Bank of America and Wells Fargo each filed
petitions for certiorari, which the Supreme Court
granted. It consolidated the two cases.
C. Supreme Court Decision
The Supreme Court began by resolving the
“statutory standing” question of whether the City had
a cause of action under the FHA. Bank of Am., 137 S.
Ct. at 1302-05. The Court agreed that its previous
cases had interpreted the statute broadly for standing
purposes. See id. Congress had even amended the
statute after these decisions, without making any
change to the relevant language, indicating its assent
to the Court’s expansive reading of the original text.
Id. at 1303-04.
On proximate cause, though, the Supreme Court
disagreed with this panel but reached no firm

17a
conclusions.
It determined that foreseeability,
standing alone, was not a sufficiently rigorous
standard. See id. at 1306 (“[T]he Eleventh Circuit
erred in holding that foreseeability is sufficient to
establish proximate cause under the FHA.”). The
Court explained that “foreseeability alone does not
ensure the close connection that proximate cause
requires.” Id. Since lending and housing policies are
deeply interconnected with “economic and social life,”
the Court said that “[a] violation of the FHA may . . .
‘be expected to cause ripples of harm to flow’ far
beyond the defendant’s misconduct.” Id. (quoting
Assoc. Gen. Contractors of Cal., Inc. v. Carpenters,
459 U.S. 519, 534 (1983)). Since “[n]othing in the
statute suggests that Congress intended to provide a
remedy wherever those ripples travel,” foreseeability
alone could not be enough. Id.
While the Court was clear that foreseeability was
not enough, it was less definitive when it came to
laying out what more FHA proximate cause required.
Its key instructions were these:
Rather [than foreseeability], proximate cause
under the FHA requires “some direct relation
between the injury asserted and the injurious
conduct alleged.” Holmes v. Sec. Investor Protect.
Corp., 503 U.S. 258, 268 (1992). A damages claim
under the statute “is analogous to a number of tort
actions recognized at common law,” Curtis v.
Loether, 415 U.S. 189, 195 (1974), and we have
repeatedly applied directness principles to
statutes with “common-law foundations,” Anza v.
Ideal Steel Supply Corp., 547 U.S. 451, 457 (2007).
“The general tendency” in these cases is, “in
regard to damages at least, is not to go beyond the

18a
first step.” Hemi Grp., LLC v. City of New York,
559 U.S. 1, 10 (2010). What falls within that “first
step” depends in part on the “nature of the
statutory cause of action,” Lexmark Int’l, Inc. v.
Static Control Components, Inc., 134 S. Ct. 1377,
1390 (2014), and an assessment “of what is
administratively possible and convenient,”
Holmes, 503 U.S. at 268.
Bank of Am., 137 S. Ct. at 1306 (citation formats
altered).
The Court remanded for further proceedings,
stating that “[t]he lower courts should define, in the
first instance, the contours of proximate cause under
the FHA and decide how that standard applies to the
City’s claims for lost property-tax revenue and
increased municipal expenses.” Id. Lacking “the
benefit of [the Eleventh Circuit’s] judgment” on how
to apply the principles it had laid out, and with no
other circuits having weighed in yet, the Court
“decline[d]” to speak first. Id.
In this opinion, we endeavor carefully to apply the
Court’s mandate to these complaints, to determine if
they plausibly state a claim under the Fair Housing
Act.
II. Standard of Review
We review a district court’s decision to dismiss a
complaint de novo “accepting the factual allegations
in the complaint as true and construing them in the
light most favorable to the plaintiff.” Boyd v. Warden,
Holman Corr. Facility, 856 F.3d 853, 863-64 (11th Cir.
2017); see also Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009). Here, the district court also denied leave to
amend, which we generally review for abuse of

19a
discretion; however, when, as here, leave to amend
was denied “on the grounds of futility,” we review the
denial de novo “because it is a conclusion of law that
an amended complaint would necessarily fail.” Id.
(“An amendment is considered futile when the claim,
as amended, would still be subject to dismissal.”).
Essentially, then, we must consider de novo whether
the City’s amended complaints, which the district
court declined to entertain, have stated a claim. This
is in line with the review conducted by the Supreme
Court, Bank of Am., 137 S. Ct. at 1302, and with our
review when we first heard these cases, Bank of Am.,
800 F.3d at 1271.
For this case to proceed past a motion to dismiss, we
need not find that the Banks’ actions in fact
proximately caused the plaintiff’s injuries; we must
find that the City plausibly alleged that they did so.
We evaluate whether each complaint “contain[s]
sufficient factual matter . . . to ‘state a claim to relief
that is plausible on its face.’” Iqbal, 556 U.S. at 678
(quoting Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
570 (2007)). The standard is “plausibility”; it is
decidedly not a “probability requirement.” Id. Still,
plausibility requires that allegations push past the
line of showing “a sheer possibility” and “[w]here a
complaint pleads facts that are ‘merely consistent
with’ a defendant’s liability, it ‘stops short of the line
between possibility and plausibility of entitlement to
relief.’” Id. (quoting Twombly, 550 U.S. at 557). Facts
are taken as true so long as they are not a “formulaic
recitation of the elements” or “conclusory.” Id. at 681
(quoting Twombly, 550 U.S. at 555).

20a
III. Analysis
Prosser and Keeton observed, of proximate cause,
that “[t]here is perhaps nothing in the entire field of
law which has called forth more disagreement, or
upon which the opinions are in such a welter of
confusion.” W. Page Keeton et al., Prosser and Keeton
on the Law of Torts § 41, at 263 (5th ed. 1984). The
Supreme Court has not directed the lower courts to
propose a sweeping standard for proximate cause that
would apply across all cases or to define the word
“direct” for all time. Indeed, we are not looking for
(and could not find) “a black-letter rule that will
dictate the result in every case.” Holmes, 503 U.S. at
272 n.20. Rather, we must evaluate where, as a
matter of judicial economy and policy, we ought to
draw the line for this particular cause of action and
these particular claims. As the Court has said,
proximate cause “label[s] generically the judicial tools
used to limit a person’s responsibility for the
consequences of that person’s own acts. . . .
[P]roximate cause reflects ideas of what justice
demands, or of what is administratively possible and
convenient.” Id. at 268 (quotation omitted).
We begin our analysis, then, with the Supreme
Court’s instructions. Proximate cause under the FHA
certainly requires foreseeability, which is present
here but is not enough. See Bank of Am. 137 S. Ct. at
1305-06. Proximate cause also requires “some direct
relation between the injury asserted and the injurious
conduct alleged.” Id. at 1306 (quoting Holmes, 503
U.S. at 268). Our task today is to determine what
plaintiffs must do in order to plausibly allege “some
direct relation” and to evaluate whether the City’s
complaints have met that standard.

21a
At the outset, we consider the central phrase “some
direct relation.” There is give in the joints between
“some direct relation” and “some direct causation.”
These are not identical concepts, and so when, for
example, Bank of America suggests that Miami’s
injuries “were not caused ‘directly’ by a loan,” it may
not be presenting the question in a way that precisely
and accurately reflects the Court’s instruction. We
might agree that the injuries were not “caused
directly by a loan” and yet still find “some direct
relation” between the injury and the statutory
violations. Causation is “the act or process of
causing,” and to “cause” something is “to serve as
cause or occasion of” or “to bring [it] into existence.”
Webster’s Third New International Dictionary 356
(2002). Relation, on the other hand is “the mode in
which one thing or entity stands to another, itself, or
others,” or “a logical bond.” Id. at 1916. We are
considering “direct relation,” as a critical aspect of
“proximate cause,” so some palpable causation is
required.
We ought not forget, though, that
foreseeability, while insufficient on its own, remains a
requirement and ensures some causal connection.
“Some direct relation,” then, works to guarantee that
there is a “logical bond” between violation and injury.
Put another way, while foreseeability ensures “cause,”
“some direct relation” ensures that the cause is
sufficiently “proximate.”
Further, the law requires “some direct relation” not
any quantifiable amount of it. The standard is
softened by the modifier “some,” meaning, “of an
unspecified but appreciable or not inconsiderable
quantity, amount, extent or degree.” Id. at 2171. The
requirement is therefore somewhat easier to meet

22a
than if the Court had said we needed to find “a direct
relation.”
We are also aware that our analysis must be tied to
the Fair Housing Act in a specific way. The Supreme
Court twice emphasized that the policy judgments
that shape our proximate cause analysis will
necessarily depend on the FHA. For starters, “what
falls within [the] ‘first step,’” to which proximate cause
is “general[ly]” constrained, will “depend[] in part on
the ‘nature of the statutory cause of action.’” Bank of
Am., 137 S. Ct. at 1306. Second, our task is to “define,
in the first instance, the contours of proximate cause
under the FHA and” to apply that standard to the
City’s claims. Id. (emphasis added).
After thoroughly reviewing the City’s complaints,
we are satisfied that we can find “some direct
relation,” a meaningful and logical continuity,
between the City’s tax revenue injury and the Banks’
conduct by following the four guiding principles the
Court outlined in Bank of America. We begin by
considering (a) “what falls within [the] ‘first step’” of
the causal chain, as we are aware of “‘[t]he general
tendency’ in these cases . . . ‘not to go beyond [that]
first step.’” Id. (quoting Hemi Grp., 559 U.S. at 10).
What falls within the first step will, we’re told, depend
on (b) “the nature of the statutory cause of action,” and
(c) “an assessment of what is administratively
possible and convenient.” Id. Finally, since the
common law is the basis for the direct relation
requirement, we also look to (d) the FHA’s commonlaw antecedents to the extent that we can. Id. We
consider each of these principles in turn.

23a
A. An intervening step does not vitiate proximate
cause
The Court has also told us that “[t]he general
tendency in these cases, in regard to damages at least,
is not to go beyond the first step.” Bank of Am., 137 S.
Ct. at 1306 (quotations omitted). Both Banks, in their
briefing on remand, make much of this “first step”
analysis. It is clear, though, that proximate cause
does not always cut off at the first step after a violative
act. A general tendency is not the same as a hard and
fast rule that dictates the outcome in every case, and
Supreme Court precedent shows that an intervening
step will not vitiate proximate cause in all instances.
What is more important, precedent reveals, is the
certainty with which we can say the injury is fairly
attributable to the statutory violation. An extended
causal chain often makes attribution more difficult,
but may not be the final word.
1.
Supreme Court precedent makes crystal clear that
an intervening step does not necessarily mean
proximate cause has not been plausibly alleged.
Lexmark International, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377 (2014), is a good
starting point precisely because the chain of causation
there was complex and involved more than one simple
step.
The basic facts were these: Lexmark
manufactured and sold both laser printers and toner
cartridges for those printers. Lexmark, 134 S. Ct. at
1383. Other companies would buy used cartridges,
then refurbish and resell them. Id. The plaintiff
company, Static Control, made and sold the
components that the refurbishers needed to operate.
Id. at 1384. Lexmark would have preferred that its

24a
customers return used cartridges directly to Lexmark,
so that it could refurbish and resell them itself. See
id. at 1383. Static Control sued under the Lanham
Act, alleging that Lexmark falsely and misleadingly
led Lexmark’s customers to believe that they were
legally obligated to return spent cartridges to
Lexmark and also led the refurbishers to believe that
their businesses were illegal. Id. at 1384. This, said
Static Control, violated the Lanham Act’s prohibition
on “false or misleading representation of fact . . . in
commercial advertising or promotion [that]
misrepresents the nature, characteristics, [or]
qualities . . . [of] another person’s goods, services, or
commercial activities.” Id. (quoting 15 U.S.C. §
1125(a)). The Supreme Court granted certiorari in
Lexmark to resolve issues of “statutory standing”
under the Lanham Act, including proximate cause.
See id. at 1385, 1390. The central question was
“whether the harm alleged has a sufficiently close
connection to the conduct the statute prohibits.” Id.
An “intervening step of consumer deception”
between Lexmark’s alleged conduct and the harm
sustained by Static Control was not fatal to the claim.
Id. at 1391. The Court said that a Lanham Act
plaintiff could demonstrate proximate cause by
“show[ing] . . . injury flowing directly from the
deception wrought by the defendant’s advertising,”
including, critically, “deception of consumers
caus[ing] them to withhold trade from the plaintiff.”
Id. (emphasis added).
Common-law principles
supported the idea that “a plaintiff [could] be directly
injured” even when a misrepresentation was made to
a third party. Id. Liability was not without limits,
though. A company injured only by a third party’s

25a
“inability to meet [its] financial obligations” could not
sue. Id. at 1392 (quotation omitted).
The Court acknowledged, as it would again in Bank
of America, the “general tendency” not to go “beyond
the first step.” Id. at 1394; see Bank of Am., 137 S. Ct.
at 1306. In the circumstances presented by Lexmark,
though, the nature of the conduct and the harm
sustained persuaded the Court against following this
general tendency. See Lexmark, 134 S. Ct. at 1394.
The Court explained its reluctance to invariably limit
liability to the first step this way:
[T]he reason for that general tendency is that
there ordinarily is a “discontinuity” between the
injury to the direct victim and the injury to the
indirect victim, so that the latter is not surely
attributable to the former (and thus also to the
defendant’s conduct), but might instead have
resulted from “any number of other reasons.”
Id. (quoting Anza, 547 U.S. at 458-59). This
“discontinuity” is evaluated in terms of logical
relations and policy judgments. See Anza, 547 U.S. at
459-60. In Lexmark, if the refurbishers sold fewer
cartridges, “it would follow more or less
automatically” that Static Control suffered a
proportional injury, “without the need for any
‘speculative . . . proceedings’ or ‘intricate, uncertain
inquiries.’” Lexmark, 134 S. Ct. at 1394 (quoting
Anza, 547 U.S. at 459-60).
There was no “discontinuity” problem in Lexmark
because of the close connection between Static Control
and the remanufacturers it supplied. “Any false
advertising that reduced the remanufacturers’
business necessarily injured Static Control as well.”

26a
Id. There was “something very close to a 1:1
relationship” between harm to remanufacturers and
harm to Static Control because the false advertising
hurt Static Control in direct proportion to how much
it hurt the remanufacturers. Id. In other words, harm
to Static Control was “so integral an aspect of the
[violation] alleged” that the Court went beyond the
first step in the causal chain. Id.
Still, Lexmark cabined liability by requiring
“economic or reputational injury flowing directly from
the [defendant’s] deception.” Id. at 1391.
This
requirement would not be met “when the deception
produces injuries to a fellow commercial actor that in
turn affect the plaintiff.” Id. By way of example, the
Court suggested that a competitor whose business
failed because of false advertising could sue the false
advertiser, but that competitor’s landlord could not
sue the false advertiser for the value of rent payments
he could no longer collect. See id. The landlord’s
injury suffered from a “discontinuity” that Static
Control’s injury did not. See id. at 1394.
All of this goes to show that intervening steps in a
causal chain cannot automatically and invariably end
the analysis. If they could, there would be no
meaningful way to distinguish Static Control from the
hypothetical landlord. Each is only injured if the
defendant’s direct competitor (the refurbishers on the
actual facts of the case) is injured first. The chain of
causation is an important part of the analysis, but the
real deciding factor, at least for this Lanham Act case,
was whether there was a discontinuity between
violation and injury, or, put another way, whether the
injurious conduct “necessarily injured [the plaintiff]
as well” as the first-step victim, in such a way that the

27a
first-step victim was “not [a] more immediate victim[]”
than the plaintiff. Id. Thus we may look to whether
the injury is “surely attributable” to the statutory
violation; we do not simply count the steps in the
causal chain. Id.
Bridge v. Phoenix Bond & Indemnity Co., 553 U.S.
639 (2008), a RICO mail fraud case, makes the same
point. In a suit between bidders at County-operated
tax lien auctions, the defendants were accused of
filing fraudulent documents in order to increase their
success at the auctions at the expense of the plaintiffs.
See Bridge, 553 U.S. at 642-44. To the extent that a
chain of causation was discussed at all, it was
explained in terms of reliance. See id. at 657-58. The
defendants argued that the County, not the plaintiffs,
had relied on their misrepresentations. Id. at 648.
The Court held that the plaintiffs’ injuries were
proximately
caused
by
the
defendants’
misrepresentations even though the plaintiffs had not
themselves relied on the fraudulent filings—“firstparty reliance” was not “necessary to ensure that
there was a sufficiently direct relationship between
the defendant’s wrongful conduct and the plaintiff’s
injury” to satisfy proximate cause. Id. at 657-58
(emphasis added).
The “direct relationship” in Bridge turned on a
connection between harm and injury that was nonformalistic and disconnected from step-counting. The
decision instead rested on policy considerations, see
id. at 654-55, and on common-law principles, see id. at
656-57. The Court never mentioned a “first step”
default rule, but it’s clear that the plaintiffs’ harm
would not have fallen in the first step, since the
County
had
to
rely
on
the
defendants’

28a
misrepresentations and then had to conduct auctions
on these fraudulent terms before the plaintiffs could
be injured. Instead, Bridge observed that the Second
Restatement of Torts “does not say that only those
who rely on the misrepresentation”—that is, those at
the front of the chain of causation—“can suffer a
legally cognizable injury.” Bridge, 553 U.S. at 656
(citing 3 Restatement (Second) of Torts §548A (1976)).
While neither Lexmark nor Bridge arose under the
FHA, their approach to the first-step rule is
instructive. Both decisions acknowledge that “under
common-law principles, a plaintiff can be directly
injured by a misrepresentation even where” someone
else relied on it. Lexmark, 134 S. Ct. at 1391 (citing
Bridge, 553 U.S. at 639). This is a foundational
principle of proximate cause; it is not an idiosyncratic
wrinkle associated with a particular statute or type of
claim. E.g., Blue Shield of Virginia v. McCready, 457
U.S. 465, 482-84 (1982) (discussing “antitrust injury”
as a requirement of proximate cause under certain
statutes).
2.
Turning to our case, the Banks argue that the City
fails to allege proximate cause simply because its
injuries fall outside of the “first step.” So wooden a
rule would be inconsistent with precedent as well as
with the oft-noted statement that, when it comes to
proximate cause, it is “virtually impossible to
announce a blackletter rule that will dictate the result
in every case.” Assoc. Gen., 549 U.S. at 536 (citing
Blue Shield, 457 U.S. at 477 n.13; Palsgraf v. Long
Island R. Co., 162 N.E. 99, 103 (N.Y. 1928) (“[W]hat is
a proximate cause, depend[s] in each case upon many
considerations . . . .”) (Andrews, J., dissenting)); see

29a
also Lexmark, 134 S. Ct. at 1390 (“The proximatecause inquiry is not easy to define . . .”); Bridge, 553
U.S. at 659 (“[P]roximate cause is generally not
amenable to bright-line rules.”); Holmes, 503 U.S. at
272 n.20. Proceeding beyond a first step here is
consistent with the instruction that we stop at the
first step only as a “general tendency,” and that we
also consider the nature of the cause of action,
principles of continuity, and administrative
feasibility. Bank of Am., 137 S. Ct. at 1306.
Wells Fargo nevertheless argues that the City’s
claims cannot survive proximate cause analysis
because they are wholly “contingent,” and points to
Holmes v. Securities Investor Protection Corp., 503
U.S. 258 (1992), as an example of a case where
proximate cause failed “because the [plaintiffs’]
injuries were ‘purely contingent on the harm suffered
by [third parties].’ [Holmes, 503 U.S.] at 271.” But
Holmes established no such rule. Rather, it explicitly
identified three distinct considerations by which
proximate cause should be evaluated. Holmes, 503
U.S. at 269. We discuss these in considerable detail,
infra, but for now it is enough to observe that
contingency on third parties is not among them. The
Court would have had no recourse to policy
considerations if it could have disposed of Holmes
merely based on the involvement of a third party.6
We also reject the application of Anza v. Ideal Steel Supply
Corp, 547 U.S. 451, 457 (2006), that Wells Fargo has offered in
its briefing on remand. It cites Anza for its proposed rule that
proximate cause cannot exist where the causes of a plaintiff’s
injury are distinct from the violative conduct. But this amounts
to simply assuming the answer to our question. Whether the
causes of the City’s injury are too distinct and too remote from
the violative conduct is at the heart of the proximate cause
6

30a
Indeed, if Wells Fargo were right about the
application of the first-step rule here, this case would
be over at the pleading stage simply because the chain
of causation involves more than a single step. And
there would have been no reason for the Supreme
Court to remand this case back to our Court for
further proximate cause analysis. The Supreme
Court, too, was obviously aware that individual
homeowners were involved in this case. Again, if that
alone were enough to bar proximate cause, the Court
would hardly have sought the input of the lower
federal courts. The essential point for us then is that
the “general tendency” to stop at the first step is just
that, a general tendency, not an inexorable rule.
If, in fact, there were a hard and fast “only the first
step” rule limiting liability, a plaintiff homeowner
who was forced into foreclosure on account of a
predatory bank loan that violated the Fair Housing
Act would never be able to plausibly allege that the
foreclosure was proximately caused by the bank’s
predation. By the Banks’ lights, there are two critical
steps in the chain of causation between the act of
redlining and foreclosure: the middle and distinct step
being a homeowner’s default. So inexorable a rule
would even bar the homeowner from seeking redress
for the foreclosure under the FHA, since the
foreclosure only occurs after the homeowner takes the
independent step of failing to make payments on the
predatory loan.

inquiry. Furthermore, the Bank’s suggested rule overlooks that
Anza applied the factors drawn from Holmes. Anza, 547 U.S. at
459-60.

31a
If, arguendo, we were to count steps, the Banks’
arguments would still be unconvincing. For starters,
the Banks overstate the length of the causal chain by
reading the complaints unfavorably to the City,
ignoring, among other things, allegations that Bank
of America “fail[ed] to offer refinancing or loan
modifications to minority customers on fair terms”
and that Wells Fargo “limit[ed] the ability of minority
borrowers to refinance out of the same predatory loans
that they previously received from the Bank.” BoA
FAC at 21; WF FAC at 32. These alleged torts and
acts of redlining occurred after—perhaps long after—
the bad loans were originated, and may have occurred
far down the causal chain, shortly before foreclosure.
To take one example of their step-counting, Wells
Fargo says that injury to the City from lost propertytax revenue falls six links down the causal chain and
depends on the actions of five independent parties.
This count ignores the complaints’ allegations that
distinct FHA violations occurred when homeowners
already having financial difficulties were attempting
to refinance or otherwise modify their loans, and
instead counts only from the point of loan origination.
Because loan modification and refinancing can occur
after a borrower defaults, FHA violations of this type
could be far more closely connected to the City’s lost
revenue. At the very least there might only be one
step between the denial of refinancing and a bank’s
foreclosing on a property already in default.
Additionally, the Bank counts a reduction in a
home’s market value and a concomitant tax
assessment of that property as comprising two
distinct steps in the causal chain and speculates that
foreclosures are not carried out by the Banks
themselves but by “a fourth party (presumably the

32a
mortgage servicers).” The complaints make no
mention of an independent mortgage servicer, and in
fact suggest that the Banks were involved in
refinancing and loan modifications, presumably
serving themselves as the loans’ mortgage servicers.
By ignoring these unfavorable facts in the pleadings,
and by generally refusing to draw inferences in the
City’s favor, this accounting fails to read the
complaints in the light most favorable to the City, as
we must at the motion to dismiss stage.
Additionally, Wells Fargo’s count is undermined by
the very principles animating the general tendency in
tort to stop at the first step. We generally stop there
because, as the time frame is extended and the chain
of causation becomes more attenuated, additional
variables (maybe even causes) may intervene, making
it more difficult to fairly attribute fault to the
tortfeasor. As the Supreme Court put it in this case,
“the housing market is interconnected with economic
and social life,” and “[a] violation of the FHA may . . .
be expected to cause ripples of harm to flow far beyond
the defendant’s misconduct.” Bank of Am., 137 S. Ct.
at 1306 (quotations omitted).
Thus, a further problem with the Banks’ count is
that the variety of factors that we worry might
independently explain a homeowner’s foreclosure
(like the loss of a job or spiking health care costs) all
occur at the front end of the step-counting, between
the act or acts of redlining and the foreclosure, not
later. Once we have reached increased foreclosures on
a neighborhood or citywide basis, it seems to us that
the path to the City’s substantially decreased tax base
is clear, direct and immediate; we can discern no
obvious intervening roadblocks. Virtually all the

33a
independent variables posited by the Banks occur
before foreclosure. We can identify the same kind of
continuity here as in Lexmark: if the Banks’ predatory
lending practices injured homeowners and led to
foreclosures on a massive scale, these injuries
inflicted on multiple homeowners in the same city
must almost surely have injured the City as well.
There is no discontinuity in this portion of the causal
chain. Thus, since the risks of multiple independent
variables after foreclosure are not likely, and are not
many, even if we were to count steps in the way the
Banks have suggested, the principles animating the
general first-step rule do not support the Banks’
calculation of the post-foreclosure causal chain.
The Banks’ step-counting is self-evidently
conducted so as to identify as many steps as possible.
We might just as easily place the same injury at the
second or third step: First, a bank extends predatory
loans in violation of the FHA. Second, homeowners
default. Third, the bank forecloses and the property
values plummet, necessarily reducing the City’s tax
base and injuring its fisc. The chain will be shorter
still if struggling homeowners sought to refinance and
then faced swift foreclosures when fair terms were not
extended. This count, which draws inferences in favor
of the City, is decidedly more appropriate for the
motion to dismiss stage. At the very least, the ease
with which we can count far fewer steps reinforces our
view that step-counting is of limited value and cannot
alone settle the challenging questions of proximate
cause here.

34a
B. The text and history of the FHA suggest a farreaching statute
The Supreme Court also instructs us to consider
“the nature of the statutory cause of action.” Id. As
we see it, the FHA has a broad remedial purpose, is
written in decidedly far-reaching terms, and is
perfectly capable of accommodating the type of
aggregative causal connection that the City has
identified between the Banks’ alleged misconduct and
financial harm to Miami. Proximate cause is only one
means by which Congress sets the scope of liability.
Thus, for example “Congress might express limits by
defining the parties who may sue, by using
affirmative defenses, by providing limited remedies,
by narrowly proscribing prohibited conduct, or by
defining statutory terms.” Sandra F. Sperino,
Statutory Proximate Cause, 88 Notre Dame L. Rev.
1199, 1236 (2013). The result, especially for complex
and repeatedly amended statutes like the FHA, is an
“interconnected web of congressional judgments about
how and when liability should be limited.” Id. To
develop a proximate cause standard without taking
the full statutory scheme into account would be “to
intrude upon” this web and to ignore the will of
Congress. See id.
Most obviously, the “[t]he language of the [FHA] is
broad and inclusive.” Trafficante v. Metro. Life Ins.
Co., 409 U.S. 205, 209 (1972). It provides for suit by
“an aggrieved person,” 42 U.S.C. § 3613(a)(1)(A),
(c)(1), expansively defined as “any person who claims
to have been injured by a discriminatory housing
practice,” § 3602(i) (emphasis added). As we’ve said
before, “‘any’ means all.” Jones v. Waffle House, Inc.,
866 F.3d 1257, 1267 (11th Cir. 2017) (emphases
added). This language facilitates suits by a broad

35a
range of potential plaintiffs, and the Court has told us
that it evinces not merely “a congressional intent to
confer standing broadly,” Bank of Am., 137 S. Ct. at
1303, but “a congressional intention to define
standing as broadly as it is permitted by Article III,”
Trafficante, 409 U.S. at 209. The Court has also noted
that later Congresses amended the FHA with full
knowledge of the Court’s broad readings and without
changing the language the Court had construed so
broadly. Bank of Am., 137 S. Ct. at 1303.
The Fair Housing Act also prohibits a wide range of
conduct. Thus, it is a violation “to refuse to sell or rent
. . . or to refuse to negotiate . . . or otherwise make
unavailable or deny, a dwelling to any person because
of race, color, religion, sex, familial status, or national
origin” as well as “[t]o discriminate against any person
in the terms, conditions, or privileges of sale or rental
of a dwelling, or in the provision of services or facilities
in connection therewith” for any of the same reasons.
42 U.S.C. § 3604(a)-(b). It also expressly forbids racial
preferences in housing notices and advertisements,
misrepresentation of housing availability based on
race, and “representations regarding the entry or
prospective entry into the neighborhood” of members
of protected classes. Id. § 3604(c)-(e). Most relevant
for the City’s claims, it is also “unlawful for any person
or other entity whose business includes engaging in
residential real estate-related transactions to
discriminate against any person in making available
such a transaction, or in the terms or conditions of
such a transaction,” including in loans “for
purchasing, constructing, improving, repairing, or
maintaining a dwelling.” Id. § 3605(a). Again, this is
far-reaching, and takes aim at discrimination that
might be found throughout the real estate market and

36a
throughout the process of buying, maintaining, or
selling a home.
The injury to the City is as valid and as cognizable
under the FHA as the injury to the homeowners. See
Bank of Am., 137 S. Ct. at 1303 (finding the City has
standing). And cities have been allowed to sue for
similar injuries in the past, as in Gladstone Realtors
v. Village of Bellwood, 441 U.S. 91 (1979), where a city
alleged it was injured when segregative racial
steering practices by two real estate firms redounded
to “the economic and social detriment of the citizens of
[the] village.” Id. at 95. The village said “racial
steering effectively manipulate[d] the housing
market” because marketing homes in certain areas
only to buyers of certain races served to dramatically
reduce the number of potential buyers. Id. at 109-10.
The Court identified “profound” consequences in
neighborhoods impacted by this practice, including
financial consequences. Id.; see id. at 111 & n.24. Not
only did the village have standing to challenge racial
steering, but the Court even said that “[a] significant
reduction in property values directly injures a
municipality by diminishing its tax base.” Id. at 11011 (emphasis added). The phrase “directly injures”
was not used in a causal sense, but nonetheless
suggests that the Court has not traditionally
considered this type of injury to be overly attenuated
or nebulous.
Moving beyond the text, in evaluating proximate
cause for a statutory cause of action, the Court has
repeatedly directed us to consider a statute’s remedial
aims—Congress’s priorities in passing it. See, e.g.,
Blue Shield, 457 U.S. at 478 (considering “the
relationship of the injury alleged with those forms of

37a
injury about which Congress was likely to have been
concerned”); see also Lexmark, 134 S. Ct. at 1393
(identifying “diversion of sales to a direct competitor”
as possibly “the paradigmatic direct injury from false
advertising”); Assoc. Gen. Contractors of Cal., Inc. v.
California State Council of Carpenters, 459 U.S. 519,
538 (1983) (following Blue Shield in evaluating
whether an injury fell “squarely within the area of
congressional concern,” (quoting Blue Shield, 457 U.S.
at 484)); cf. Holmes, 503 U.S. at 274 (“[W]e fear that
RICO’s remedial purposes would more probably be
hobbled than helped . . . .” if the plaintiff’s proximate
cause standard were adopted).
The legislative history of the FHA is less detailed
than most. Congress passed it through “a truncated
legislative process in which no committee reports
were issued.” Rodney A. Smolla, Federal Civil Rights
Acts § 3:10, at 546-47 (3d ed. 2017). A legislative
assistant who worked on the legislation recalled after
the Act’s passage that this was “a time when riots
threatened to close down every major city in the
country,” and that the Act was presented as a
response; it was hoped that “the law as a teacher
might overcome the ignorance and fear of whites
which previously had blocked attempts to lower a
black-white barrier.” Jean Eberhart Dubofsky, Fair
Housing: A Legislative History and a Perspective, 8
Washburn L. J. 149, 154 (1969). The legislative
history that we do have and the context in which the
FHA arose both comport with a proximate cause
standard that can accommodate claims like the City’s.
Thus, for example, the Supreme Court has recently
recounted how, in response to the turmoil of the mid60s, President Johnson convened the National
Advisory Commission on Civil Disorders (the “Kerner

38a
Commission”),
which
“identified
residential
segregation and unequal housing and economic
conditions in the inner cities as significant,
underlying causes of the social unrest.” Tex. Dept. of
Hous. & Cmty. Affairs v. Inclusive Cmtys. Project,
Inc., 135 S. Ct. 2507, 2516 (2015). “The Commission
concluded that ‘[o]ur Nation is moving toward two
societies, one black, one white—separate and
unequal.’” Id. (quoting Report of the National
Advisory Commission on Civil Disorders 1 (1968)).
In passing the Fair Housing Act, Congress explicitly
took aim at these broad social ills—maladies that
were being felt on a citywide scale. Congress did not
just target individual discriminatory landlords, but
sought to reshape in meaningful ways the landscape
of American cities. Senator Walter Mondale, the chief
sponsor of the bill that would become the FHA,
explained that the Act was intended to end housing
segregation as a means of bringing about racial
equality more broadly. The legislation’s goals were
directed at the neighborhood level and indeed were
aimed beyond the housing market:
[O]vert racial discrimination remains in one
major sector of American life—that of housing. . .
[F]air housing is one more step toward achieving
equality in opportunity and education . . . . The
soundest, long-range way to attack segregated
schools is to attack the segregated neighborhood.
114 Cong. Rec. 3421 (Feb. 20, 1968); see also id. at
3422 (“[I]n truly integrated neighborhoods people
have been able to live in peace and harmony—and
both Negroes and whites are the richer for the
experience.”). A co-sponsor asked, “As segregation
continues to grow . . . will not the cities which house

39a
the majority of the nation’s industrial and commercial
life find themselves less and less able to cope with
their problems, financially and in every other way?”
Id. at 2988 (Feb. 14, 1968) (statement of Sen. Brooke).
The legislation, as its sponsors saw it, was designed to
extend through chains of causation. Among other
things, its sponsors quite specifically referenced harm
to a city’s tax base, arising out of discrimination in the
housing market. Senator Mondale put it this way:
Declining tax base, poor sanitation, loss of jobs,
inadequate educational opportunity, and urban
squalor will persist as long as discrimination
forces millions to live in the rotting cores of central
cities.
Id. at 2274 (Feb. 6, 1968) (emphasis added).
It does not go too far to suggest, at least at a high
order of abstraction, that in setting a standard for
proximate cause the FHA looks far beyond the single
most immediate consequence of a violation. Limiting
the proximate cause calculus in that way would not be
consonant with the powerful remedial purposes
animating the bill.
The Act took aim at “the
segregated neighborhood” in general, not just at the
prejudiced building owner.
This is all to say that, notwithstanding issues of
proof that might arise later in litigation, the FHA was
written in broad terms and was aimed at broad
problems. We can discern no reason to think as a
general matter that the City’s claims are out of step
with the “nature of the statutory cause of action” and
the remedial scheme that Congress created.

40a
C. Tracing causation here is not administratively
infeasible
Perhaps the most important step in the proximate
cause analysis in this case is consideration of “what is
administratively possible and convenient.” Bank of
Am., 137 S. Ct. at 1306 (quoting Holmes, 503 U.S. at
268). This is because administrative feasibility is
most closely connected to the policy judgments upon
which proximate cause standards necessarily depend.
See Holmes, 503 U.S. at 268 (“[P]roximate cause
reflects ideas of what justice demands, or of what is
administratively possible and convenient.” (internal
quotations omitted)). In no small part, we conclude
that the City has adequately—that is to say, plausibly
—pled proximate cause because we find it entirely
practicable and not unduly inconvenient for the courts
to handle damages like the City’s tax revenue injury.
Cases like this will never be among the simplest that
our courts see, but the federal courts regularly handle
complex and high-stakes cases, so complexity alone is
no reason to dismiss a case on the pleadings. As pled,
the City’s injury is ascertainable with a sufficient
degree of precision for some of its economic injuries,
specifically the harm to its tax base. Since the City’s
injuries are unique to its treasury, no other plaintiff
will plead the same injuries, or attempt to recover the
same funds. The City is in the best position to allege
and litigate this peculiar kind of injury, to deter future
violations and, theoretically, to actually remedy its
distinctive injury.
In Holmes v. Securities Investor Protection Corp.,
503 U.S. 258 (1992), the Court conducted a proximate
cause analysis focused on administrative feasibility.
Holmes involved the Securities Investor Protection
Corporation (SIPC), a federally created non-profit

41a
corporation empowered to sue broker-dealers who
“ha[ve] failed or [are] in danger of failing to meet
[their] obligations to [their] customers.” Id. at 261
(quoting 15 U.S.C. § 78eee(a)(3)). In Holmes, SIPC
alleged that broker-dealers manipulated securities in
“a ‘pattern of racketeering activity’” that violated
RICO, 18 U.S.C. §§ 1962, 1961(1), (5). Holmes, 503
U.S. at 263. The case asked whether SIPC, “neither a
purchaser nor a seller of securities” could sue under
RICO even though its claims were, in essence, the
same claims that could have been brought by
investors under Rule 10b-5, under which SIPC lacked
standing. Id. at 265 n.7.
RICO allows for a civil action by “[a]ny person
injured in his business or property by reason of a
violation of section 1962.” Id. at 265 (quoting 18 U.S.C.
§ 1964(c)). SIPC claimed that it should be allowed to
sue under this provision “because it [was] subrogated
to the rights of those customers of the broker-dealers
who did not purchase manipulated securities.” Id. at
270. The chain of causation was thus the following:
The defendants manipulated securities and brokerdealers bought manipulated securities. The brokerdealers sold some of their customers these
manipulated securities, and their value plummeted
when the fraud was exposed. As a result, the brokerdealers could not meet their obligations to their
customers, including to some who had not even bought
manipulated securities. It was these nonpurchasing
customers’ rights that SIPC argued it was subrogated
to. See id. at 270-71. Granting, ““arguendo’’” that
SIPC was subrogated as it claimed, Holmes, 503 U.S.
at 271, the Court found that “the conspirators’ conduct
did not proximately cause the nonpurchasing
customers’ injury,” id. at 270.

42a
The Court pointed to three distinct reasons why
“directness of relationship” was “one of [the] central
elements” of “Clayton Act causation.” Holmes, 503
U.S. at 269. First, less direct injuries are harder to
attribute to a violation. Id. Second, claims at different
levels of remove complicated the apportionment of
harm among plaintiffs at different levels. Id. Third,
directly injured plaintiffs usually can be counted on to
sue and deter wrongdoing. Id. at 269-70. All three
reasons for directness were said to apply “with equal
force” to antitrust and RICO suits. Id. at 270. The
Court then considered the reasons again in the
context of the particular claims and found that each
indicated that SIPC’s claims fell outside the proper
limits of proximate causation. Id. at 272-74. It would
appear, from the Court’s analysis, that these are not
only reasons why “directness of relationship” is
required, but are also important factors against which
to measure the directness of the relationship.
When applied to the City’s claims against the
Banks, these factors strongly suggest that the City
has plausibly alleged “some direct relation” between
the Banks’ alleged conduct and the injury to the City’s
tax revenue. We cannot say the same for the
increased-expenditures injury, though. Here, we
review how each of the Holmes factors applies to the
City’s economic injuries, distinguishing, when
relevant, between the tax-revenue injury and the
increased-expenditures injury. Finally, we explain
how the Holmes factors provide a clear means by
which to cabin liability and prevent suits by more
remotely injured parties.

43a
1.
Holmes’s first factor says that directness is required
because “the less direct an injury is, the more difficult
it becomes to ascertain the amount of a plaintiff’s
damages attributable to the violation, as distinct from
other, independent, factors.” Holmes, 503 U.S. at 269.
In Holmes, this factor decidedly cut against finding a
sufficiently direct relationship because it would have
required the district court “to determine the extent to
which [the nonpurchasing customers’] inability to
collect from the broker-dealers was the result of the
alleged conspiracy to manipulate, as opposed to” any
other reasons why the broker-dealers might not have
money on hand (such as “poor business practices,” and
the “failure to anticipate developments in the
financial markets”). Id. at 273. On this first factor,
the City’s tax-revenue injury fares well, and its
municipal-expenditures injury fares poorly. The City
has plausibly alleged that it can present an analysis
of reduced tax revenue that is precise enough to avoid
difficulties with isolating the role of the Banks’ alleged
violations. It has not done so for its municipal
expenditures.
In its complaints, the City of Miami’s tax-revenue
injury seeks damages “based upon reduced property
tax revenues resulting from (a) the decreased value of
the vacant properties themselves, and (b) the
decreased value of properties surrounding the vacant
properties.” BoA FAC at 31; WF FAC at 44. According
to the City, “[r]outinely maintained property tax and
other data allow for the precise calculation of the
property tax revenues lost by the City as a direct
result of particular [bank] foreclosures.” BoA FAC at
32; WF FAC at 45.
This “Hedonic regression

44a
methodology,” the City asserts, “can be used to
quantify precisely the property tax injury to the City
caused by [the Banks’] discriminatory lending
practices and resulting foreclosures in minority
neighborhoods.” BoA FAC at 34; WF FAC at 47.
The City does not go so far as to conduct this
analysis and attach the results to its pleadings, but its
First Amended Complaints nonetheless suffice to
describe the analysis in far more than speculative or
conclusory fashion. The City has explained in some
detail how this analysis works:
Homes in foreclosure tend to experience a
substantial decline in value . . . [F]oreclosure
properties and the problems associated with them
likewise cause especially significant declines in
surrounding property values because the
neighborhoods become less desirable. . . .
Routinely maintained property tax and other data
allow for the precise calculation of the property
tax revenues lost by the City as a direct result of
particular [bank] foreclosures. Using a wellestablished statistical regression technique that
focuses on effects on neighboring properties, the
City can isolate the lost property value
attributable to [the Banks’] foreclosures and
vacancies from losses attributable to other causes,
such as neighborhood conditions. This technique,
known as Hedonic regression, when applied to
housing markets, isolates the factors that
contribute to the value of a property by studying
thousands of housing transactions. Those factors
include the size of a home, the number of
bedrooms
and
bathrooms,
whether
the
neighborhood is safe, whether neighboring

45a
properties are well-maintained, and more.
Hedonic analysis determines the contribution of
each of these house and neighborhood
characteristics to the value of a home.
BoA FAC at 32-33; WF FAC at 45-46.7 This gives us a
clear idea of the final analysis—based on empirical
data drawn from thousands of housing transactions,
the City will calculate the impact of the Banks’
foreclosures on property values in redlined (and
reverse-redlined) areas of Miami, controlling for other
variables and isolating the impact of the redlining.
The City points to studies in which this methodology
has produced the kind of results the City will need to
present. BoA FAC at 33-34; WF FAC 46-47. The
complaints conclude, then, that “[a]pplication of such
Hedonic regression methodology . . . can be used to
quantify precisely the property tax injury to the City
caused by [the Banks’] discriminatory lending
practices and resulting foreclosures.” BoA FAC at 34;
WF FAC at 47.
The pleadings strongly suggest, then, that the taxrevenue injury to the City attributable to the Banks’
alleged discriminatory practices is readily calculable.
Under Twombly and Iqbal a mere statement that
“[the Banks] caused the loss of property tax revenue”
would be wholly conclusory and would be disregarded.
But by indicating and explaining at considerable
7 Wells Fargo says that the City pleads “that it could conduct
a study that might be able to show that foreclosures affect
property values.” (emphases in original). The City’s pleading
does not hedge its allegations in this way, and discounting the
feasibility of its analysis on the front end is inconsistent with our
obligation to draw all reasonable inferences in the City’s favor at
this preliminary stage.

46a
length the kind of analysis that would be conducted to
quantify the loss of revenue attributable to
discriminatory lending, the City has plausibly alleged
a calculable harm and has made more than a
formulaic recitation of how the causation requirement
will be met. There could be a battle of experts down
the line over whether the regression analysis really
shows what the City says it does, but, as we see it,
that would be for a later stage of the litigation. The
complaints’ allegation that regression analysis can
pinpoint causation is sufficient at this stage and helps
account for the concerns raised by this first factor.
The plausibility of hedonic regression analysis has
a direct bearing on how “difficult it [is] to ascertain
the amount of [the City’s] damage attributable to the
violation, as distinct from other, independent,
factors,” Holmes, 503 U.S. at 269, and thus helps
determine “what is administratively possible and
convenient,” in terms of damages calculation, Bank of
Am., 137 S. Ct. at 1306. Here, the City has plausibly
pled that it is practicable and convenient to quantify
the property tax injury’s causal connection to the
Banks’ policies. In addition to the studies identified
by the City, we note in passing there has been a
substantial amount of writing (including legal
literature) that has discussed or employed hedonic
regression analysis as a practicable and effective way
of calculating impacts on real estate values.8 One
8 See, e.g., Yun-Chien Chang, Economic Value or Fair Market
Value: What Form of Takings Compensation is Efficient?, 20 SUP.
CT. ECON. REV. 35, 52-54 (2012); Yun-Chien Chang & Lee Anne
Fennell, Partition and Revelation, 81 U. CHI. L. REV. 27, 35 n.35
(2014); Randall Akee, Checkerboards and Coase: The Effect of
Property Institutions on Efficiency in Housing Markets, 52 J.L. &
ECON. 395, 402-03 (2009).

47a
author at the University of Wisconsin School of
Business has written that “[o]ver the past three
decades, hedonic estimation has clearly matured from
a new technology to become the standard way
economists deal with housing heterogeneity.”9
Likewise, the Organisation for Economic Co-operation
and Development’s (OECD) Handbook on Residential
Property Prices Indices (RPPI) calls hedonic
regression “probably the best method that could be
used in order to construct quality RPPIs for various
types of property.”10 While we may not engage in a
Daubert analysis at this early stage, that hedonic
regression analysis has been favorably referenced and
employed elsewhere and over several decades cuts
against the suggestion at the motion to dismiss stage
that it is a wholly implausible invention of the City’s
or that apportioning blame through its application
would be so challenging that the complaints cannot
state a claim.
At a more basic level, the aggregative nature of the
City’s claims also helps eliminate any discontinuity
between the statutory violation and the injury. See
Lexmark, 134 S. Ct. at 1394. Here, the claimed
violation is a “pattern or practice of reverse redlining”
leading to a “disproportionately high rate of
foreclosure.” BoA FAC at 30; WF FAC at 43. Even if
each individual act of redlining does not bear a one-toone proportional relationship to Miami’s loss of tax
revenue, see Lexmark, 134 S. Ct. at 1394, since
Stephen Malpezzi, Hedonic Pricing Models: A Selective and
Applied Review, in HOUSING ECONOMICS AND PUBLIC
POLICY 67, 87 (Tony O’Sullivan & Kenneth Gibb eds., 2003).
10 OECD, Hedonic Regression Methods, in HANDBOOK ON
RESIDENTIAL PROPERTY PRICE INDICES 50, 57 (2003).
9

48a
intervening circumstances affect which individual
properties go into foreclosure, in the aggregate it has
been plausibly alleged that the impact of redlining
and reverse-redlining can be identified with precision
and deterred. Similarly, in Blue Shield, the Court
identified “the physical and economic nexus between
the alleged violation and the harm to the plaintiff” as
a factor to consider when applying proximate cause to
the Clayton Act. Blue Shield, 457 U.S. at 478. The
scale of the misconduct matches the scale of the
injury.
Since the Supreme Court spoke to this issue in Bank
of America, two district courts analyzing similar FHA
claims by municipalities against lending institutions
have relied on the availability of regression analysis
in finding that proximate cause had been plausibly
alleged. Most similarly and most recently, a district
court in the Northern District of California
entertained a similar case brought by the City of
Oakland against Wells Fargo for predatory lending
practices. City of Oakland v. Wells Fargo Bank, N.A.,
No. 15-cv-04321, 2018 WL 3008538 (N.D. Cal. June
15, 2018).11 In denying a motion to dismiss that court
11 After this decision, the district court in the Oakland case
certified two questions for interlocutory appeal to the Ninth
Circuit: “(1) Do Oakland’s claims for damages based on the
injuries asserted in the [First Amended Complaint] satisfy on a
motion to dismiss proximate cause required by the FHA?” and
“(2) Is the proximate-cause requirement articulated in City of
Miami limited to claims for damages under the FHA and not to
claims for injunctive or declaratory relief?” Order Granting
Defendant’s Motion to Amend Order to Include Certification for
Interlocutory Appeal, City of Oakland, No. 15-cv-04321, 2018 WL
7575537 at *2. The parties’ briefs before the Ninth Circuit are
due in June and July of 2019. City of Oakland v. Wells Fargo &
Co., No. 19-15169 (9th Cir. Mar. 26, 2019), ECF No. 10.

49a
recognized, as we have, that “[w]hile the fact of
aggregative injury itself does not obviate proximate
cause analysis,” the proffer of “a specific statistical
analysis in regard to [the City’s] property tax injury”
adequately supports the idea that there was “an
alleged provable and quantifiable causal link between
the defendant’s conduct and plaintiff’s injury”
notwithstanding the suggested length of the causal
chain. Id. at *8. But when it came to a municipalexpenditures injury —similar to Miami’s—the district
court ruled that since “Oakland ha[d] not proffered
any statistical analyses comparable to those in the
property-tax analysis,” the first Holmes factor
counted against them and problems of multiple
causation abounded. Id. at *10. Those claims were
dismissed without prejudice. Id. A district court in
Philadelphia found that city had “adequately [pled]
proximate cause for . . . noneconomic injuries”
stemming from FHA violations in part by relying on
“a regression analysis of [bank] loan data” that had
demonstrated
Latino
and
African-American
borrowers were 2.641 and 4.147 times more likely to
go into foreclosure than similarly situated white
borrowers. City of Philadelphia v. Wells Fargo & Co.,
No. 17-2203, 2018 WL 424451 (E.D. Pa. Jan. 16,
2018).
In describing its second claimed economic injury—
increased municipal expenditures for police, fire,
sanitation, and the like resulting from widespread
foreclosures—the City does not do as well when
measured against the first Holmes factor. When it
comes to this injury, the City’s complaints fail to
explain how we can ascertain with any level of detail
or precision which expenditures will be attributable to
the Banks. It is self-evident that this must be

50a
accomplished somehow because the entire increase in
municipal expenditures over any time period cannot
possibly be fairly attributed to the Banks’ conduct.
Intervening causes and independent variables will
inevitably run up this measure of damages because
the City’s expenditures occur at some obvious level of
remove from the foreclosures that it says cause them.
They are further down the chain, to put it in stepcounting terms. There is nothing in the pleadings
that suggests the plaintiff will be able to sort out the
extent to which these damages are attributable to the
Banks’ misconduct.
The City’s pleadings on increased expenditures are
in stark contrast to their pleadings about tax revenue.
The increased expenditures pleadings state, in almost
conclusory fashion, that “the City is required to
provide increased municipal services” at foreclosed
properties and that “these services would not have
been necessary if the properties had not been
foreclosed upon.” BoA FAC at 34; WF FAC at 47. The
complaints then proceed to list types of expenditures:
police, fire, building code enforcement, and the like. If
any direct connections exist between the foreclosure
and any of these expenditures, the City has not
explained them, and they are not so obvious as to be
self-evident. We also see no explanation of how the
City will identify the amount of increase attributable
to the foreclosures or to the Banks’ conduct. In
pleading the tax-revenue injury, however, the City
explains in considerable detail how hedonic regression
analysis will help pinpoint the attributable loss. This
is not to say that hedonic regression analysis,
specifically, should have been referenced again in
relation to the expenditure injury in order to satisfy
the first Holmes factor. Rather we suggest only that

51a
a pleading in a case like this must make clear how a
plaintiff will demonstrate that an injury is
attributable to a defendant. Hedonic regression
serves this role with regard to the tax-revenue injury,
but may not be the only way this could ever be
accomplished.12
The first Holmes factor, addressing the
attributability of the injury to the defendant’s
conduct, is where the two economic injuries alleged by
the City are most different in terms of finding a “direct
relation.” The tax-revenue injury has been pled with
detailed explanations of statistical proof, which serve
to plausibly allege that the courts will be able to work
12 A few other district courts have illustrated the point. In
three lawsuits against banks alleging the same kinds of practices
that Miami has alleged, Cook County, Illinois claimed damages
based on “out-of-pocket costs it . . . incurred in processing the
discriminatory foreclosures, such as additional funding for the
Cook County Sheriff to serve foreclosure notices and for the
Circuit Court of Cook County to process the deluge of
foreclosures.” County of Cook v. Bank of Am. Corp., No. 14 C
2280, 2018 WL 1561725 at *7 (N.D. Ill. Mar. 30, 2018); see also
County of Cook, Ill. v. HSBC N. Am. Holdings, 314 F. Supp. 3d
950, 956 (N.D. Ill. 2018); County of Cook, Ill. v. Wells Fargo &
Co., 314 F. Supp. 3d 975, 982 (N.D. Ill. 2018). Those out-of-pocket
costs were found to have plausibly been proximately caused by
the banks because these expenditures are automatic results of
foreclosures. See HSBC, 314 F. Supp. 3d at 962; Wells Fargo, 314
F. Supp. 3d at 984; Bank of Am., 2018 WL 1561725 at *7. These
were the only claimed damages that survived a motion dismiss
in the Northern District of Illinois, as all three courts there found
that Cook County had failed to adequately plead proximate cause
for the kinds of tax-revenue and municipal-expenditure injuries
that Miami pleads here. See HSBC, 913 F. Supp. 3d at 962-64;
Wells Fargo, 314 F. Supp. 3d at 988; Bank of Am., 2018 WL
1561725 at *5. Miami pled no out-of-pocket costs closely tied to
foreclosures along these lines.

52a
out just what the Banks can be fairly held accountable
for. The municipal-expenditure injury fails to do this.
Statistical proofs are not the only method of proof, but,
when we readily discern a discontinuity between
misconduct and injury, for the plaintiff to plausibly
plead proximate cause, it must allege something more
with which to bridge the gap and demonstrate that the
defendant’s liability will bear “some direct relation” to
its actions. On the increased-expenditure injury, the
City has not plausibly pled its case.
2.
Holmes’s second factor posits that “recognizing
claims of the indirectly injured would force courts to
adopt complicated rules apportioning damages among
plaintiffs removed at different levels of injury from the
violative acts, to obviate the risk of multiple
recoveries.” Holmes, 503 U.S. at 269. In Holmes, this
was a problem because a trial court would “have to
find some way to apportion the possible respective
recoveries by the broker-dealers and the customers,
who would otherwise each be entitled to recover the
full treble damages.” Id. at 273. Antitrust cases also
emphasize “the risk of duplicative recovery
engendered by allowing every person along a chain of
distribution to claim damages” from a single violation,
and have identified this as a powerful reason to allow
suit only by more directly injured parties. Blue
Shield, 457 U.S. at 474-75 (citing Ill. Brick Co. v.
Illinois, 431 U.S. 720, 745 (1977); Hawaii v. Standard
Oil Co. of Cal., 405 U.S. 251 (1972)).
Again, no such problem is presented in this case:
plainly, the injuries to the City’s treasury are not
shared by any other possible plaintiff. These economic
injuries, whether or not they can ultimately be

53a
recovered for, could only be alleged by the City. The
City’s theory, therefore, presents no concern about
double recovery or “piggy-backing,” precisely because
its injuries are unique. Substantially decreased tax
revenue and increased municipal costs are injuries
that affect the interests of the City alone, so there
could not plausibly be any difficulty in apportioning
them between multiple plaintiffs. The harm and
damages pled by individual homeowners suing under
the FHA would be entirely different. These plaintiffs
could sue for actual and punitive damages, injunctive
and equitable relief, or attorney’s fees. See 42 U.S.C.
§ 3613(c). In this Circuit they could also seek damages
based on “anger, embarrassment, and emotional
distress.” Banai v. Sec’y, U.S. Dep’t of Hous. & Urban
Dev. ex rel. Times, 102 F.3d 1203, 1207 (11th Cir.
1997). Many courts have permitted FHA plaintiffs to
recover pecuniary damages, including moving costs
and forfeited security deposits. E.g., Belcher v. Grand
Reserve MGM, LLC, 269 F. Supp. 3d 1219, 1239 (M.D.
Ala. 2017). But no court could allow a homeowner to
recover for harm to a city’s treasury.
The City, on the other hand, has claimed it was
financially harmed in two ways—injury to its tax base
and tax revenue because of reduced property value,
and increased expenditures on City services in certain
neighborhoods. The damages that these harms could
support do not overlap in any way with or duplicate
the damages that individual homeowners may have
sustained, because the harms are entirely separate.
The City’s injuries would be “passed on” forms of the
homeowners’ injuries if, for example, it were claiming
it lost tax revenue because homeowners who were
overpaying on their mortgages were subsequently
unable to pay their taxes. But this is not the case.

54a
The City alleges instead that the Banks’ misconduct
had a direct, necessary, and immediate impact on its
fiscal health at the neighborhood and citywide level.
The homeowners’ losses are obviously related to the
losses that Miami allegedly incurred, but they are
independent. Injury to the City’s treasury is a distinct
injury, it is not purely derivative of misfortunes
visited on homeowners. Even if we were to assume
that each victim of discrimination were to successfully
bring an individual claim—a wholly implausible
hypothesis—the City would still have an independent
set of claims based on the independent harm that it
suffered. The claims would be linked only by shared
facts surrounding the violation.
3.
Holmes’s final factor builds on the first two: “[T]he
need to grapple with these problems,” the Court said,
referring to the first two factors, “is simply unjustified
by the general interest in deterring injurious conduct,
since directly injured victims can generally be counted
on to vindicate the law as private attorneys general,
without any of the problems attendant upon suits by
plaintiffs injured more remotely.” Id. at 269-70. Thus,
in Holmes, the directly injured broker-dealers “could
be counted on to bring suit for the law’s vindication,”
and so it was less necessary for SIPC to sue on behalf
of the broker-dealers’ customers. Id. at 273. In
Bridge, the same factor cut in the other direction; the
plaintiffs were injured because they had less success
at county-run auctions when the defendants cheated,
and their harm was “the direct result of [defendant’s]
fraud” in part because, even though the plaintiffs
didn’t themselves rely on any fraudulent assertions,

55a
“no more immediate victim is better situated to sue.”
Bridge, 553 U.S. at 658.
The third Holmes factor has been applied to
antitrust statutes as well. The availability of more
directly injured plaintiffs influenced the Court’s
determination that “directness” between the
plaintiff’s injury and the defendant’s action was
lacking in Associated General Contractors of
California, Inc. v. Carpenters, 459 U.S. 519, 540-41
(1983). There, a union alleged that the defendant
employer association had “coerced certain third
parties . . . to enter into business relationships with
nonunion firms” in a way that violated the Clayton
Act. Id. at 520-21. This hurt unionized firms and,
thus, hurt the plaintiff union. Id. The Court found
that the union had not alleged a sufficiently direct
injury, noting that:
The existence of an identifiable class of persons
whose self-interest would normally motivate them
to vindicate the public interest in antitrust
enforcement diminishes the justification for
allowing a more remote party such as the Union
to perform the office of a private attorney general.
Denying the Union a remedy on the basis of its
allegations in this case is not likely to leave a
significant antitrust violation undetected or
unremedied.
Id. at 542.
In these kinds of cases it is preferable for more
directly injured plaintiffs to take the lead in acting as
private attorneys general because those plaintiffs will
be able to deter future violations more effectively and
efficiently. When more directly injured parties can

56a
sue for the full swath of harm caused by statutory
violations, the threat of suit by these parties has the
maximum possible deterrent effect on potential
violators, and it’s simply not worthwhile to also allow
minimally deterring suits by plaintiffs farther down
the causal chain. Cf. Southern Pac. Co. v. DarnellTaenzer Lumber Co., 245 U.S. 531, 534 (1918) (“The
[defendant] ought not to be allowed to retain his
illegal profit, and the only one who can take it from
him is the one that alone was in relation with him,
and from whom the [defendant] took the sum.”)
(Holmes, J.).
Thus, in antitrust cases the courts have long
expressed a “concern for the reduction in the
effectiveness of those suits if brought by indirect
purchasers with a smaller stake in the outcome than
that of direct purchasers suing for the full amount of
the overcharge.” Ill. Brick Co., 431 U.S. at 745; see
also Lexmark, 134 S. Ct. at 1391 (establishing, for the
Lanham Act, a rule barring suit by “commercial
parties who suffer merely as a result of [a direct]
competitor’s ‘inability to meet [its] financial
obligations’” (quoting Anza, 547 U.S. at 458)). For this
reason, the federal courts have rejected the
monopolist’s “passing on” defense—the argument that
mid-stream purchasers charged monopoly prices are
not harmed because they can “pass on” any
overcharges to consumers. See Richard A. Posner,
Economic Analysis of Law 395-96 (9th ed. 2014).
Consumers cannot sue over monopoly pricing, but this
does not mean there is a meaningful reduction in
enforcement. See id. at 396 (“[Consumers’] right [to
sue] is less valuable because, being at once more
remote . . . and more numerous, consumers are less
efficient antitrust enforcers.”).

57a
The same logic surrounding deterrence does not
apply here. While the City may be a step further down
the chain of causation, the homeowners are much
more numerous and less well suited to prosecute a
global claim. The City’s suit could achieve better
deterrence because it aims to recover for a larger
injury sustained on a citywide basis and to remedy a
different, broader violation than a homeowner’s suit
would. The City alleges widespread redlining and
reverse-redlining policies conducted by the Banks.
The City’s suit challenges the entire policies. A
discrimination claim by an individual homeowner
would challenge only a bank’s discriminatory action
against that homeowner. Conceivably the banks
could face suits by many homeowners who were
discriminated against, or who lost property value
because their neighbors’ houses were foreclosed on,
but these suits wouldn’t serve to condemn the pattern
or policy. Individual homeowners would also face
most of the same causation problems—presumably a
variety of factors contributed to any individual
foreclosure—but the regression analysis that can
isolate the impact of redlining on the neighborhood
scale could not solve this problem on the individual
level because of the diversity of individual
circumstances.
Moreover, even if homeowners were better-situated
to vindicate the same wrongdoing—and that is plainly
not the case here—the additional assumption that
others will pursue the lawsuits and achieve
deterrence is nowhere near as likely true under the
FHA as under the other statutes. Antitrust and, to a
lesser extent, civil RICO suits are typically brought by
sophisticated business entities, often with deep
pockets, and those plaintiffs also have the added

58a
incentive of realizing treble damages. In Holmes and
Associated General Contractors, the Court left the job
of deterring statutory violations to broker-dealers and
businesses using union labor. These parties were
subject to complex regulatory environments and
undoubtedly had counsel in place prepared to sue to
vindicate their rights. Here, instead, the alternative
plaintiffs are homeowners whose homes were
foreclosed upon. Compared with the sophisticated
parties involved in the RICO and antitrust cases, it
seems far less likely that these injured parties could
be counted on to file suit. While it’s possible that some
might, it seems exceedingly unlikely that more than a
handful at most would do so, and we have seen
precious little reason to believe that many have. The
vast majority of individual cases of discriminatory
lending cases are left unpursued and unaddressed. In
Associated General, the Court observed that
“[d]enying the [plaintiff] a remedy on the basis of its
allegations in this case [was] not likely to leave a
significant [statutory] violation undetected or
unremedied.” 459 U.S. at 542. That’s less plausible
here.
As a result, the peculiarities surrounding the claims
raised in this case make it distinct from an antitrust
case where a mid-stream purchaser can bring
essentially the same action against a monopolist as
the ultimate consumer would. The question of efficacy
is harder to resolve here because, although the
homeowners are arguably closer in the chain, they are
too numerous and diffuse to be counted on for
deterrence. They are better situated only in a narrow,
literal sense. The City, on the other hand, has
plausibly alleged an injury, calculable in the
aggregate, that bears a direct relation to the Banks’

59a
policies, applied in the aggregate, which allegedly
violated the statute.
4.
The Holmes factors also help cabin proximate cause
against other less- directly injured plaintiffs. Writing
separately in Bank of America, Justice Thomas
suggested that Miami’s theory of causation would
require that neighboring homeowners who were not
foreclosed on but whose property values fell could also
sue the banks. 137 S. Ct. at 1312 (Thomas, J.,
concurring in part and dissenting in part). Still other
concerns have been raised about the corner grocer
who may have lost business on account of foreclosures,
the utility company, or maybe even real estate brokers
working on commission to resell properties in the
area.
The Court’s own guidance from Holmes,
attuned as it is to the administrative practicalities,
can go a long way toward allaying these concerns.
Application of the Holmes factors reasonably
establishes that the City’s injury is logically bound up
with the Banks’ alleged conduct in meaningful ways
missing from injuries to these other putative
claimants.
To begin with the first factor, corner grocers or
neighboring property owners, unlike the City, would
have substantially more difficulty plausibly alleging
that they could calculate damages attributable to the
Banks’ actions with a reasonable degree of certainty.
By contrast, hedonic regression techniques are most
effective when applied on a neighborhood or citywide
level, precisely because individual variations among
homeowners average out when foreclosures are
considered in the aggregate. Indeed the amended
complaints specifically cite to a study showing that

60a
each foreclosure in Chicago was “responsible for an
average decline of approximately 1.1% in the value of
each single-family home within an eighth of a mile.”
BoA FAC at 33; WF FAC at 46. The average decline
can be used to calculate the impact of foreclosures on
property value across a neighborhood on account of
the large sample size. A neighboring homeowner, on
the other hand, would be affected only by homes
closest to his own, and these might not accurately
reflect the citywide average, in terms of causation or
value. And a corner grocer might be affected by the
surrounding few blocks of homes, but this may be
wholly unrepresentative of citywide trends, making
causal attribution to redlining all the more difficult.
Put another way, in step-counting terms, the grocer
or the utility company is demonstrably further down
the causal chain because many independent variables
can enter the equation after foreclosure occurs. The
City will necessarily be harmed as soon as the
foreclosures occur. For the grocer, though, a nearby
home’s foreclosure does not necessarily mean
anything. The causal chain for the grocer is longer,
more attenuated, and more of a problem for proximate
cause analysis because there is a powerful
discontinuity between the foreclosures and the
grocer’s loss of profits.
It would therefore be
exceedingly difficult to trace causation from the
Banks’ predatory practices through the foreclosures to
the grocers’ diminished profits. The corner grocer, or
the utility company, is not affected when a home is
foreclosed or when property values go down. These
parties are not hurt until individual homeowners
decide to spend less money at that grocer, decide not
to pay the electric bill, or move away. Thus, there are
many more third parties, and many more intervening

61a
steps when it comes to the corner grocer or the utility
company. When a homeowner is given a bad,
discriminatory loan, the injury to one of these more
distant plaintiffs is in no sense “automatic[],”
Lexmark, 134 S. Ct. at 1394; it therefore becomes
harder to attribute back to the Banks.
The application of the second Holmes factor also
strongly suggests why any injury sustained by the
corner grocer or by the utility company would not be
proximately caused by the Banks’ conduct. These are
classic “passed on” injuries.
The Court has
consistently said that “where the alleged violations
[are] linked to the asserted harms only through the
[directly injured parties’] inability to meet their
financial obligations” proximate cause will not be
found. Anza, 547 U.S. at 458; see also Lexmark, 1391
S. Ct. at 1391 (referencing “the electric company,”
specifically, as an entity in this sort of position);
Holmes, 503 U.S. at 271. Individual homeowners
have financial obligations to the City in the form of
property taxes, but the City’s claim is not that it is
harmed because property taxes went unpaid. Rather,
the City says that property values decreased and that
therefore it was not entitled to as much property-tax
revenue. The City’s loss is not due to anyone lacking
“the wherewithal to pay,” Holmes, 503 U.S. at 271, but
to the fact that redlining means the City is not able to
collect nearly as much as it would have, had the
alleged FHA violations not occurred in the first place.
The third Holmes factor—the reliability with which
a plaintiff could remedy harm or achieve deterrence—
also strongly suggests that we need not fear a deluge
of suits by grocers, neighbors, or power companies.
These potential plaintiffs, even if injured, would be in

62a
a far weaker position and far less likely than the City
to achieve deterrence or to remedy the entirety of the
harm caused by the Banks’ alleged violations. Their
claims would be disjointed, aimed at remedying FHA
violations only on particular blocks, in contrast to the
City’s unique ability to attack the Banks’ whole
pattern or practice on a municipal level. Any claims
by the corner grocer or the neighboring homeowner
would be further out in the chain of causation than the
City is, and these claims would lack the broad scope
that allows the City to achieve maximal deterrence.
Quite simply, they would face far tougher versions of
all the challenges the City faces, but with none of the
offsetting advantages.
As we see it, the factors articulated by the Supreme
Court in Holmes cabin this decision and keep the
floodgates closed. But these factors are not the only
reason our ruling does not extend liability beyond
what is reasonable. Foreseeability remains a real
part of the proximate cause calculation and also will
function to cut off liability in many instances. Dan B.
Dobbs, Paul T. Hayden & Ellen M. Bublick, The Law
of Torts § 199, at 686 (2d ed. 2011) (“The defendant
must have been reasonably able to foresee the kind of
harm that was actually suffered by the plaintiff . . . .”).
We are exceedingly dubious that courts would expect
lenders to reasonably foresee unending ripples of
harm that overwhelm the judicial branch.
D.Common-law antecedents require direct relation
The Court has also told us that the FHA’s commonlaw antecedents are a primary reason why “proximate
cause under the FHA requires ‘some direct relation
between the injury asserted and the injurious conduct
alleged.’” Bank of Am., 137 S. Ct. at 1306. As a result,

63a
we know that “[a] damages claim under the [FHA] ‘is
analogous to a number of tort actions recognized at
common law,’” and that “directness principles” thus
apply. Id. We also observed, in our previous opinions,
that FHA damages claims “have long been analogized
to tort claims.” See Bank of Am., 800 F.3d at 1282.
These analogues, however, only take us so far. They
do not help flesh out the meaning of “direct relation,”
even though they are the basis for imposing the
requirement.
The Court identified some common-law claims that
are analogues for FHA claims in Curtis v. Loether,
415 U.S. 189 (1973). See Bank of Am., 137 S. Ct. at
1306 (citing Curtis for the proposition that an FHA
damages claim is analogous to certain common-law
torts). There, the Court was evaluating whether the
Seventh Amendment, which guarantees jury trials for
“suits at common law,” guaranteed a jury in an FHA
suit. U.S. CONST. amend VII; see Curtis, 415 U.S. at
190. The Court said it did, because FHA claims for
housing discrimination were comparable to “the
common-law duty of innkeepers not to refuse
temporary lodging to a traveler without justification,”
“an action for defamation or intentional infliction of
mental distress,” or “law[s] of insult and indignity.”
Id. at 195 n. 10.
The identification of these common-law antecedents
does not get us too far. We lack any clear indication
that Congress had these common-law claims in mind
when drafting the FHA, and so we are reluctant draw
too much from them beyond the “some direct relation”
requirement. For one thing, we would not know which
common-law claim to begin with, since we do not see
the obvious correspondence to the common law the

64a
Court has identified elsewhere. Thus, for example,
this case is not like Bridge where common-law mail
fraud was an obvious precursor to RICO mail fraud.
See Bridge, 553 U.S. at 652.
Other statutory causes of action have more tangible
foundations in particular common-law claims. The
Court does not define what exactly counts as
“common-law foundations” but RICO and the
antitrust statutes are the paradigmatic examples.
See, e.g., Bridge, 533 U.S. at 651 (“[W]hen Congress
established in RICO a civil cause of action for a person
‘injured . . . by reason of’ a ‘conspir[acy],’ it meant to
adopt . . . well-established common-law civil
conspiracy principles” (quoting Beck v. Prupis, 529
U.S. 494, 504 (2000))); Holmes, 503 U.S. at 267
(“[C]ourts had read § 7 [of the Sherman Act] to
incorporate common-law principles of proximate
causation.”). In Anza v. Ideal Steel Supply Corp., 547
U.S. 451, 457 (2006), a RICO case, the Court also said
that “directness principles” apply to statutes with
“common-law foundations.” Bank of Am., 137 S. Ct. at
1306 (quoting Anza, 547 U.S. at 457). Anza repeated
reasoning from Holmes comparing RICO’s civil suit
provision to the Clayton Act’s. Anza, 547 U.S. at 457
(citing Holmes, 503 U.S. at 267-68).
The connection between the Clayton Act and RICO,
laid out in Holmes, was foundational for proximate
cause analysis under RICO. See, e.g., Hemi Group,
559 U.S. at 8-10 (citing Holmes, 503 U.S. 258); Bridge,
553 U.S. at 653-55 (citing Holmes, 503 U.S. 258); Anza
547 U.S. at 457 (citing Holmes, 503 U.S. at 267-68).
In fact, RICO’s civil suit provision was modeled on the
antitrust statutes of the early 20th century, so
standards of proximate cause that applied to early

65a
Clayton and Sherman Act cases can be readily applied
to RICO as well. See Holmes, 503 U.S. at 268; see also
Assoc. Gen. Contractors, 459 U.S. at 531-35. Even
without a deep dive into legislative history, the
connection between the statutes is obvious because
their civil suit provisions are almost identical. The
Clayton Act reads:
[A]ny person who shall be injured in his business
or property by reason of anything forbidden in the
antitrust laws may sue therefor . . . and shall
recover threefold the damages by him sustained,
and the cost of suit, including a reasonable
attorney’s fee.
15 U.S.C. § 15. Likewise, RICO reads:
Any person injured in his business or property by
reason of a violation of section 1962 of this chapter
may sue therefor in any appropriate United
States district court and shall recover threefold
the damages he sustains and the cost of the suit,
including a reasonable attorney’s fee . . . .
18 U.S.C. § 1964(c). Both statutes thus say that “any
person” “injured in his business or property” by a
violation of the statute has a cause of action and can
recover treble damages plus attorney’s fees.
The common-law foundations of the Fair Housing
Act are less obvious insofar as they relate to
proximate cause. For starters, the FHA does not
employ the language that the Clayton Act shares with
RICO. It authorizes suit by an “aggrieved person,” 42
U.S.C. § 3613(a)(1)(A), expansively defined as “any
person who (1) claims to have been injured by a
discriminatory housing practice; or (2) believes that
such person will be injured by a discriminatory

66a
housing practice that is about to occur.” Id. § 3602(i).
Indeed, under the language employed by Congress in
the FHA, the aggrieved person need not be injured
specifically “in his business or property.” Moreover,
the remedies are distinct from the relief available for
a violation of the Clayton Act or RICO—treble
damages are not available, and the court “may allow”
attorney’s fees, but under the FHA it is not required
to, as it would be under RICO or the Clayton Act. See
42 U.S.C. § 3613(c).
These textual differences make it harder to assume
that the legislators drafting the FHA were drawing on
the same version of proximate cause that was used in
these earlier statutes. We are still able to borrow
notions about proximate cause from the common law
for the FHA, but it strikes us as inappropriate simply
to assume that the FHA necessarily incorporated the
nature and form of proximate cause as it was
employed in these other statutes for which we can
trace a much more direct provenance. And, since
understandings of proximate cause at common law
evolved over time, we would need to know which
version of common-law proximate cause a statute
adopted. See Sperino, supra, at 1225 (“The one thing
that is certain about proximate cause is that its
underlying goals are contested and evolving.”).
Different statutes may not have incorporated the
same common-law standard; the Palsgraf case and the
First Restatement of Torts both postdated passage of
the Sherman Act but had become highly foundational
texts for understanding proximate cause by the time
RICO was drafted.
Id. The evolving shape of
proximate cause at common law further complicates
any analysis that would depend entirely upon

67a
incorporating a common-law standard from a statute
that predated the FHA.
Congress might have brought common-law
standards to bear on the new problems it addressed in
the 1960s, but the fact that we may identify some
common-law analogue does not necessarily mean that
this was the case. The Fair Housing Act does not
employ language drawn from the older federal
statutes with connections to the common law, and, as
best as we can tell, this cause of action does not have
an unmistakable common-law antecedent. As a
result, while considering the common law may be
valuable and informative, and while the statute’s
common-law antecedents do require a plaintiff
plausibly to allege “some direct relation,” we are
unable to discern any further lessons from the
common law that bear on our analysis.
IV. Conclusion
In sum, we hold that there is “some direct relation”
between the City’s tax-revenue injuries and the
Bank’s alleged violations of the FHA. The Supreme
Court has never held that the presence of an
intervening causal step or the involvement of a third
party necessarily bars a finding of proximate cause as
a matter of law, and we decline to establish so hard
and fast a rule today.
The City’s detailed allegations on its tax-revenue
injury are sufficient for a variety of reasons: the FHA
is a broad and ambitious statute which employs a
standard of proximate cause that facilitates its
operation; Congress meant for the FHA to be a big
solution to a big problem—housing segregation
generated by intentional racial discrimination; for
half a century courts have read the FHA broadly and

68a
Congress has repeatedly assented to these readings;
the impact of the Banks’ redlining can readily be
identified at a citywide or neighborhood level, so even
if there were not “something very close to a 1:1
relationship,” Lexmark, 134 S. Ct. at 1394, the City
has plausibly explained how it will calculate damages
in a reasonably precise way; the injury is profoundly
different from any injuries suffered by a homeowner;
and there’s no reason to think that homeowners would
make for more efficient plaintiffs. In the absence of
any palpable concerns about unadministrable
litigation, we ought not to unduly constrain the
remedial effect of the FHA.
Put differently, the City has adequately pled
proximate cause when it comes to its tax-base injury
because the Banks’ redlining and reverse-redlining
practices bear some direct relation to the City’s fiscal
injuries. There is a logical and direct bond between
discriminatory lending as a pattern and practice
applied to neighborhoods throughout the City and the
reduction in property values. Third parties are
involved, but the harm to the City is not contingent on
their actions when considered in the aggregate. There
is no discontinuity between the violation and the
harm.
Bad loans in the aggregate will mean
foreclosures in the aggregate, which will mean loss of
property value and a reduction in the tax base. An
individual home might go under for a variety of
causes, but when discriminatory lending practices
pervade a neighborhood or a city, the city’s fisc will
necessarily be affected because we know some number
of homes will go under, and some number of properties
will lose value. When we consider the claimed
violations and the injuries sustained in the aggregate
—that is, at the scale that the complaints present

69a
them—it becomes clearer that injuries to the city’s
treasury are necessary, direct, and immediate results
of these kinds of FHA violations.
By many of these same measures, however, the
City’s increased municipal expenditures injury fails,
and so the district court was correct to find that
proximate cause for this injury had not been
adequately pled in the complaints it was reviewing.
The City’s increased expenditures have not been
plausibly presented as directly and automatically
resulting from the Banks’ alleged conduct. Even
though we think foreclosures follow directly from the
Banks’ conduct, there is too much opportunity in the
causal chain between foreclosure and increased
expenditures for intervening actors and causes to play
a role, and there has been no explanation by the City
of how we might conceivably isolate the injury
attributable to the Banks. Thus we have identified
this alleged injury as being too remote to satisfy
proximate cause.
We repeat that we have not answered every
outstanding question in this case. Much remains to
be determined as the litigation proceeds, but this case
is before this Court only on a motion to dismiss. It is
not our role at this stage to decide whether hedonic
regression analysis can actually identify injuries
attributable to violations with sufficient accuracy, or
indeed whether the banks actually made decisions
based on race as opposed to socioeconomic factors that
may correlate with race or with other considerations.
Today we have done only two things. Broadly, we
have worked out in some detail what proximate cause
requires in an FHA suit. More specifically, we have
evaluated whether these complaints against these

70a
Banks plausibly allege that Miami’s injuries to its tax
base were directly related to the violations they
describe.
We simply find that the operative
complaints explain in a plausible fashion how the
claimed tax-revenue injuries bear “some direct
relation” to the misconduct that the City is
challenging. This harm to Miami, as pled, is not just
foreseeable but, when measured in the aggregate, is
directly related to the pattern of unlawful behavior
the City has alleged.
The City has plausibly alleged a violation of the
FHA and has stated a claim in its First Amended
Complaints. Accordingly we conclude that the district
court improvidently dismissed the FHA claims in
their entirety and ought to have granted the City
leave to amend its complaints, since amendation
would not have been futile.13 The cases are remanded
to the district court for further proceedings consistent
with this opinion.
REVERSED and REMANDED

13 We leave it to the district court to determine which
complaints should be operative for its purposes, or whether to
grant the City leave to file new ones. See supra n.2.

71a
APPENDIX B
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 14-14543
D.C. Docket No. 1:13-cv-24506-WPD
CITY OF MIAMI,
a Florida Municipal Corporation,
Plaintiff - Appellant,
versus
BANK OF AMERICA CORPORATION,
BANK OF AMERICA, N.A., et al.,
Defendants - Appellees.
Appeals from the United States District Court
for the Southern District of Florida
(September 1, 2015)
Before MARCUS and WILSON, Circuit Judges, and
SCHLESINGER,* District Judge.
MARCUS, Circuit Judge:
The City of Miami has brought an ambitious fair
housing lawsuit against Bank of America,1 alleging
* Honorable Harvey E. Schlesinger, United States District
Judge for the Middle District of Florida, sitting by designation.
1 The City also filed substantially similar complaints against
Citigroup and Wells Fargo for the same behavior. The three cases

72a
that it engaged in a decade-long pattern of
discriminatory lending in the residential housing
market that caused the City economic harm. The City
claims that the bank targeted black and Latino
customers in Miami for predatory loans that carried
more risk, steeper fees, and higher costs than those
offered to identically situated white customers, and
created internal incentive structures that encouraged
employees to provide these types of loans. The
predatory loans, as identified by the City, include:
high-cost loans (i.e., those with an interest rate at
least three percentage points above a federally
established benchmark), subprime loans, interestonly loans, balloon payment loans, loans with
prepayment penalties, negative amortization loans,
no documentation loans, and adjustable rate
mortgages with teaser rates (i.e., a lifetime maximum
rate greater than the initial rate plus 6%). Complaint
for Violations of the Federal Fair Housing Act at 34,
City of Miami v. Bank of America Corp., No. 13-24506CIV (S.D. Fla. July 9, 2014) (“Complaint”). The City
alleged that by steering minorities toward these
predatory loans, Bank of America caused minorityowned properties throughout Miami to fall into
unnecessary or premature foreclosure, depriving the
City of tax revenue and forcing it to spend more on
municipal services (such as police, firefighters, trash
were heard by the same judge in the Southern District of Florida,
and resolved in the same way: the reasoning laid out in the
district court’s order in this case was adopted and incorporated
in the orders dismissing the other two cases. They were each
appealed separately. We have resolved the companion cases in
separate opinions. See City of Miami v. Citigroup Inc., No. 1414706; City of Miami v. Wells Fargo & Co., No. 14-14544. This
opinion contains the most detailed account of our reasoning.

73a
and debris removal, etc.) to combat the resulting
blight. The City asserts one claim arising under the
Fair Housing Act (FHA), 42 U.S.C. § 3601 et seq., as
well as an attendant unjust enrichment claim under
Florida law.
The district court dismissed the City’s FHA claim
with prejudice on three grounds: the City lacked
statutory standing under the FHA because it fell
outside the statute’s “zone of interests”; the City had
not adequately pled that Bank of America’s conduct
proximately caused the harm sustained by the City;
and, finally, the City had run afoul of the statute of
limitations and could not employ the continuing
violation doctrine. We disagree with each of these
conclusions.
As a preliminary matter, we find that the City has
constitutional standing to pursue its FHA claims. We
also conclude that under controlling Supreme Court
precedent, the “zone of interests” for the Fair Housing
Act extends as broadly as permitted under Article III
of the Constitution, and therefore encompasses the
City’s claim. While we agree with the district court
that the FHA contains a proximate cause
requirement, we find that this analysis is based on
principles drawn from the law of tort, and that the
City has adequately alleged proximate cause. Finally,
we conclude that the “continuing violation doctrine”
can apply to the City’s claims, if they are adequately
pled.
Because the district court imposed too stringent a
zone of interests test and wrongly applied the
proximate cause analysis, we conclude that it erred in
dismissing the City’s federal claims with prejudice
and in denying the City’s motion for leave to amend

74a
on the grounds of futility. As for the state law claim,
we affirm the dismissal because the benefits the City
allegedly conferred on the defendants were not
sufficiently direct to plead an unjust enrichment claim
under Florida law.
I.
On December 13, 2013, the City of Miami brought
this complex civil rights action in the United States
District Court for the Southern District of Florida
against Bank of America Corporation, Bank of
America N.A., Countrywide Financial Corporation,
Countrywide Home Loans, and Countrywide Bank,
FSB (collectively “Bank of America” or “the Bank”)
containing two claims. First, it alleged that the
defendants violated sections 3604(b)2 and 3605(a)3 of
the Fair Housing Act, Complaint at 53, by engaging in
discriminatory mortgage lending practices that
resulted in a disproportionate and excessive number
of defaults by minority homebuyers and caused
financial harm to the City. It also alleged that the
2 42 U.S.C. § 3604(b) makes it unlawful “[t]o discriminate
against any person in the terms, conditions, or privileges of sale
or rental of a dwelling, or in the provision of services or facilities
in connection therewith, because of race, color, religion, sex,
familial status, or national origin.”
3 “It shall be unlawful for any person or other entity whose
business includes engaging in residential real estate-related
transactions to discriminate against any person in making
available such a transaction, or in the terms or conditions of such
a transaction, because of race, color, religion, sex, handicap,
familial status, or national origin.” 42 U.S.C. § 3605(a). A
“residential real estate-related transaction” includes “the
making or purchasing of loans . . . for improving, constructing,
repairing, or maintaining a dwelling; or secured by residential
real estate.” Id. § 3605(b)(1).

75a
Bank unjustly enriched itself by taking advantage of
“benefits conferred by the City” while, at the same
time, engaging in unlawful lending practices, which
“denied the City revenues it had properly expected
through property and other tax payments and . . .
cost[] the City additional monies for services it would
not have had to provide . . . absent [the Bank’s]
unlawful activities.”
The complaint accused Bank of America of engaging
in both “redlining” and “reverse redlining.” Redlining
is the practice of refusing to extend mortgage credit to
minority borrowers on equal terms as to non-minority
borrowers. Reverse redlining is the practice of
extending mortgage credit on exploitative terms to
minority borrowers. Complaint at 3. The City alleged
that the Bank engaged in a vicious cycle: first it
“refused to extend credit to minority borrowers when
compared to white borrowers,” then “when the bank
did extend credit, it did so on predatory terms.” Id. at
4. When minority borrowers then attempted to
refinance their predatory loans, they “discover[ed]
that [the Bank] refused to extend credit at all, or on
terms equal to those offered . . . to white borrowers.”
Id. at 5.
The City claimed that this pattern of providing more
onerous loans—i.e., those containing more risk,
carrying steeper fees, and having higher costs—to
black and Latino borrowers (as compared to white
borrowers of identical creditworthiness) manifested
itself in the Bank’s retail lending pricing, its
wholesale lending broker fees, and its wholesale
lending product placement. Id. at 18-25. It also
averred that the Bank’s internal loan officer
compensation system encouraged its employees to

76a
give out these types of loans even when they were not
justified by the borrower’s creditworthiness. See id. at
20, 24. The City claimed that Bank of America’s
practice of redlining and reverse redlining constituted
a “continuing and unbroken pattern” that persists to
this day. Id. at 4.
The City said that the Bank’s conduct violated the
Fair Housing Act in two ways. First, the City alleged
that the Bank intentionally discriminated against
minority borrowers by targeting them for loans with
burdensome terms. Id. at 30-33. Second, the City
claimed that the Bank’s conduct had a disparate
impact on minority borrowers, resulting in a
disproportionate number of foreclosures on minorityowned properties, and a disproportionate number of
exploitative loans in minority neighborhoods. Id. at
26-30.
Among other things, the City employed statistical
analyses to draw the alleged link between the race of
the borrowers, the terms of the loans, and the
subsequent foreclosure rate of the underlying
properties. Drawing on data reported by the Bank
about loans originating in Miami from 2004-2012, the
City claimed that a Bank of America loan in a
predominantly (greater than 90%) minority
neighborhood of Miami was 5.857 times more likely to
result in foreclosure than such a loan in a majoritywhite neighborhood. Id. at 43. According to the City’s
regression analysis (which purported to control for
objective risk characteristics such as credit history,
loan-to-value ratio, and loan-to-income ratio), id. at
37, a black Bank of America borrower in Miami was
1.581 times more likely to receive a loan with

77a
“predatory” features4 than a white borrower, and a
Latino borrower was 2.087 times more likely to
receive such a loan. Moreover, black Bank of America
borrowers with FICO scores over 660 (indicating good
credit) in Miami were 1.533 times more likely to
receive a predatory loan than white borrowers, while
a Latino borrower was 2.137 times more likely to
receive such a loan. Id. at 6.
The City’s data also suggested that from 2004-2012,
21.9% of loans made by Bank of America to black and
Latino customers in Miami were high-cost, compared
to just 8.9% of loans made to white customers. Id. at
34. Data cited in the complaint showed significantly
elevated rates of foreclosure for loans in minority
neighborhoods. While 53.3% of Bank of America’s
Miami loan originations were in “census tracts” that
are at least 75% black or Latino, 95.7% of loan
originations that had entered foreclosure by June
2013 were from such census tracks. Id. at 39. And
32.8% of Bank of America’s loans in predominantly
black or Latino neighborhoods resulted in foreclosure,
compared to only 7.7% of its loans in non-minority (at
least 50% white) neighborhoods. Id. at 40. Likewise, a
Bank of America borrower in a predominantly black
or Latino census tract was 1.585 times more likely to
receive a predatory loan as a borrower with similar
4 As we’ve noted, the City identified as “predatory” those
containing features such as high-cost loans (i.e., those with an
interest rate that was at least three percentage points above a
federally established benchmark), subprime loans, interest-only
loans, balloon loan payments, loans with prepayment penalties,
negative amortization loans, no documentation loans, and
adjustable rate mortgages with teaser rates (i.e., a lifetime
maximum rate greater than the initial rate plus 6%). Complaint
at 34.

78a
characteristics in a non-minority neighborhood. Id. at
38.
The complaint also alleged that the bank’s loans to
minorities resulted in especially quick foreclosures.5
The average time to foreclosure for Bank of America’s
black and Latino borrowers was 3.144 years and 3.090
years, respectively, while for white borrowers it was
3.448 years. Id. at 42. The allegations also gathered
data from various non-Miami-based studies (some
nationwide, some based on case studies in other cities)
to demonstrate the elevated prevalence of foreclosure,
predatory loan practices, and higher interest rates
among black and Latino borrowers, and the
foreseeability of foreclosures arising from predatory
lending practices and their attendant harm. See id. at
26-30.
The City’s charges were further amplified by the
statements of several confidential witnesses who
claimed that the Bank deliberately targeted black and
Latino borrowers for predatory loans. Thus, for
example, one mortgage loan officer with Bank of
America who worked on loans in the Miami area
claimed that the bank targeted less savvy minorities
The complaint quoted a joint report from the Department of
Housing and Urban Development and the Department of the
Treasury noting that time to foreclosure is an important
indicator of predatory practices: “[t]he speed with which the
subprime loans in these communities have gone to foreclosure
suggests that some lenders may be making mortgage loans to
borrowers who did not have the ability to repay those loans at
the time of origination.” U.S. Dep’t of Hous. & Urban Dev. &
U.S. Dep’t of Treasury, Curbing Predatory Home Mortgage
Lending 25 (2000), available at
http://www.huduser.org/Publications/pdf/treasrpt.pdf.
Complaint at 43.
5

79a
for negative amortization loans. Id. at 31. Another
noted that Bank of America paid higher commissions
to loan officers for Fair Housing Act loans as opposed
to the allegedly more advantageous Community
Reinvestment Act (CRA) loans, incentivizing officers
to steer borrowers away from the CRA loans. Id. at 32.
Still another noted that back-end premiums (a
premium earned by the loan officer equal to the
difference between the borrower’s loan rate and the
rate the bank pays for it) on loans were not disclosed
and “often eluded less educated, minority borrowers.”
Id. One of the witnesses explained that from 20112013, Bank of America did not offer regular
refinancing to persons with mortgages at over 80% of
the value of the house (including many negative
amortization loans), which disproportionately
affected minorities in danger of losing their homes. Id.
at 33.
Notably, the City sought damages based on reduced
property tax revenues. Id. at 45. It claimed that the
Bank’s lending policies caused minority-owned
property to fall into unnecessary or premature
foreclosure. Id. The foreclosed-upon properties lost
substantial value and, in turn, decreased the value of
the surrounding properties, thereby depriving the
City of property tax revenue. The City alleged that
“Hedonic regression” techniques could be used to
quantify the losses the City suffered that were
attributable to the Bank’s conduct. Id. at 46-47. The
City also sought damages based on the cost of the
increased municipal services it provided to deal with
the problems attending the foreclosed and often
vacant properties—including police, firefighters,
building inspectors, debris collectors, and others.
These increased services, the City claimed, would not

80a
have been necessary if the properties had not been
foreclosed upon due to the Bank’s discriminatory
lending practices. Id. at 49-50. The City also sought a
declaratory judgment that the Bank’s conduct
violated the FHA, an injunction barring the Bank
from engaging in similar conduct, and punitive
damages, as well as attorneys’ fees. Id. at 55-56.
On July 9, 2014, the district court granted
defendants’ motion to dismiss.6 First, the court found
that the City of Miami lacked statutory standing to
sue under the FHA. The court determined that, based
on this Court’s earlier opinion in Nasser v. City of
Homewood, 671 F.2d 432 (11th Cir. 1982), the City’s
claim fell outside the FHA’s “zone of interests,” and
therefore the City lacked standing to sue under this
statute. In particular, the trial court determined that
the City had alleged “merely economic injuries” that
were not “affected by a racial interest.” Like the
plaintiffs in Nasser, the court suggested, the City was
seeking redress under the FHA for “an economic loss
from a decrease in property values,” and as with the
plaintiffs in Nasser, this was insufficient. The City’s
goal went far beyond the purpose of the FHA, which
is to “provide, within constitutional limitations, for
fair housing throughout the United States.” City of
Miami v. Bank of America Corp., 2014 WL 3362348,
at *4 (quoting 42 U.S.C. § 3601).
The court also concluded that the FHA contains a
proximate cause requirement, but that the City had
not adequately pled proximate cause. The City had
not sufficiently traced any foreclosures to the
6 This order was adopted and incorporated in the two
companion cases involving Citigroup and Wells Fargo.

81a
defendants’ conduct, as opposed to confounding
background variables such as “a historic drop in home
prices and a global recession,” and “the decisions and
actions of third parties, such as loan services,
government entities, competing sellers, and
uninterested buyers.” Id. at *5. The court also
determined that the City had not shown that the
Bank’s mortgage practices caused the City any harm.
It was unimpressed with the “statistics and studies”
the City cited, noting that some were not based on
data from Miami, some were not limited to the
defendants’ practices, and others “d[id] not control for
relevant credit factors that undoubtedly affect lending
practices.” Id. Moreover, some of the harm to the City
stemmed directly from “the actions of intervening
actors such as squatters, vandals or criminals that
damaged foreclosed properties.” Id.
The district court also concluded that the City’s
federal claim ran afoul of the statute of limitations. It
noted that for the FHA, a plaintiff must bring his
claim “not later than 2 years after the occurrence” of
the discriminatory housing practice, and that for
discriminatory loans the statute of limitations begins
to run from the date of the loan closing. But the City
had not alleged that any loans were made later than
2008, a full five years before its complaint was filed.
The court was not persuaded by the City’s invocation
of the continuing violation doctrine—which can allow
plaintiffs, under some circumstances, to sue on an
otherwise time-barred claim—since the City had not
alleged sufficient facts to support its allegation that
the specific practices continued into the statutory
period. The district court dismissed the City’s FHA
claim with prejudice, reasoning that even if the
statute of limitations deficiencies could be cured by an

82a
amended pleading, the City’s lack of statutory
standing could not be.
Finally, the district court rejected the City’s unjust
enrichment claim on several grounds. As a
preliminary matter, the City had failed to draw the
necessary causal connection between the Bank’s
alleged discriminatory practices and its receipt of
undeserved municipal services. Moreover, the court
found that the City had failed to allege basic elements
of an unjust enrichment claim under Florida law. It
determined that any benefit the Bank received from
municipal services was not direct but “derivative”
and, therefore, insufficient to support an unjust
enrichment claim. It also found that the City had
failed to allege that the Bank was not otherwise
entitled to those services as a Miami property owner.
Finally, it rejected the City’s argument that Miami
was forced to pay for the Bank’s externalities (the
costs of the harm caused by its mortgage lending),
holding that paying for externalities cannot sustain
an unjust enrichment claim. The district court
dismissed the unjust enrichment claim without
prejudice, leaving the City free to amend its
complaint.
The City chose not to proceed on its unjust
enrichment claim alone “because the two claims are
so intimately entwined and based on largely the same
underlying misconduct.” Instead, it moved in the
district court for reconsideration and for leave to file
an amended complaint, arguing that it had standing
under the FHA and that the amended complaint
would cure any statute of limitations deficiency. The
proposed amended complaint alleged that the Bank’s
discriminatory lending practices “frustrate[] the

83a
City’s longstanding and active interest in promoting
fair housing and securing the benefits of an integrated
community,” thereby “directly interfering]” with one
of the City’s missions. First Amended Complaint for
Violations of the Federal Fair Housing Act at 31, City
of Miami v. Bank of America Corp., No. 13-24506-CIV
(S.D. Fla. Sept. 9, 2014) (“Amended Complaint”). It
also made more detailed allegations about properties
that had been foreclosed upon after being subject to
discriminatory loans. Specifically, the proposed
amended complaint identified five foreclosed
properties that corresponded to predatory loans that
originated between 2008 and 2012, and three that
originated between 2004 and 2008. It also identified
seven properties that corresponded to predatory loans
that the Bank had issued after December 13, 2011
(within two years of filing suit) that had not yet been
foreclosed upon but were likely to “eventually enter
the foreclosure process,” based on expert analysis. Id.
at 36-37. The complaint continued to invoke the
continuing violation doctrine and claimed that the
statute of limitations had not run.
The district court denied the City’s motion for
reconsideration and for leave to amend. As for
statutory standing, the court explained that
“[a]rguing that this Court’s reasoning was flawed is
not enough for a motion for reconsideration.” City of
Miami v. Bank of America Corp., 2014 WL 4441368,
at *2. And the court was unimpressed by the City’s
new argument that it “has a generalized non-economic
interest . . . in racial diversity,” ruling that these were
“claims [the City] never made and amendments it did
not previously raise or offer despite ample
opportunity,” and were therefore “improperly raised
as grounds for reconsideration.” Id. Finally, the court

84a
noted that these “generalized allegations [do not]
appear to be connected in any meaningful way to the
purported loss of tax revenue and increase in
municipal expenses allegedly caused by Defendants’
lending practices.” Id. at *2 n.1.
The City timely appealed the court’s final order of
dismissal.
II.
A. Standard of Review
We review the district court’s grant of a motion to
dismiss with prejudice de novo, “accepting the
[factual] allegations in the complaint as true and
construing them in the light most favorable to the
plaintiff.” Mills v. Foremost Ins. Co., 511 F.3d 1300,
1303 (11th Cir. 2008) (quotation omitted). We
generally review the district court’s decision to deny
leave to amend for an abuse of discretion, but we will
review de novo an order denying leave to amend on
the grounds of futility, because it is a conclusion of law
that an amended complaint would necessarily fail.
Hollywood Mobile Estates Ltd. v. Seminole Tribe of
Fla., 641 F.3d 1259, 1264 (11th Cir. 2011). Finally, we
review de novo whether plaintiffs have Article III
standing. Ga. Latino Alliance for Human Rights v.
Governor of Ga., 691 F.3d 1250, 1257 (11th Cir. 2012).
B. Fair Housing Act Claim
1. Article III Standing
We come then to the first essential question in the
case: whether the City of Miami has constitutional
standing to bring its Fair Housing Act claim. See
Bochese v. Town of Ponce Inlet, 405 F.3d 964, 974
(11th Cir. 2005) (“[Article III] [s]tanding is a threshold

85a
jurisdictional question which must be addressed prior
to . . . the merits of a party’s claims.” (quoting Dillard
v. Baldwin Cnty. Comm’rs, 225 F.3d 1271, 1275 (11th
Cir. 2000)). Although the district court addressed only
the issue of so-called “statutory standing,” the Bank
contests both Article III standing and statutory
standing, and we address each in turn.
“[S]tanding is an essential and unchanging part of
the case-or-controversy requirement of Article III.”
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992). It
is by now axiomatic that to establish constitutional
standing at the pleading stage, the plaintiff must
plausibly allege: (1) an injury in fact that is concrete,
particularized, and actual or imminent; (2) “a causal
connection between the injury and the conduct
complained of,” such that the injury is “fairly
traceable to the challenged action of the defendant”;
and (3) that a favorable judicial decision will “likely”
redress the injury. See Bochese, 405 F.3d at 980
(quotation omitted). The “line of causation” between
the alleged conduct and the injury must not be “too
attenuated.” Allen v. Wright, 468 U.S. 737, 752 (1984).
The party invoking federal jurisdiction bears the
burden of establishing these elements. See FW/PBS,
Inc. v. Dallas, 493 U.S. 215, 231 (1990). At the
pleading stage, “general factual allegations of injury
resulting from the defendant’s conduct may suffice” to
demonstrate standing. Defs. of Wildlife, 504 U.S. at
561.
The district court did not address whether the City
had Article III standing because it granted the Bank’s
motion to dismiss on other grounds. On appeal, the
Bank argues that the City lacked Article III standing
because it had not adequately alleged the causal

86a
connection—that is, the “traceability”—between its
injury and the Bank’s conduct. We are unpersuaded.
To recap, the City claims that the Bank’s
discriminatory lending practices caused minorityowned properties to fall into foreclosure when they
otherwise would not have, or earlier than they
otherwise would have. This, in turn, decreased the
value of the foreclosed properties themselves and the
neighboring properties, thereby depriving the City of
property tax revenue, and created blight, thereby
forcing the City to spend additional money on
municipal services. Complaint at 45-50. We have little
difficulty in finding, based on controlling Supreme
Court caselaw, that the City has said enough to allege
an injury in fact for constitutional standing purposes.
Our analysis is guided by Gladstone, Realtors v.
Village of Bellwood, 441 U.S. 91 (1979). In that case,
the Village of Bellwood sued a real estate firm under
the FHA for discriminatory renting practices that
caused racial segregation. Id. at 94-95. The Supreme
Court held that the village had Article III standing to
bring its claim partly on the basis of “[a] significant
reduction in property values,” because such a
reduction “directly injures a municipality by
diminishing its tax base, thus threatening its ability
to bear the costs of local government and to provide
services.” Id. at 110-11. Like the Village of Bellwood,
the City of Miami claims that an allegedly
discriminatory policy has reduced local property
values and diminished its tax base. Thus, like the
Village of Bellwood, the City of Miami has adequately
alleged an injury in fact.
As for Article III causation, the Bank claims that
the City’s harm is not fairly traceable to the Bank’s

87a
conduct. Specifically, it suggests that a myriad of
other factors cause foreclosure and blight—including
the state of the housing market and the actions of
third parties like other property owners, competing
sellers, vandals, etc.—thereby breaking the causal
chain. While we acknowledge the real possibility of
confounding variables, at this stage in the proceeding
the City’s alleged chain of causation is perfectly
plausible: taking the City’s allegations as true, the
Bank’s extensive pattern of discriminatory lending led
to substantially more defaults on its predatory loans,
leading to a higher rate of foreclosure on minorityowned property and thereby reducing the City’s tax
base. See Cnty. of Cook v. Wells Fargo & Co., No. 14
C 9548, 2015 WL 4397842, at *3-4 (N.D. Ill. July 17,
2015) (finding the same causal allegation sufficient for
Article III traceability in a materially identical FHA
case and citing eight other district court cases finding
the same). Moreover, the complaint supports its
allegations with regression analyses that link the
Bank’s treatment of minority borrowers to predatory
loans, predatory loans to foreclosure, and foreclosure
to reduced tax revenue. Complaint at 6, 37-38, 44, 46.
All told, the City has “allege[d] . . . facts essential to
show jurisdiction.” FW/PBS, 493 U.S. at 231 (quoting
McNutt v. Gen. Motors Acceptance Corp., 298 U.S.
178, 189 (1936)).
Of course, the City has limited its claim only to
those damages arising from foreclosures caused by the
Bank’s lending practices. At a subsequent stage in the
litigation it may well be difficult to prove which
foreclosures resulted from discriminatory lending,
how much tax revenue was actually lost as a result of
the Bank’s behavior, etc. But at this early stage, the

88a
claim is plausible and sufficient. The City has said
enough to establish Article III standing.7
2. “Statutory Standing”
The district court dismissed the City’s claim,
however, not on the basis of Article III standing, but
because it lacked what the court characterized as
“statutory standing.” It found that the City fell outside
the FHA’s “zone of interests,” and that its harm was
not proximately caused by the Bank’s actions.
Ultimately, we disagree with the district court’s legal
conclusions. As for the zone of interests, we conclude
that we are bound by Supreme Court precedent
stating that so-called statutory standing under the
FHA extends as broadly as Article III will permit, and
find that this includes the City. As for proximate
cause, we agree that it must be pled for a damages
claim under the FHA, but find that the City has
adequately done so here.
Notably, the Supreme Court recently clarified in
Lexmark International, Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377 (2014), that the
longstanding doctrinal label of “statutory standing”
(sometimes also called “prudential standing”) is
misleading. The proper inquiry is whether the
plaintiff “has a cause of action under the statute.” Id.
at 1387. But that inquiry isn’t a matter of standing,
because “the absence of a valid . . . cause of action does
not implicate subject-matter jurisdiction, i.e., the
court’s statutory or constitutional power to adjudicate
7 The third Lujan factor, redressability, is not at issue in this
appeal. The City has “allege[d] a monetary injury and an award
of compensatory damages would redress that injury.” Resnick v.
AvMed, Inc., 693 F.3d 1317, 1324 (11th Cir. 2012).

89a
the case.” Id. at 1387 n.4 (quoting Verizon Md. Inc. v.
Public Serv. Comm’n of Md., 535 U.S. 635, 642-643
(2002)). Instead, it is “a straightforward question of
statutory interpretation.” Id. at 1388.
This issue comes before the Court on a motion to
dismiss for failure to state a claim, and the City’s
pleadings are evaluated for plausibility using the
standard set forth in Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007), and Ashcroft v. Iqbal, 556 U.S.
662 (2009). “The complaint must contain enough facts
to make a claim for relief plausible on its face; a party
must plead ‘factual content that allows the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.’” Resnick v. AvMed,
Inc., 693 F.3d 1317, 1324-25 (11th Cir. 2012) (quoting
Iqbal, 556 U.S. at 678). Of course, in evaluating the
plausibility of the claim we must take all of the
plaintiff’s factual allegations as true. See Iqbal, 556
U.S. at 678.
a. Zone of Interests
In general, a statutory cause of action “extends only
to those plaintiffs whose interests ‘fall within the zone
of interests protected by the law invoked.’” Lexmark,
134 S. Ct. at 1388 (quoting Allen v. Wright, 468 U.S.
737, 751 (1984)). The Supreme Court has instructed
us that this test “applies to all statutorily created
causes of action,” but its application is not uniform:
“certain statutes . . . protect a more-than-usually
‘expansive’ range of interests.” Id. (quoting Bennett v.
Spear, 520 U.S. 154, 164 (1997)) (alteration adopted).
The FHA provides that
[a]n aggrieved person may commence a civil
action in an appropriate United States district

90a
court or State court not later than 2 years after
the occurrence or the termination of an alleged
discriminatory housing practice . . . to obtain
appropriate relief with respect to such
discriminatory housing practice or breach.
42 U.S.C. § 3613(a)(1)(A). It defines an “aggrieved
person” as anyone who “claims to have been injured
by a discriminatory housing practice,” or “believes
that such person will be injured by a discriminatory
housing practice that is about to occur.” Id. at
§ 3602(i).
The Bank claims that the City is not an “aggrieved
person,” and, therefore, falls outside the statute’s zone
of interests and cannot state a cause of action under
the FHA. The City argues, however, that “FHA
statutory standing is as broad as the Constitution
permits under Article III,” and therefore it is within
the statute’s zone of interests. Older Supreme Court
cases appear to support the City’s view, while certain
more recent cases—as well as an older decision of this
Court—have cast some doubt on the viability of those
holdings. The answer requires carefully parsing both
Supreme Court and Eleventh Circuit precedent, and
a review of the relevant cases is instructive.
i. Early Supreme Court cases
The first major FHA case explicated by the Supreme
Court is Trafficante v. Metropolitan Life Insurance,
409 U.S. 205 (1972). Two tenants of an apartment
complex—one black, one white—alleged that the
landlord discriminated against minorities on the basis
of race when renting units, in violation of the FHA. Id.
at 206-07. The Court held that standing under the Act
was defined “as broadly as is permitted by Article III

91a
of the Constitution . . . insofar as tenants of the same
housing unit that is charged with discrimination are
concerned.” Id. at 209 (quotation omitted). “The
language of the Act is broad and inclusive,” the Court
wrote, and “the alleged injury to existing tenants by
exclusion of minority persons from the apartment
complex is the loss of important benefits from
interracial associations.” Id. at 209-10.
Seven years later, in Gladstone, the Village of
Bellwood brought suit under the FHA against two real
estate firms for “steering” black and white
homeowners
into
targeted,
race-specific
neighborhoods, thereby “manipulat[ing] the housing
market,” “affecting the village’s racial composition,”
and causing “[a] significant reduction in property
values.” 441 U.S. at 109-10. The Court concluded that
the village had stated a cause of action under the FHA
and reaffirmed, based on the legislative history and
purpose of the statute, that statutory standing under
the FHA “is as broad as is permitted by Article III of
the Constitution.” Id. at 109 (quotation omitted and
alteration adopted).
Next came Havens Realty Corp. v. Coleman, 455
U.S. 363 (1982), in which—along with other plaintiffs
—a nonprofit corporation whose purpose was “to make
equal opportunity in housing a reality in the
Richmond Metropolitan Area” brought an FHA claim
against a realty firm for racial steering (i.e., fostering
racial segregation by guiding prospective buyers
towards or away from certain apartments based on
the buyer’s race). In the clearest and most
unambiguous terms, the Supreme Court reiterated
the holding of Gladstone: “Congress intended
standing under [the FHA] to extend to the full limits

92a
of Art. III and . . . the courts accordingly lack the
authority to create prudential barriers to standing in
suits brought under [the FHA].” Id. at 372 (quotation
omitted). As the Court explained, “the sole
requirement for standing to sue under [the FHA] is
the Art. III minima of injury in fact: that the plaintiff
allege that as a result of the defendant’s actions he
has suffered ‘a distinct and palpable injury.’” Id.
(quoting Warth v. Seldin, 422 U.S. 490, 501 (1975)).
The organization’s allegation that the racial steering
“perceptibly impaired [its] ability to provide
counseling and referral services for low- and
moderate-income homeseekers” was sufficient to
constitute injury in fact for purposes of Article III (and
statutory) standing. Id. at 379.
ii. Nasser
Less than a month after Havens, the Eleventh
Circuit issued an opinion in Nasser, 671 F.2d 432, on
which the district court and the Bank principally rely.
In Nasser, property owners challenged a zoning
ordinance that rezoned their property from multifamily residential to single-family residential,
alleging, inter alia, that the ordinance violated the
FHA. Id. at 434. In 1976, the plaintiffs entered into an
agreement with a developer for the construction of a
multi-family housing complex on their property. The
developer had looked into the possibility of making
some units of this complex available for low- and
moderate-income families via rent subsidies, and had
inquired with the Department of Housing and Urban
Development.
But
the
development
never
materialized. A detailed affidavit from a member of
the county planning commission stated that the
plaintiffs had never suggested that their purpose “was

93a
to build a multi-family project for the use and benefit
of low income or minority groups.” Id. at 435. Instead,
the affidavit claimed that the plaintiffs had
represented their project as “an exclusive-high rent
apartment complex.” Id. The Court found that there
was no “evidence that the 1976 project was in any way
affected by or related to racial or other minority
interests.” Id.
Three years later, the land was re-zoned. Id. at 434.
The plaintiffs claimed that the re-zoning had reduced
the value of their property by more than 50% (from
$285,000 to $135,000). See id. at 435. A panel of this
Court concluded that the plaintiffs lacked statutory
standing under the FHA despite this purported
economic injury. In making this determination, the
Court considered Trafficante and Gladstone, and
concluded: “There is no indication that the [Supreme]
Court intended to extend standing, beyond the facts
before it, to plaintiffs who show no more than an
economic interest which is not somehow affected by a
racial interest.” Id. at 437. The Nasser Court found
that the property owners lacked an economic interest
affected by a racial interest, and therefore lacked
standing to sue under the FHA. Id. at 438.
iii. Newer Supreme Court cases
on statutory standing
Two recent Supreme Court cases have cast some
doubt on the broad interpretation of FHA statutory
standing in Trafficante, Gladstone, and Havens. In
Thompson v. North American Stainless, LP., 562 U.S.
170 (2011), the Court considered whether an employee
had a cause of action under Title VII, which uses
nearly identical statutory language to the FHA. See
42 U.S.C. § 2000e-5(f)(1) (“[A] civil action may be

94a
brought . . . by the person claiming to be aggrieved.”).
The Court rejected the argument that this language
expanded statutory standing to the limits of Article
III. Id. at 177. Instead, it drew an analogy to the
Administrative Procedure Act (which contains similar
language) and held that plaintiffs must “fall[] within
the ‘zone of interests’ sought to be protected by the
statutory provision whose violation forms the legal
basis for his complaint.” Id. at 177-78 (quoting Lujan
v. Nat’l Wildlife Fed’n, 497 U.S. 871, 883 (1990)).
The Court acknowledged that this analysis was in
some tension with Trafficante and Gladstone. But in
glossing Trafficante, the Thompson Court focused on
language in the opinion that arguably limited the
holding to its facts: the Trafficante Court stated that
standing under the FHA was coextensive with Article
III only “insofar as tenants of the same housing unit
that is charged with discrimination are concerned.”
Id. at 176 (quoting Trafficante, 409 U.S. at 209). The
Thompson Court acknowledged that later cases (such
as Gladstone) reiterated that standing under the FHA
“reaches as far as Article III permits” without any
limiting language, but it stated that “the holdings of
those cases are compatible with the ‘zone of interests’
limitation” that the Court went on to read into Title
VII. Id. at 177.
Finally, the Supreme Court’s recent opinion in
Lexmark (interpreting the Lanham Act) discarded the
labels “prudential standing” and “statutory standing,”
and clarified that the inquiry was really a question of
statutory interpretation, and not standing at all. 134
S. Ct. at 1386-87 & n.4. One aspect of this
interpretation, the Court explained, was a zone of
interests analysis, which “requires [the court] to

95a
determine, using traditional tools of statutory
interpretation, whether a legislatively conferred
cause of action encompasses a particular plaintiffs
claim.” Id. at 1387. The Court went on to say that this
zone of interests test “applies to all statutorily created
causes of action.” Id. at 1388. Lexmark did not
mention the FHA or any of the Court’s FHA cases.
iv. Analysis
The scope and role of the zone of interests analysis
in the FHA context is a difficult issue, and one that
has sharply divided the courts that have considered it.
Compare, e.g., Cnty. of Cook, 2015 WL 4397842, at *56 (holding that Thompson and Lexmark effectively
overruled the Supreme Court’s interpretation of FHA
statutory standing as being coextensive with Article
III standing), with, e.g., City of Los Angeles v.
JPMorgan Chase & Co., No. 2:14-CV-04168-ODW,
2014 WL 6453808, at *6 (C.D. Cal. Nov. 14, 2014)
(finding that the Supreme Court’s original
interpretation of FHA statutory standing remained
good law after Thompson and Lexmark). Ultimately,
we disagree with the district court, and hold that the
phrase “aggrieved person” in the FHA extends as
broadly as is constitutionally permissible under
Article III.
Simply put, Trafficante, Gladstone, and Havens
have never been overruled, and the law of those cases
is clear as a bell: “[statutory] standing under [the
FHA] extends ‘as broadly as is permitted by Article III
of the Constitution.’” Gladstone, 441 U.S. at 98
(quoting Trafficante, 409 U.S. at 209); accord Havens,
455 U.S. at 372. While Thompson has gestured in the
direction of rejecting that interpretation, a gesture is
not enough. The rule governing these situations is

96a
clear: “if a precedent of the Supreme Court has direct
application in a case, yet appears to rest on reasons
rejected in some other line of decisions, the Court of
Appeals should follow the case which directly controls,
leaving to the Supreme Court[] the prerogative of
overruling its own decisions.” Evans v. Sec’y, Fla.
Dep’t of Corr., 699 F.3d 1249, 1263 (11th Cir. 2012)
(quotation omitted and alterations adopted); accord
Tenet v. Doe, 544 U.S. 1, 10-11 (2005). In other words,
“the Supreme Court has insisted on reserving to itself
the task of burying its own decisions.” Evans, 699 F.3d
at 1263 (quotation omitted).
Notably, Thompson itself was a Title VII case, not a
Fair Housing Act case. Thompson surveyed
Trafficante and Gladstone, but did not explicitly
overrule them—nor could it, given the different
statutory context in which it arose. Instead, the Court
held that any suggestion drawn from the FHA cases
that Title VII’s cause of action is similarly broad was
“ill-considered” dictum. Thompson, 562 U.S. at 176.
It’s true that Title VII contains nearly identical
statutory language to the FHA, and therefore the
Thompson Court’s interpretation of Title VII may
signal that the Supreme Court is prepared to narrow
its interpretation of the FHA in the future. (The dicta
in Thompson indicating that its Title VII
interpretation is “compatible” with the Court’s
previous FHA holdings suggests as much. See 562
U.S. at 176-77.) But that day has not yet arrived, and
until it does, our role as an inferior court is to apply
the law as it stands, not to read tea leaves. The stillundisturbed holding of the Supreme Court’s FHA
cases is that the definition of an “aggrieved person”
under the FHA extends as broadly as permitted under
Article III.

97a
This Court’s binding precedent in Nasser is not to
the contrary. Nasser stands for the unremarkable
proposition that a plaintiff has no cause of action
under the FHA if he makes no allegation of
discrimination (or disparate impact) on the basis of
race (or one of the FHA’s other protected
characteristics: color, religion, sex, handicap, familial
status, and national origin). The allegation of
discrimination provides the “racial interest” Nasser
requires to bring an economic injury within the scope
of the statute. 671 F.2d at 437. The Nasser plaintiffs’
claim was unrelated to race (or any protected FHA
characteristic) altogether; they simply objected to the
rezoning of their property because it cost them money.
As the Nasser Court put it, the plaintiffs’ “interest in
[the] value of the property in no way implicate[d] [the]
values protected by the Act.” Id.
Indeed, this is exactly how subsequent Eleventh
Circuit caselaw has treated Nasser. In Baytree of
Inverrary Realty Partners v. City of Lauderhill, 873
F.2d 1407 (11th Cir. 1989)—the only case of this Court
to revisit or reference Nasser’s treatment of the FHA
—we held that a non-minority real estate developer,
Baytree, stated a claim under the FHA when it
challenged the city’s decision to rezone its property,
alleging that the decision was racially motivated and
rendered the property worthless. Id. at 1408. We
distinguished Nasser as a case “in which plaintiffs
alleged only an economic injury unaffected by any
racial interest,” and found it inapposite because
Baytree had properly alleged that its injury
“result[ed] from racial animus.” Id. at 1409. The same
is true of the City of Miami’s claim. Like Baytree, the
City claims to have suffered an economic injury
resulting from a racially discriminatory housing

98a
policy; in neither case does Nasser prevent the
plaintiff from stating a claim under the FHA.
In sum, we agree with the City that the term
“aggrieved person” in the FHA sweeps as broadly as
allowed under Article III; thus, to the extent a zone of
interests analysis applies to the FHA, it encompasses
the City’s allegations in this case. The City’s claim
does not suffer from the same flaw as the Nasser
plaintiffs’, because the City has specifically alleged
that its injury is the result of a Bank policy either
expressly motivated by racial discrimination or
resulting in a disparate impact on minorities.
b. Proximate Cause
The district court also concluded that the City’s
pleadings did not sufficiently allege that the Bank’s
lending practices were a proximate cause of the City’s
injury. It determined that the City had not “allege[d]
facts that isolate Defendants’ practices as the cause of
any alleged lending disparity” compared to the
background factors of a cratering economy and the
actions of independent actors such as “loan services,
government entities, competing sellers, and
uninterested buyers.” City of Miami v. Bank of
America Corp., 2014 WL 3362348, at *5. It also found
that the City’s statistical analyses indicating that
foreclosures caused economic harm were “insufficient
to support a causation claim,” because some of the
studies were not limited to Miami, some were not
limited to the defendants’ practices, and some did not
control for relevant credit factors. Id. The plaintiffs
disagree, arguing that they need not plead proximate
causation at all, only the lesser “traceability” required
by Article III. In the alternative, they say that their
pleadings were sufficient under either standard.

99a
Although we agree with the Bank and the district
court that proximate cause is a required element of a
damages claim under the FHA, we find that the City
has pled it adequately.
In Lexmark, the Supreme Court illuminated the
doctrine of proximate cause as it relates to statutory
causes of action. “[W]e generally presume that a
statutory cause of action is limited to plaintiffs whose
injuries are proximately caused by violations of the
statute.” 134 S. Ct. at 1390. This principle reflects “the
reality that the judicial remedy cannot encompass
every conceivable harm that can be traced to alleged
wrongdoing,” as well as the Court’s assumption that
Congress is familiar with the traditional common-law
rule and “does not mean to displace it sub silentio.” Id.
(quotation omitted). The Court made clear that
proximate causation is not a requirement of Article
III, but rather an element of the cause of action under
a statute, and it “must be adequately alleged at the
pleading stage in order for the case to proceed.” Id. at
1391 n.6. The Supreme Court has read a variety of
federal statutory causes of action to contain a
proximate cause requirement. See, e.g., Lexmark, 134
S.
Ct.
at
1390-93
(Lanham
Act);
Dura
Pharmaceuticals, Inc. v. Broudo, 544 U.S. 336, 346
(2005) (securities fraud); Holmes v. Sec. Investor Prot.
Corp., 503 U.S. 258, 265-68 (1992) (RICO); Associated
Gen. Contractors of Cal., Inc. v. Cal. State Council of
Carpenters, 459 U.S. 519, 529-35 (1983) (Clayton Act).
Although proximate cause “is not easy to define,”
the basic inquiry is “whether the harm alleged has a
sufficiently close connection to the conduct the statute
prohibits.” Lexmark, 134 S. Ct. at 1390. The
requirement is “more restrictive than a requirement

100a
of factual cause alone,” Paroline v. United States, 134
S. Ct. 1710, 1720 (2014), and we have said that it
demands “something [more]” than Article III
traceability, Focus on the Family v. Pinellas Suncoast
Transit Auth., 344 F.3d 1263, 1273 (11th Cir. 2003);
see also Lexmark, 134 S. Ct. at 1391 n.6. But the
nature of the proximate cause requirement differs
statute by statute: it is “controlled by the nature of the
statutory cause of action,” so the scope of liability
depends on the statutory context. Lexmark, 134 S. Ct.
at 1390.
No case of the Supreme Court or this Court has ever
dealt directly with the existence or application of a
proximate cause requirement in the FHA context. But
certain statements by the Supreme Court suggest
that proximate cause must exist for a damages action
brought under the FHA. First, the Lexmark Court
characterized proximate cause as a “general[]
presum[ption]” in statutory interpretation. Id. at
1390. Moreover, the Supreme Court has observed that
an FHA damages claim is “in effect, a tort action,”
governed by general tort rules, Meyer v. Holley, 537
U.S. 280, 285 (2003); Curtis v. Loether, 415 U.S. 189,
195 (1974) (“A damages action under the [FHA]
sounds basically in tort—the statute merely defines a
new legal duty, and authorizes the courts to
compensate a plaintiff for the injury caused by the
defendant’s wrongful breach.”), and proximate cause
is a classic element of a tort claim, see Dan B. Dobbs,
Paul T. Hayden & Ellen M. Bublick, The Law of Torts
§ 198 (2d ed. 2011). If the City’s claim is functionally
a tort action, then presumably the City must
adequately plead proximate cause, just like any other
plaintiff raising any tort claim. At least two of our
sister circuits appear to have reached the same

101a
conclusion. See Pac. Shores Props., LLC v. City of
Newport Beach, 730 F.3d 1142, 1167-68 & n.32 (9th
Cir. 2013) (noting that a damages action under the
FHA “sounds basically in tort” and applying a
proximate cause requirement), cert. denied sub nom.
City of Newport Beach v. Pac. Shores Props., LLC, 135
S. Ct. 436 (2014); Samaritan Inns, Inc. v. Dist. of
Columbia, 114 F.3d 1227, 1234-35 (D.C. Cir. 1997)
(same); see also Miami Valley Fair Hous. Ctr., Inc. v.
Connor Grp., No. 3:10-CV-83, 2015 WL 853193, at *45 (S.D. Ohio Feb. 26, 2015) (holding that a fair housing
organization must establish proximate cause because
it is “one step removed from the discrimination,” so its
claimed damages must be “t[ied] . . . to the defendant’s
alleged wrongdoing”).8
8 We recognize that our conclusion that a private cause of
action under the FHA contains a proximate cause requirement
may be in some tension with the Supreme Court’s general
holding that statutory standing under the FHA extends as
broadly as permitted under Article III. As we’ve explained,
Article III’s only causation requirement is that the plaintiffs
injury be “fairly traceable” to the defendant’s unlawful conduct.
Defs. of Wildlife, 504 U.S. at 590 (quoting Allen, 468 U.S. at 751).
Plainly, proximate cause is not an element of constitutional
standing. See Lexmark, 134 S. Ct. at 1391 n.6. Nonetheless, we
do not interpret Trafficante, Gladstone, or Havens to have read
a proximate cause requirement out of the statute. Nothing in
those cases decided, or even asked, whether some kind of
proximate cause requirement is an element of an FHA claim.

To the extent those cases addressed Article III standing, they
were concerned with what we call today the first Lujan factor:
injury in fact—an injury that is “concrete and particularized,”
and “actual or imminent.” Defs. of Wildlife, 504 U.S. at 560. In
Trafficante, the plaintiffs were two tenants, one black, one white,
who had lost the benefit of interracial associations; causation
was not discussed. 409 U.S. at 206; see Gladstone, 441 U.S. at
112-13 (characterizing Trafficante’s holding as turning on Article

102a
The Bank argues that proximate cause creates a
“directness requirement” within the FHA, and that
the City’s pleadings, therefore, fail because they do
not allege that the Bank’s actions directly harmed the
City. The City does not accuse the Bank of
discriminating against the City itself in its lending
practices; instead, it claims that the Bank’s
discriminatory practices led the City to lose tax
revenue and spend money combating the resulting
blight. This harm, the Bank claims, is too indirect to
have been proximately caused by the Bank’s conduct.

III’s injury-in-fact requirement). In Gladstone, causation was
again not considered, except for a suggestion in dicta that
evidence of the defendant’s business practices might “be relevant
to the establishment of the necessary causal connection between
the alleged conduct and the asserted injury” in later stages of
litigation. Id. at 114 n.29. Finally, in Havens, the Court did not
discuss causation; “the question before [the Court] . . . [was]
whether injury in fact ha[d] been sufficiently alleged.” 455 U.S.
at 376 (emphasis added). Nothing in the holdings of these cases
speaks to the existence of a proximate cause requirement, let
alone bars us from interpreting the FHA to require a showing of
proximate cause for damages actions.
Moreover, it seems inconceivable that the FHA would not
contain a proximate cause requirement of some sort, because the
alternative would produce seemingly absurd results. Requiring
nothing but Article III traceability for FHA damages actions
would create an open-ended fount of liability, particularly for
plaintiffs (like the City of Miami) who are at least one step
removed from the defendant’s discriminatory conduct. This, of
course, is why proximate cause is a classic element of a tort
action—and, as we have said, the Supreme Court has observed
that damages claims under the FHA are essentially tort actions.
Indeed, this statutory interpretation, rooted in the nature of the
cause of action, has now been embraced by all three circuit courts
of appeals to have addressed the issue.

103a
We disagree. The Bank proposes to draw its
proximate cause test from other statutory contexts,
primarily from the Supreme Court’s interpretation of
the Racketeer Influenced and Corrupt Organizations
Act (RICO) in Holmes, 503 U.S. 258. In that case, the
Court read a proximate cause requirement into RICO,
reasoning that its statutory language (granting a
cause of action to anyone injured “by reason of” a
violation of 18 U.S.C. § 1692, see 18 U.S.C. § 1964(c))
mirrored language used in the antitrust statutes,
which had long been interpreted to contain such a
requirement. See Holmes, 503 U.S. at 267-68. One of
the “central elements” of proximate cause in the RICO
and antitrust context, the Court explained, is “a
demand for some direct relation between the injury
asserted and the injurious conduct alleged.” Id. at 26869; see, e.g., Simpson v. Sanderson Farms, Inc., 744
F.3d 702, 712 (11th Cir. 2014) (applying the Holmes
directness requirement in a civil RICO case); cf
Lexmark, 134 S. Ct. at 1390 (appearing to endorse a
directness requirement by noting that a claim
“ordinarily” fails to allege proximate cause when “the
harm [to the plaintiff] is purely derivative of
‘misfortunes visited upon a third person by the
defendant’s acts’” (quoting Holmes, 503 U.S. at 268)).
The Bank argues that proximate cause in the FHA
context must be the same.
But the Supreme Court in Lexmark made clear that
proximate cause is not a one-size-fits-all analysis: it
can differ statute by statute. Thus, for example,
Lexmark involved an allegation of false advertising
under the Lanham Act brought by one company
against a rival. As the Court noted, all such injuries
“are derivative of those suffered by consumers who are
deceived by the advertising.” 134 S. Ct. at 1391. A

104a
claim based on such a derivative injury might not
satisfy proximate cause under a statute that strictly
requires a direct connection between the plaintiff’s
harm and the defendant’s conduct. Nevertheless, the
Court found that the claim satisfied proximate
causation under the Lanham Act: because the statute
authorized suit “only for commercial injuries,” the
derivative nature of the plaintiff’s claim could not be
“fatal” to the plaintiffs cause of action. Id. In other
words, the statutory context shaped the proximate
cause analysis. So, too, in this case.
The FHA’s proximate cause requirement cannot
take the shape of the strict directness requirement
that the Bank now urges on us: indeed, such a
restriction would run afoul of Supreme Court and
Eleventh Circuit caselaw allowing entities who have
suffered indirect injuries—that is, parties who have
not themselves been directly discriminated against—
to bring a claim under the FHA. Notably, the Village
of Bellwood in Gladstone was permitted to bring an
FHA claim even though it was not directly
discriminated against. 441 U.S. at 109-11. So, too, was
the non-profit corporation in Havens, which alleged
impairment of its organizational mission and a drain
on its resources, not direct discrimination. 455 U.S. at
378-79. And in our own Circuit, the same is true of the
plaintiff in Baytree, a non-minority developer who
challenged a city’s zoning decision as racially
discriminatory. 873 F.2d at 1408-09. Indeed, the
Supreme Court in Havens instructed that the
distinction between direct and indirect harms—or, as
the Havens Court characterized it, the difference
“between ‘third-party’ and ‘first-party’ standing”—
was “of little significance in deciding” whether a
plaintiff had a cause of action under the FHA. 455

105a
U.S. at 375; see Pac. Shores Props., 730 F.3d at 1168
n.32 (“The fact that FHA plaintiffs’ injuries must be
proximately caused by the defendants’ discriminatory
acts does not, of course, mean that defendants are not
liable for foreseeable, but indirect, effects of
discrimination.”).
In examining RICO and the antitrust statutes, the
Supreme Court has looked to the statutory text and
legislative history to determine the scope and
meaning of the proximate cause requirement. See
Holmes, 503 U.S. at 265-68. Neither party has
presented
any
argument
based
on
these
considerations. However, the Supreme Court has
observed that the language of the FHA is “broad and
inclusive,” Trafficante, 409 U.S. at 209, and must be
given “a generous construction,” id. at 212. What’s
more, while the Supreme Court has cautioned that
“[t]he legislative history of the [the FHA] is not too
helpful” in determining the scope of its cause of action,
it observed that the FHA’s proponents “emphasized
that those who were not the direct objects of
discrimination had an interest in ensuring fair
housing, as they too suffered.” Id. at 210. In short,
nothing in the text or legislative history of the FHA
supports the Bank’s cramped interpretation.
As we’ve noted, damages claims arising under the
FHA have long been analogized to tort claims. Thus,
we look to the law of torts to guide our proximate
cause analysis in this context. We agree with the City
that the proper standard, drawing on the law of tort,
is based on foreseeability.9 See Dobbs, Hayden &
We acknowledge that the Supreme Court has rejected
foreseeability as the touchstone of proximate cause “in the RICO
context,” Hemi Grp., LLC v. City of New York, 559 U.S. 1, 12
9

106a
Bublick, supra, § 199, at 686 (“Professional usage
almost always reduces proximate cause issues to the
question of foreseeability. The defendant must have
been reasonably able to foresee the kind of harm that
was actually suffered by the plaintiff . . .”); see also
Pac. Shores Props., 730 F.3d at 1168 & n.32 (noting in
the FHA context that “the doctrine of proximate cause
serves merely to protect defendants from
unforeseeable results” of their unlawful conduct, and
that defendants are “liable for foreseeable . . . effects
of discrimination.”).
Under this standard, the City has made an
adequate showing. The complaint alleges that the
Bank had access to analytical tools as well as
published reports drawing the link between predatory
lending practices “and their attendant harm,” such as
premature foreclosure and the resulting costs to the
City, including, most notably, a reduction in property
tax revenues. Complaint at 8-9, 26-27, 32-33, 4748, 50.
The district court rejected the plaintiffs’ claim partly
because it failed to “allege facts that isolate
Defendants’ practices as the cause of any alleged
lending disparity.” City of Miami v. Bank of America
Corp., 2014 WL 3362348, at *5. But as we have said
even in the more restrictive RICO context, proximate
cause “is not . . . the same thing as . . . sole cause.” Cox
v. Adm’r U.S. Steel & Carnegie, 17 F.3d 1386, 1399
(11th Cir.), opinion modified on reh’g, 30 F.3d 1347
(11th Cir. 1994); see Dobbs, Hayden & Bublick, supra,
§ 198, at 683 (“[The proximate cause requirement]
does not mean that the defendant’s conduct must be
the only proximate cause of the plaintiff’s injury.”).
(2010), but we have already explained why that statutory context
does not govern our analysis today.

107a
Instead, a proximate cause is “a substantial factor in
the sequence of responsible causation.” Cox, 17 F.3d
at 1389 (quotation omitted). The City has surely
alleged that much: it claims that the Bank’s
discriminatory lending caused property owned by
minorities to enter premature foreclosure, costing the
City tax revenue and municipal expenditures.
Although there are several links in that causal chain,
none are unforeseeable. See Dobbs, Hayden &
Bublick, supra, § 204, at 705 (explaining that
intervening causes become “superseding” only if they
are unforeseeable). And, as we noted in the context of
Article III traceability, the City has provided the
results of regression analyses that purport to draw the
connection between the Bank’s conduct toward
minority borrowers, foreclosure, and lost tax revenue.
This empirical data is sufficient to “raise the
pleadings above the speculative level.” Dekalb Cnty.
v. HSBC N. Am. Holdings, Inc., No. 1:12-CV-03640SCJ, 2013 WL 7874104, at *7 (N.D. Ga. Sept. 25,
2013); see Twombly, 550 U.S. at 555; cf. Maya v.
Centex Corp., 658 F.3d 1060, 1073 (9th Cir. 2011)
(“Expert testimony can be used to explain the causal
connection between defendants’ actions and plaintiffs’
injuries, even in the context of other market
forces.”).10
The Bank also makes much of City of Cleveland v.
Ameriquest Mortgage Sec., Inc., 615 F.3d 496 (6th Cir. 2010), a
Sixth Circuit case brought by the City of Cleveland against
various financial entities that it claimed were responsible for a
large portion of the Cleveland subprime lending market and a
foreclosure crisis that devastated local neighborhoods. Id. at 49899. The Sixth Circuit held that the city’s claims did not
adequately plead proximate cause, in part because “the cause of
the alleged harms is a set of actions (neglect of property, starting
10

108a
In the face of longstanding caselaw drawn from the
Supreme Court and this Court permitting FHA claims
by so-called third party plaintiffs who are injured by
a defendant’s discrimination against another person,
it is clear that the harm the City claims to have
suffered has “a sufficiently close connection to the
conduct the statute prohibits.” Lexmark, 134 S. Ct. at
1390. Of course, whether the City will be able to
actually prove its causal claims is another matter
altogether. At this stage, it is enough to say that the
City has adequately pled proximate case, as required
by the FHA.
3. Statute of Limitations
The FHA also requires that claims be filed “not later
than 2 years after the occurrence or the termination
of an alleged discriminatory housing practice.” 42
U.S.C. § 3613(a)(1)(A). The district court concluded,
and the parties do not contest, that an FHA claim for
fires, looting, and dealing drugs) that is completely distinct from
the asserted misconduct (financing subprime loans).” Id. at 504.
The defendants insist that the same analysis applies here. But
City of Cleveland is readily distinguishable. Most glaringly, the
city in that case brought a state-law public nuisance claim, not
an FHA claim. Id. at 498. Ohio law had adopted its proximate
cause test from Holmes, which we have already explained is
inapposite, and the court in no way suggested that an identical
proximate cause requirement existed in the FHA. Id. at 503.
Moreover, the defendants in that case “did not originate the
subprime mortgages at issue”—rather, they “finance[ed],
purchas[ed], and pool[ed] . . . vast amounts of these loans,”
creating mortgage-backed securities that were then sold to the
public. Id. at 499. It was this financial activity that Cleveland
challenged as a public nuisance, not the original issuance of the
loans. Thus, the Cleveland defendants’ activity was one step
further removed than the activity of the Bank in this case, which
issued the allegedly predatory loans in the first instance.

109a
issuing a discriminatory loan begins to run from the
date that the loan closes. City of Miami v. Bank of
America Corp., 2014 WL 3362348, at *6; see Estate of
Davis v. Wells Fargo Bank, 633 F.3d 529, 532 (7th Cir.
2011) (calculating FHA statute of limitations for a
predatory loan beginning with the date the loan was
issued).
This lawsuit was filed on December 13, 2013. Thus,
in a traditional statute of limitations analysis, the
complained-of loans must have closed after December
13, 2011. The City maintains that it has alleged a
pattern and practice of discriminatory lending by the
Bank, and its claims, therefore, qualify for the
application of the “continuing violation doctrine.” The
district court disagreed, finding that the City had not
alleged facts sufficient to support its allegation that
the specific practices continued into the statutory
period. We remain unpersuaded.
The complaint alleged that the City had identified
3,326 discriminatory loans issued by the Bank in
Miami between 2004 and 2012 that had resulted in
foreclosure. Complaint at 50-51. It then listed ten
specific property addresses that it claimed
“corresponded to these foreclosures,” but provided no
specific information (e.g., the type of loan, the
characteristics that made it predatory or
discriminatory, when the loan closed, when the
property went into foreclosure, etc.) for each address.
Id. at 51. (The City also claimed that “with the benefit
of discovery,” it “anticipate[d] . . . be[ing] able to
identify more foreclosures resulting from the issuance
of discriminatory loans.” Id. at 51 n.35.) As the district
court noted, however, the City failed to allege that any

110a
of the loans closed within the limitations period
(between December 13, 2011, and December 13, 2013).
On appeal, the City does not contend that its
original complaint was adequate; rather, it argues
that it could readily cure the statute of limitations
flaws if given the opportunity. In support, the City
points to the proposed amended complaint that it
provided along with its motion for reconsideration and
motion to amend. The district court acknowledged
that the City might indeed be able to remedy its
statute of limitations deficiencies with an
amendment, but the court never considered whether
the City’s proposed amended complaint was sufficient,
because it concluded that the City remained outside
the statute’s zone of interests and had not adequately
pled proximate cause. Because the district court erred
both as to the zone of interests and proximate cause,
we are obliged to remand the cause of action in the
first instance to determine whether or not the City
could remedy any statute of limitations deficiency. We
decline to evaluate the City’s proposed amended
complaint before the district court has had the
opportunity to do so. See Adinolfe v. United Techs.
Corp., 768 F.3d 1161, 1172 (11th Cir. 2014) (“[A]s an
appellate tribunal, we are generally limited to
reviewing arguments and issues that have been
raised and decided in the district court.”).
In order to provide guidance on remand, we offer
this discussion of the application of the continuing
violation doctrine to this case. In addition to noting
that the City never alleged that any particular loan
closed within the limitations period (a deficiency that
may well be cured in an amended pleading), the
district court also seemingly held that the City’s claim

111a
could not qualify for the application of the continuing
violation doctrine because the complaint did not
identify a singular and uniform practice of continuing
conduct.
The continuing violation doctrine applies to “the
continued enforcement of a discriminatory policy,”
and allows a plaintiff to “sue on otherwise time-barred
claims as long as one act of discrimination has
occurred . . . during the statutory period.” Hipp v.
Liberty Nat. Life Ins. Co., 252 F.3d 1208, 1221 (11th
Cir. 2001) (per curiam). The governing law on the
continuing violation doctrine in the FHA context is
drawn from the Supreme Court’s decision in Havens.
In that case, three plaintiffs11—a black individual
looking to rent an apartment, a black “tester,” and a
white “tester”12—brought FHA claims. Havens, 455
U.S. at 368. Their lawsuit was filed on January 9,
1979. Coles v. Havens Realty Corp., 633 F.2d 384, 386
(4th Cir. 1980), aff’d in part, rev’d in part sub nom.
Havens, 455 U.S. 363. At the time, the limitations
period under the FHA was 180 days. The plaintiffs
identified five separate incidents of discrimination: on
March 14, March 21, March 23, July 6, and July 13 of
1978. Only the incident on July 13 was within the
limitations period. See Havens, 455 U.S. at 380.
On March 14, March 21, and March 23, the two
testers asked Havens about available apartments.
Each time, the black tester was told that nothing was
available, while the white tester was told that there
As discussed earlier, there was also a fourth plaintiff: a nonprofit corporation. Havens, 455 U.S. at 367. Its claim is not
relevant to the discussion of the statute of limitations.
12 The testers posed as renters for the purpose of collecting
evidence of unlawful racial steering practices.
11

112a
were vacancies. Id. at 368. On July 6, the black tester
made a further inquiry and was told that there were
no vacancies, while another white tester (not a party
to the suit) was told that there were openings. Id.
Finally, on July 13—the only incident within the
limitations period—the black plaintiff who was
genuinely looking to rent asked Havens about
availability and was falsely told that there was
nothing. Id.
All three plaintiffs alleged that Havens’s practices
deprived them of the benefits of living in an integrated
community. Id. at 369. The Supreme Court held that
the claims were not time-barred for any of the
plaintiffs because they alleged a “continuing
violation” of the FHA, despite the fact that only one
discriminatory incident was within the limitations
window, and that incident involved only one of the
three plaintiffs. Id. at 380-81. “[A] ‘continuing
violation’ of the Fair Housing Act should be treated
differently from one discrete act of discrimination,”
the Court explained. Id. at 380. The Court reasoned
that “[w]here the challenged violation is a continuing
one,” there is no concern about the staleness of the
plaintiff’s claims. Id. Moreover, the Court emphasized
“the broad remedial intent of Congress embodied in
the [Fair Housing] Act” in rejecting the defendants’
“wooden application” of the statute of limitations. Id.
The Court concluded: “where a plaintiff, pursuant to
the Fair Housing Act, challenges not just one incident
of conduct violative of the Act, but an unlawful
practice that continues into the limitations period, the
complaint is timely when it is filed within [the
limitations period, starting at] the last asserted
occurrence of that practice.” Id. at 380-81.

113a
The case before us—if the City is able to identify
FHA violations within the limitations period—is on
all fours with Havens. The City has alleged “not just
one incident . . . but an unlawful practice that
continues into the limitations period.” Id. at 381. The
City alleges that the Bank has engaged in a
longstanding practice of discriminatory lending in
which it extends loans to minority borrowers only on
more unfavorable terms than those offered to white
borrowers. The predatory qualities of the loans have
taken slightly different forms over time (e.g., higher
interest rates, undisclosed back-end premiums,
higher fees, etc.), but the essential discriminatory
practice has remained the same: predatory lending
targeted at minorities in the City of Miami. The fact
that the burdensome terms have not remained
perfectly uniform does not make the allegedly
unlawful practice any less “continuing.” The various
instances of discriminatory lending comprise the
practice, which continues into the limitations period.
At least at the pleading stage, this is enough to
plausibly invoke the continuing violation doctrine. See
City of Los Angeles, 2014 WL 6453808, at *7 (“The
City’s allegations of discrimination under the FHA
relate to Chase’s lending practices overall, not a
specific type of loan issued. The Court finds the
allegations sufficient to apply the continuing
violations doctrine.”); City of Los Angeles v. Citigroup
Inc., 24 F. Supp. 3d 940, 952 (C.D. Cal. 2014) (“In this
case, [the plaintiff] is alleging a pattern and practice
of ‘discriminatory lending’ on the part of Defendants
over at least an eight-year period. While the types of
loans that Defendants allegedly issued to minority
borrowers may have changed during the relevant time
period, [the plaintiff] alleges that they remained high-

114a
risk and discriminatory. This is sufficient to apply the
continuing-violation doctrine.”); accord City of Los
Angeles v. Bank of Am. Corp., No. CV 13-9046 PA
(AGRx), 2014 WL 2770083, at *10 (C.D. Cal. June 12,
2014); City of Los Angeles v. Wells Fargo & Co., 22 F.
Supp. 3d 1047, 105859 (C.D. Cal. 2014); see also
Hargraves v. Capital City Mortg. Corp., 140 F. Supp.
2d 7, 17-19 (D.D.C. 2000) (applying the continuing
violation doctrine to an FHA claim challenging a
mortgage company’s practice of predatory and
discriminatory lending, where that practice took
various forms, including charging exorbitant interest
rates, fraudulent fees and penalties, inadequate risk
assessment, and elevated rates of foreclosure).
4. Remand
Resolving a plaintiffs motion to amend is
“committed to the sound discretion of the district
court,” but that discretion “is strictly circumscribed”
by Rule 15(a)(2) of the Federal Rules of Civil
Procedure, which instructs that leave to amend
should be “freely give[n] when justice so requires.”
Gramegna v. Johnson, 846 F.2d 675, 678 (11th Cir.
1988); see also Shipner v. E. Air Lines, Inc., 868 F.2d
401, 407 (11th Cir. 1989) (“[U]nless a substantial
reason exists to deny leave to amend, the discretion of
the district court is not broad enough to permit
denial”).
As we have explained, we find that the City is
within the FHA’s zone of interests and has sufficiently
alleged proximate causation between its injury and
the Bank’s conduct. The district court’s refusal to
allow the City to amend, and its conclusion that any
amended complaint would be futile, was legal error

115a
and therefore an abuse of discretion. On remand, the
City should be granted leave to amend its complaint.
We also note that while this appeal was pending, the
Supreme Court handed down a decision that may
materially affect the resolution of this case. In Texas
Department of Housing & Community Affairs v.
Inclusive Communities Project, Inc., 135 S. Ct. 2507
(2015), a non-profit organization brought a Fair
Housing Act claim against the Texas Department of
Housing and Community Affairs, alleging that the
Department’s allocation of low-income housing tax
credits caused racial segregation by “granting too
many credits for housing in predominantly black
inner-city areas and too few in predominantly white
suburban neighborhoods.” Id. at 2514. The claim was
brought on a disparate-impact theory, alleging not
that the Department’s practice was driven by a
discriminatory intent, but rather that it had a
“‘disproportionately adverse effect on minorities’ and
[was] otherwise unjustified by a legitimate rationale.”
Id. at 2513 (quoting Ricci v. DeStefano, 557 U.S. 557,
577 (2009)). The question before the Court was
whether disparate-impact claims are cognizable
under the FHA. The Court held that they are. Id. at
2525.
However, in dicta, the Court announced the
“proper[] limit[s]” on disparate impact liability under
the FHA, needed both to avoid serious constitutional
issues and to protect potential defendants from
abusive disparate-impact claims. Id. at 2522; see id.
at 2522-24. Specifically, the Court noted that
defendants must be allowed to “explain the valid
interest served by their [challenged] policies,” id. at
2522, and that courts should insist on a “robust

116a
causality requirement” at the “prima facie stage”
linking the defendant’s conduct to the racial disparity,
id. at 2523. The Court emphasized that disparateimpact claims must be aimed at “removing artificial,
arbitrary, and unnecessary barriers,” rather than
“displac[ing] valid governmental and private
priorities.” Id. at 2524 (quoting Griggs v. Duke Power
Co., 401 U.S. 424, 431 (1971)) (alterations adopted).
Any newly pled complaint must take into account the
evolving law on disparate impact in the FHA context.
Without the new pleadings before us, we have no
occasion to pass judgment on how Inclusive
Communities will impact this case, but we flag the
issue both for the parties and for the district court on
remand.
C. Unjust Enrichment Claim
As for the City’s state law unjust enrichment claim,
we agree with the district court and affirm its ruling.
In deciding this claim, we are obliged to apply
Florida’s substantive law. See Erie R.R. Co. v.
Tompkins, 304 U.S. 64, 78 (1938). Where the highest
state court has not provided the definitive answer to
a question of state law, “we must predict how the
highest court would decide this case,” looking to the
decisions of the lower state courts for guidance. See
Molinos Valle Del Cibao, C. por A. v. Lama, 633 F.3d
1330, 1348 (11th Cir. 2011). Under Florida law, the
doctrine of unjust enrichment (sometimes called a
“contract implied in law,” “quasi-contract,” and
various other terms) governs the situation in which
one party has conferred a valuable benefit on another
in the absence of a contract, but “under circumstances
that ma[ke] it unjust to retain it without giving
compensation.” See Magwood v. Tate, 835 So. 2d 1241,

117a
1243 (Fla. Dist. Ct. App. 2003) (quoting Commerce
P’ship 8098 Ltd. P’ship v. Equity Contracting Co., 695
So. 2d 383, 386 (Fla. Dist. Ct. App. 1997)). There are
three elements of an unjust enrichment claim under
Florida law: first, the plaintiff has conferred a benefit
on the defendant; second, the defendant voluntarily
accepted and retained that benefit; and, finally, the
circumstances are such that it would be inequitable
for the defendants to retain the benefit without paying
for it. Virgilio v. Ryland Grp., Inc., 680 F.3d 1329,
1337 (11th Cir. 2012) (citing Fla. Power Corp. v. City
of Winter Park, 887 So. 2d 1237, 1241 n.4 (Fla. 2004)).
As for the first element, the benefit must be conferred
directly from the plaintiff to the defendant. Century
Senior Servs. v. Consumer Health Ben. Ass’n, Inc.,
770 F. Supp. 2d 1261, 1267 (S.D. Fla. 2011) (citing
Peoples Nat’l Bank of Commerce v. First Union Nat’l
Bank of Fla., N.A., 667 So. 2d 876, 879 (Fla. Dist. Ct.
App. 1996)). “At the core of the law of restitution and
unjust enrichment is the principle that a party who
has been unjustly enriched at the expense of another
is required to make restitution to the other.” Gonzalez
v. Eagle Ins. Co., 948 So. 2d 1, 3 (Fla. Dist. Ct. App.
2006).
The City alleged that the Bank “received and
utilized benefits derived from a variety of municipal
services, including police and fire protection, as well
as zoning ordinances, tax laws, and other laws and
services that have enabled [the Bank] to operate and
profit within the City of Miami.” Complaint at 54. It
went on to allege that “[a]s a direct and proximate
result of [the Bank’s] predatory lending practices, [the
Bank] ha[s] been enriched at the City’s expense” by
utilizing those benefits while denying the City tax
revenue and costing it in additional municipal

118a
expenditures required to address foreclosed
properties. The Bank “failed to remit those wrongfully
obtained benefits,” the complaint claimed. The City
also alleged that it had paid for the Bank’s
externalities (the costs of the harm caused by the
discriminatory lending patterns), that the Bank was
aware of this benefit, and that its retention would be
unjust. Id. at 55.
The district court dismissed the claim without
prejudice, in part because the City had not alleged
that it had conferred a direct benefit onto the Bank to
which they were not otherwise legally entitled, as
required under Florida law. As for the denied tax
revenues, the district court noted that such a denial is
not a direct benefit conferred on the Bank by the City.
As for the municipal services, the district court found
that they did not create an unjust enrichment claim
for two reasons. First, the municipal services were not
benefits conferred directly on the Bank—the services
were provided to the residents of Miami, not to the
Bank, and any benefit the Bank received was merely
derivative. Second, the City had not adequately
alleged that the Bank, as a Miami property owner,
was not legally entitled to those services. We agree.
The City maintains that its complaint states a cause
of action under Florida law, but it has not cited to a
single Florida case. The City relies primarily on White
v. Smith & Wesson Corp., 97 F. Supp. 2d 816 (N.D.
Ohio 2000), where the mayor and City of Cleveland
sued various gun manufacturers and dealers alleging,
inter alia, unjust enrichment on the ground that the
city had conferred a benefit on the defendants by
paying for their “externalities”: “the costs of the harm
caused by Defendants’ failure to incorporate safety

119a
devices into their handguns and negligent marketing
practices.” Id. at 829. The Ohio law of unjust
enrichment essentially tracks Florida law. See id. (“In
order to maintain a cause of action for unjust
enrichment under Ohio law, a plaintiff must allege:
(1) a benefit conferred by a plaintiff upon a defendant;
(2) knowledge by the defendant of the benefit; and, (3)
retention of the benefit by the defendant under
circumstances where it would be unjust to do so
without payment.”). Without citing to a single Ohio
state court case in its unjust enrichment analysis, the
district court determined that plaintiffs had stated
such a claim under Ohio law.
The City cites only two other cases, neither of which
were from Florida. See City of Boston v. Smith &
Wesson Corp., No. 199902590, 2000 WL 1473568, at
*18 (Mass. Super. Ct. July 13, 2000) (allowing an
unjust enrichment claim against gun manufacturers
under Massachusetts law on the same reasoning as
was employed in White); City of New York v. Lead
Indus. Ass’n, Inc., 190 A.D.2d 173, 177 (N.Y. App. Div.
1993) (permitting the City of New York’s claim for
restitution against manufacturers of lead-based paint
for the City’s expenditures in abating the hazard of
lead-based paint and treating the victims). None of
these cases, obviously, governs our application of
Florida law.
We have not found any case—and the City has
provided none—supporting an unjust enrichment
claim of this type under Florida law. First, the City
alleges that the Bank must pay the City for the tax
revenue the City has been denied due to the Bank’s
unlawful lending practices. Although a deprivation of
tax revenue may create an injury in fact under Article

120a
III, such an injury does not fit within the unjust
enrichment framework. The missing tax revenue is in
no way a benefit that the City has conferred on the
Bank. The City has provided no explanation for this
incongruity on appeal.
Instead, the City focuses on the municipal
services—including police, firefighters, zoning
ordinances, and tax laws—that it claims it would not
have had to provide if not for the Bank’s predatory
lending. But this version of the unjust enrichment
claim fares no better, for three independent reasons.
For starters, it’s not clear that municipal
expenditures are among the types of benefits that can
be recovered by unjust enrichment under Florida law.
We have found no Florida case in which a
municipality recovered its expenditures on an unjust
enrichment theory. Indeed, at least one case suggests
that a municipality cannot recover such expenditures
without express statutory authorization, which the
City has never alleged. See Penelas v. Arms Tech.,
Inc., No. 99-1941 CA-06, 1999 WL 1204353, at *2 (Fla.
Cir. Ct. Dec. 13, 1999) (“[T]he County’s claim for
damages, based on the costs to provide 911, police, fire
and
emergency
services
effectively
seeks
reimbursement for expenditures made in its
performance of governmental functions. Costs of such
services are not, without express legislative
authorization,
recoverable
by
governmental
entities.”), aff’d, 778 So. 2d 1042 (Fla. Dist. Ct. App.
2001).
Moreover, the benefits provided by these municipal
services were not directly conferred on the Bank, as is
required for an unjust enrichment claim under
Florida law. See, e.g., Virgilio, 680 F.3d at 1337

121a
(affirming the dismissal of an unjust enrichment
claim under Florida law because the plaintiffs only
“‘indirectly’ conferred a benefit on Defendants”);
Extraordinary Title Servs. v. Fla. Power & Light Co.,
1 So. 3d 400, 404 (Fla. Dist. Ct. App. 2009) (affirming
the dismissal of an unjust enrichment claim because
the plaintiff “ha[d] not conferred a direct benefit” on
the defendant). As the district court correctly noted,
municipal police and fire services directly benefit the
residents and owners of homes in the City of Miami,
not the financial institution that holds the loans on
those properties. And tax laws and zoning ordinances
are quite clearly not direct benefits conferred on Bank
of America: they are laws of general applicability that,
indeed, apply to all residents of Miami. No Florida
caselaw suggests that these benefits are direct enough
to sustain an unjust enrichment claim.
Finally, the City has failed to allege facts to show
that circumstances are such that it would be
inequitable for the Bank to retain such benefits
without compensation. Even assuming that these
municipal services did confer a cognizable benefit on
the Bank as the owner of foreclosed property, the City
does not challenge the district court’s determination
that the Bank was legally entitled to those services.
Cf. State Farm Fire & Cas. Co. v. Silver Star Health
& Rehab, 739 F.3d 579, 584 (11th Cir. 2013) (“If an
entity accepts and retains benefits that it is not legally
entitled to receive in the first place, Florida law
provides for a claim of unjust enrichment.”). The City
has provided no arguments and cited no Florida
caselaw explaining why the Bank would not be
entitled to police and fire protection like any other
property owner.

122a
The Florida Supreme Court has not ruled on
whether an unjust enrichment claim exists under
these circumstances. But given the complete lack of
supporting Florida caselaw, we decline to invent a
novel basis for unjust enrichment under Florida law
today. Accordingly, we affirm the district court’s order
dismissing the City’s unjust enrichment claim.
IV. Conclusion
Nothing we have said in this opinion should be
taken to pass judgment on the ultimate success of the
City’s claims. We hold only that the City has
constitutional standing to bring its FHA claims, and
that the district court erred in dismissing those claims
with prejudice on the basis of a zone of interests
analysis, a proximate cause analysis, or the
inapplicability of the continuing violation doctrine.
The judgment of the district court is AFFIRMED in
part, REVERSED in part, and REMANDED for
further proceedings consistent with this opinion.

123a
APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 13-24506-CIV-DIMITROULEAS
CITY OF MIAMI, a Florida municipal
corporation,
Plaintiff,
vs.
BANK OF AMERICA CORPORATION;
BANK OF AMERICA, N.A.;
COUNTRYWIDE FINANCIAL
CORPORATION; COUNTRYWIDE
HOME LOANS; and COUNTRYWIDE
BANK, FSB,
Defendants.
/
ORDER GRANTING MOTION TO DISMISS
THIS CAUSE is before the Court upon a Motion to
Dismiss (the “Motion”) [DE 33], filed herein on
February, 28, 2014 by Defendants Bank of America
Corporation (“BoA”), Bank of America, N.A.,
Countrywide Financial Corporation, Countrywide
Home Loans, and Countrywide Bank FSB
(“Defendants”). Plaintiff City of Miami (“Plaintiff” or
“City”) has filed an Opposition [DE 37]. Both parties
also filed supplemental briefing. The Court has
carefully considered the Motion [DE 33], the Plaintiffs
Opposition [DE 37], the Defendants’ Reply [DE 41],
and the Plaintiffs Surreply [DE 48], and the oral

124a
arguments made at the June 20, 2014, hearing. The
Court is otherwise fully advised in the premises.
I. BACKGROUND
This suit is brought pursuant to the Fair Housing
Act of 1968 (“FHA”), as amended, 42 U.S.C. § 3601, et
seq., to seek redress for injuries allegedly caused by
Defendants’ pattern or practice of illegal and
discriminatory mortgage lending. Comp. [DE 1] ¶ 2.
Specifically, Plaintiff seeks injunctive relief and
damages for financial injuries due to foreclosures on
Defendants’ loans in minority neighborhoods and to
minority borrowers that are the result of Defendants’
discriminatory lending practices, including both
intentional discrimination and disparate impact
discrimination. ¶ 2. Plaintiff alleges that beginning in
2004, Defendants began to flood historically underserved minority communities with high cost and other
“predatory” loans, allegedly constituting “reverse
redlining.” ¶ 7.
Plaintiff alleges that Defendants engaged in both
redlining and reverse redlining. ¶ 10. Plaintiff further
alleges that Defendants’ pattern and practice of
reverse redlining has caused an excessive and
disproportionately high number of foreclosures on
Defendants’ loans in the minority neighborhoods of
Miami. ¶ 11. Plaintiff also alleges that Defendants’
practice of traditional redlining has also caused an
excessive and disproportionately high number of
foreclosures on Defendants’ loans in the minority
neighborhoods of Miami. ¶ 12. The Complaint alleges
that, since 2004, Defendants have engaged in a
continuing and unbroken pattern and practice of
mortgage discrimination in Miami that still exists
today. ¶ 10.

125a
The Complaint further alleges that Defendants
would have comparable foreclosure rates in minority
and white communities if they had properly and
uniformly applied underwriting practices in both
areas. ¶ 13. The Complaint alleges that Defendants’
practice of failing to underwrite minority borrowers’
applications properly, and of putting these borrowers
into loans which: (1) have more onerous terms than
loans given to similarly situated white borrowers; and
(2) the borrowers cannot afford, leads to foreclosures.
¶ 13.
Plaintiff’s Complaint includes data and statistical
analysis, as well as statements from Confidential
Witnesses to support its claims. For example, a
regression analysis that allegedly controls for
creditworthiness and other factors is offered to show
that an African-American BoA borrower was 1.581
times more likely to receive a predatory loan than a
white borrower, and a Latino borrower was 2.807
times more likely to receive such a loan. ¶ 15. Plaintiff
alleges that Defendants have intentionally targeted
predatory practices at African-American and Latino
neighborhoods and residents by targeting these
neighborhoods, without regard for credit history, for
high-cost loans, for increased interest rates, points,
and fees, for disadvantageous loan terms, and for
unfair and deceptive lending practices in connection
with marketing and underwriting mortgage loans. ¶
163. Further, the Complaint alleges that the
discretionary lending policies and practice of
targeting minorities, who received predatory loan
terms regardless of creditworthiness, have caused and
continue to cause foreclosures in Miami. ¶ 164.

126a
Plaintiff further alleges that the discriminatory
practices and resulting foreclosures in the minority
neighborhoods have inflicted significant, direct, and
continuing financial harm to the City. ¶ 19. Plaintiff
seeks damages based on reduced property tax
revenues based on: (a) the decreased value of the
vacant properties themselves; and (b) the decreased
value of properties surrounding the vacant properties.
¶ 20. Plaintiff also seeks damages based on the
expenditures of municipal services that have been and
will be required to remedy the blight and unsafe and
dangerous conditions which exist at vacant properties
that were foreclosed as a result of BoA’s illegal lending
practices. ¶ 20.
Defendants now move to dismiss the Complaint on
the grounds that (1) Plaintiff lacks standing1; (2)
Plaintiffs FHA claim is time-barred by the statute of
limitations; and (3) the Complaint fails to state a
claim upon which relief can be granted. For the
reasons set forth below, the Court grants Defendants’
Motion to Dismiss.
II. LEGAL STANDARD
As a threshold matter, the Court must determine if
jurisdiction exists before proceeding to the merits of
the case. Sinochem Int ‘l Co. v. Malay Int ‘l Shipping
Corp, 549 U.S 422, 431 (2007) (“Without jurisdiction
the court cannot proceed at all in any cause; it may
not assume jurisdiction for the purposes of deciding
the merits of the case.” (internal quotations omitted)).
1 In Defendants’ Reply and Plaintiff’s Surreply, the parties
briefed the “zone of interests” issue.

127a
“The burden for establishing federal subject matter
jurisdiction rests with the party bringing the claim.”
Sweet Pea Marine, Ltd. v. APJMarine, Inc., 411 F.3d
1242, 1247 (11th Cir. 2005). Attacks on subject matter
jurisdiction under Rule 12(b)(1) are either facial or
factual. Garcia v. Copenhaver, Bell & Assocs., M.D.’s,
P.A., 104 F. 3d 1256, 1260 (11th Cir. 1997). “Facial
attacks on the complaint require the court merely to
look and see if the plaintiff has sufficiently alleged a
basis of subject matter jurisdiction, and the
allegations in his complaint are taken as true for the
purposes of the motion.” Garcia, F. 3d at 1260
(internal quotations omitted). “Factual attacks, on the
other hand, challenge the existence of subject matter
jurisdiction in fact, irrespective of the pleadings, and
matters outside the pleadings, such as testimony and
affidavits, are considered.” Garcia, F. 3d at 1261
(internal quotations omitted). However, “[w]here the
jurisdictional issues are intertwined with the
substantive merits, the jurisdictional issues should be
referred to the merits.” Eaton v. Dorchester Dev., Inc.,
692 F. 2d 727, 733 (11th Cir. 1982). Thus, when “an
attack on subject matter jurisdiction also implicates
an element of the cause of action,” the court should
apply a Rule 12(b)(6) standard. Garcia, 104 F. 3d at
1261.
Regardless of the standard, “federal courts cannot
exercise jurisdiction over cases where the parties lack
standing.” Fla. Wildlife Fed’n, Inc. v. S. Fla. Water
Mgmt. Dist., 647 F. 3d 1296, 1302 (11th Cir. 2011).
This principle exists because there is “a constitutional
limitation of federal-court jurisdiction to actual cases
or controversies” and “[o]ne element of the case-orcontroversy requirement is that plaintiffs must
establish that they have standing to sue.” Clapper v.

128a
Amnesty Intern. USA, 133 S. Ct. 1138, 1146 (2013)
(internal citations and quotations omitted). To
establish standing, “a plaintiff must show (1) it has
suffered an ‘injury in fact’ that is (a) concrete and
particularized and (b) actual or imminent, not
conjectural or hypothetical; (2) the injury is fairly
traceable to the challenged action of the defendant;
and (3) it is likely, as opposed to merely speculative,
that the injury will be redressed by a favorable
decision.” Fla. Wildlife Fed’n, Inc., 647 F. 3d at 1302
(citing Friends of the Earth, Inc. v. Laidlaw Envtl.
Servs. (TOC), Inc., 528 U.S. 167, 180-181 (2000)). “If
at any point in the litigation the plaintiff ceases to
meet all three requirements for constitutional
standing, the case no longer presents a live case or
controversy, and the federal court must dismiss the
case for lack of subject matter jurisdiction.” Id.
Where a plaintiff brings a cause of action pursuant
to a federal statute, the plaintiff must establish both
Article III standing and statutory standing. See, e.g.,
United States v. $38,000.00 in U.S. Currency, 816 F.2d
1538, 1544 (11th Cir. 1987). Article III of the United
States Constitution requires that a litigant have
standing to invoke the power of a federal court. See
supra. In contrast, statutory standing requires the
plaintiff to establish that he falls within the class of
plaintiffs whom Congress has authorized to sue under
that statute. Lexmark Intern., Inc. v. Static Control
Components, Inc., 134 S. Ct. 1377, 1387 (2014).

129a
III. DISCUSSION
1. Count I: Violations of the Federal Fair
Housing Act
A. Standing under the Fair Housing Act
In order to have standing for any statutory cause of
action, the zone of interests and proximate causation
requirements must be met. Lexmark, 134 S. Ct. at
1391. Upon application of the appropriate 12(b)(6)
standard, this Court finds that neither requirement is
met in this case.
i. Zone of Interests
The Supreme Court has made clear that the zone of
interests test should be applied to any cause of action
being brought under a statute. Courts are to “presume
that a statutory cause of action extends only to
plaintiffs whose interests ‘fall within the zone of
interests protected by the law invoked.’” Lexmark, 134
S. Ct. at 1388 (citing Allen v. Wright, 468 U.S. 737,
751 (1984)). The Supreme Court has stated that the
zone of interests test “applies to all statutorily created
causes of action; that it is a ‘requirement of general
application’; and that Congress is presumed to
‘legist[e] against the background of the zone-ofinterests limitation.” Lexmark, 134 S. Ct. at 1388
(citing Bennett v. Spear, 520 U.S. 154, 163 (1977); see
also Holmes v. Securities Investor Protection
Corporation, 503 U.S. 258, 287-288 (Scalia, J.,
concurring in judgment)). The test bars a plaintiffs
claims when his “‘interests are so marginally related
to or inconsistent with the purposes implicit in the
statute that it cannot reasonably be assumed that’
Congress authorized that plaintiff to sue.” Lexmark,
134 S. Ct. at 1389 (citing Match-E-Be-Nash-She-Wish

130a
Band of Pottawatomi Indians v. Patchak, 132 S.Ct.
2199, 2210 (2012)).
The Fair Housing Act § 812 provides that after the
expiration of a period for administrative remedies,
the person aggrieved may . . . commence a civil
action in any appropriate United States district
court, against the respondent named in the
complaint, to enforce the rights granted or
protected by this subchapter, insofar as such
rights relate to the subject of the complaint.
In Gladstone Realtors v. Village of Bellwood, 441 U.S.
91, 108-09 (1979), the Supreme Court held that § 812
provides “parallel remedies to precisely the same
prospective plaintiffs” as does § 810.
This Court’s2 determination of whether Plaintiff has
standing to sue under the FHA is guided by the
The district court in City of Los Angeles v. Bank of America
Corp., 2014 WL 2770083 (C.D. Cal. Jun. 12, 2014) declined to
expand the zone of interests requirement into the analysis of
standing under the FHA. See id. at *8 (“To the extent that
Defendants argue that post- Thompson and post- Lexmark, a
plaintiff needs to meet a separate ‘zone of interests’ requirement
in order to have standing to bring a FHA claim, the Supreme
Court has not yet applied that requirement to the FHA. Although
the Supreme Court may explicitly require a separate ‘zone of
interests’ statutory standing analysis under the FHA if
presented with the issue in the future, this Court declines to do
so here.”). Unlike the district court in City of Los Angeles, this
Court is in the Eleventh Circuit so it is bound by the Eleventh
Circuit’s opinion in Nasser v. City of Homewood, 671 F. 2d 432
(11th Cir. 1982), which does apply this requirement to the FHA.
See infra. If it turns out that the zone of interests for purposes of
standing under the FHA is as broad as Article III standing, this
court’s ruling may very well be different as to the zone of
interests analysis, but that would not change the deficiencies in
2

131a
Eleventh Circuit’s opinion in Nasser v. City of
Homewood, 671 F. 2d 432 (11th Cir. 1982). In that
case, the Eleventh Circuit interpreted the FHA’s zone
of interests in light of the Supreme Court’s decisions
regarding the topic. In Nasser, the plaintiffs brought
a claim under the FHA and claimed that they were
injured by the diminution in value of their property as
a result of the defendants’ conduct. Nasser, 671 F. 2d
at 436.
In deciding Nasser, the Eleventh Circuit considered
Trafficante v. Metropolitan Life Ins. Co., 409 U.S. 205
(1972). In that case, the Supreme Court found that the
plaintiffs, a white and a black resident of an
apartment complex who alleged that they had lost the
social and professional benefits of living in an
integrated community, had standing and were within
the zone of interests protected by the FHA. The
Nasser decision noted that, in Trafficante,
The reference to ‘the person aggrieved’ showed ‘a
congressional intention to define standing as
broadly as is permitted by Article III of the
Constitution’ . . . insofar as tenants of the same
housing unit that is charged with discrimination
are concerned.
Nasser, 671 F. 2d at 437 (citing Trafficante 409 U.S.
at 209).
The Eleventh Circuit also considered Gladstone
Realtors v. Village of Bellwood, 441 U.S. 91 (1979). In
Nasser, the Eleventh Circuit explained that the
Gladstone decision “said that a showing of injury to
Plaintiff’s allegations of proximate cause, as discussed in the
following section.

132a
the plaintiffs’ community as in Trafficante coupled
with economic injury to the value of the plaintiffs’
homes was sufficient to establish standing under the
Fair Housing Act.” Nasser, 671 F. 2d at 437 (citing
Gladstone, 441 U.S. at 114-15). However, the
Eleventh Circuit continued:
There is no indication that the Court intended to
extend standing, beyond the facts before it, to
plaintiffs who show no more than an economic
interest which is not somehow affected by a racial
interest. There is no suggestion, either in the Act
or its legislative history, that Congress intended
to entrust the enforcement of the Fair Housing
Act to such plaintiffs.
Nasser, 671 F. 2d at 437. Accordingly, the Eleventh
Circuit held that the property owner plaintiffs lacked
standing under the FHA: “The policy behind the Fair
Housing Act emphasizes the prevention of
discrimination in the provision of housing on the basis
of ‘race, color, religion, sex, or national origin.’ . . .
Simply stated, the plaintiffs offered no evidence that
they possess ‘rights granted’ by the Fair Housing Act.
Their interest in value of the property in no way
implicates values protected by the Act.” Nasser, 671 F.
2d at 437.
In this case, the Plaintiff alleges merely economic
injuries. [DE 1] ¶¶ 133-159. Plaintiff prays for relief
for economic injury from the reduction in tax revenue
from the decrease in property values. ¶¶ 133-150. The
Plaintiff also prays for relief for injury caused by
direct expenditures that the City spent due to the
foreclosures. ¶¶ 151-159. Neither of these economic
injuries is “somehow affected by a racial interest.” In
fact, the injury alleged here is very similar to the

133a
injury decided to be outside of the FHA’s zone of
interests in Nasser: an economic loss from a decrease
in property values.
The policy and purpose of the Fair Housing Act is to
“provide, within constitutional limitations, for fair
housing throughout the United States.” 42 U.S.C.A.
§ 3601. The City’s complaints of decreased tax
revenue and increased municipal services are “so
marginally related to . . . the purposes implicit in the
statute that it cannot reasonably be assumed that
Congress intended to permit suit.” Thompson v. N.
Am. Stainless, LP, 131 S. Ct. 863, 870 (2011).
Therefore, this Court finds that the City of Miami’s
claims fall outside of the zone of interests protected by
the FHA; Plaintiff lacks standing to sue under the
statute.
ii. Proximate Causation
Courts are also generally to “presume that a
statutory cause of action is limited to plaintiffs whose
injuries are proximately caused by violations of the
statute.” Lexmark, 134 S. Ct. at 1390. “The judicial
remedy cannot encompass every conceivable harm
that can be traced to alleged wrongdoing.” Associated
Gen. Contractors of Cal., Inc. v. Carpenters, 459 U.S.
519, 536 (1983). “Proximate-cause analysis is
controlled by the nature of the statutory cause of
action. The question it presents is whether the harm
alleged has a sufficiently close connection to the
conduct the statute prohibits.” Lexmark, 134 S. Ct. at
1390. As the Supreme Court explained, “the
proximate-cause requirement generally bars suits for
alleged harm that is ‘too remote’ from the defendant’s
unlawful conduct. That is ordinarily the case if the
harm is purely derivative of ‘misfortunes visited upon

134a
a third person by the defendant’s acts.’” Id. (citing
Holmes v. Securities Investor Protection Corporation,
503 U.S. 258, 268-269 (1992)). A plaintiff lacks
standing where a causal chain is too attenuated and
relies on the conduct of third parties. See Wehunt v.
Ledbetter, 875 F. 2d 1558, 1566-67 (11th Cir. 1989).
In this case, upon consideration of the allegations of
the City’s Complaint, the Court holds that proximate
causation for standing is not adequately alleged. In
order to establish proximate causation, Plaintiff must
demonstrate that the Defendants’ alleged redlining
and reverse redlining caused the foreclosures to occur.
Here, Plaintiff does not allege facts that isolate
Defendants’ practices as the cause of any alleged
lending disparity. Against the backdrop of a historic
drop in home prices and a global recession, the
decisions and actions of third parties, such as loan
services, government entities, competing sellers, and
uninterested buyers, thwart the City’s ability to trace
a foreclosure to Defendants’ activity. The independent
actions of this multitude of non-parties break the
causal chain. See Fla. Family Policy Council v.
Freeman, 561 F. 3d 1246, 1253 (11th Cir. 2009)
(casual chain cannot rely on “independent action of
some third party not before the court”).
Even if this first step of proximate causation were
shown, Plaintiff would then have to complete the
causal connection in its claim by demonstrating that
the foreclosures caused the City to be harmed.
Instead, the City offers vague and generalized
allegations of harm (Comp. ¶¶ 53, 61, 75, 103, 109),
statistics and studies that are either not limited to the
City of Miami (Comp. ¶¶ 78 (relying on data from
Chicago); 84-85 (relying on nationwide data); 16, 37-

135a
41, 8081, 87-88, 110-12), not limited to Defendants’
practices (Comp. ¶¶ 11, 19, 22, 80-85, 87-88, 110-11),
or do not control for relevant credit factors that
undoubtedly affect lending practices (Comp. ¶¶ 11922; 11, 107-08, 124-25). Although statistical
correlations are asserted, they are insufficient to
support a causation claim. Moreover, Defendants are
not responsible for the actions of intervening actors
such as squatters, vandals or criminals that damaged
foreclosed properties causing the City’s municipal
costs to rise. Plaintiffs claim is entirely derivative,
emphasizing how inextricably linked the possible
effect of reverse redlining is with other economic
forces acting upon the market.
B. Statute of Limitations
While the Court is dismissing this action for lack of
standing, see supra, it also holds that the Complaint
is subject to dismissal on statute of limitations
grounds.
A limitations clock begins to run “as soon as facts
supportive of the cause of action are or should be
apparent to a reasonably prudent person similarly
situated.” Telesca v. Vill. of Kings Creek Condo. Ass’n,
390 F. App’x 877, 882 (11th Cir. 2010). For purposes
of the FHA, “[a]n aggrieved person may commence a
civil action in an appropriate United States district
court or State court not later than 2 years after the
occurrence
or
termination
of
an
alleged
discriminatory . . . housing practice . . . to obtain
appropriate relief with respect to such discriminatory
housing practice . . . .” 42 U.S.C. § 3613(a)(1)(A). An
FHA claim for extending a discriminatory loan begins
to run from the date of the loan closing. Id.; Phan v.
Accredited Home Lenders Holding Co., 2010 WL

136a
1268013, at *3 (M.D. Fla. Mar. 20, 2010). This suit
was filed December 13, 2013. See [DE 1]. However, of
the ten specific loans securing the identified
properties alleged in the Complaint, Plaintiff fails to
allege that any of those loans were made later than
2008. Comp. ¶ 160. There are no allegations of specific
loans in the Complaint that are alleged to have closed
in the two years leading up to the date the suit was
filed. Comp. ¶ 160.
While Plaintiff argues that their claim is not timebarred pursuant to the continuing violation doctrine,
Plaintiff has failed to allege sufficient facts to support
its conclusory allegation that the specific
discriminatory loan practices complained of continued
into the statutory period. The Complaint contains no
allegations of any loan that was closed within the
relevant limitations period. Moreover, the Complaint
alleges several different types of discriminatory
actions or practices in which Defendants engaged,
such as redlining and reverse redlining. However, the
City has not alleged facts evidencing that each type of
alleged discriminatory practice continued into the
limitations period.3 Rather the Complaint merely
alleges a generalized policy of discrimination, which is
insufficient to state a FHA claim.
2. Count II: Unjust Enrichment
When one party has conferred a valuable benefit on
another in the absence of a contract, either express or
3 The City does not allege a uniform practice of continuing
conduct—that is, a particular form of discrimination by a single
actor—that was the type of “discrete unlawful practice” that
“continued” and so could be a basis for application of the
continuing violations doctrine. Smithers v. Wynne, 319 F. App’x
755, 757 (11th Cir. 2008).

137a
implied, the doctrine of unjust enrichment creates a
fictional contract, sometimes called a quasi-contract
or contract implied in law, to the extent necessary to
avoid
clear
injustice.
Adventist
Health
System/Sunbelt Inc. v. Medical Sav. Ins. Co., 2004
WL 6225293 at *6 (M.D. Fla. Mar. 8, 2004). Under
Florida Law, a claim for unjust enrichment has three
elements: (1) the plaintiff has conferred a benefit on
the defendant; (2) the defendant voluntarily accepted
and retained that benefit; and (3) the circumstances
are such that it would be inequitable for the
defendants to retain it without paying the value
thereof. Virgilio v. Ryland Group, Inc., 680 F. 3d 1329,
1337 (11th Cir. 2010) (citing Fla. Power Corp. v. City
of Winter Park, 887 So. 2d 1237, 1241 n. 4 (Fla. 2004)).
The benefit must be conferred directly. Century Senior
Serv. v. Con. Health Benefit Ass, 770 F. Supp. 2d 1261,
1267 (S.D. Fla. 2011). Moreover, the benefit accepted
by defendants must be one that defendants were “not
legally entitled to receive in the first place.” State
Farm Fire Cas. Co. v. Silver Star Health and Rehab,
739 F. 3d 579, 584 (11th Cir. 2013). Finally, the scope
of damages is assessed in terms of the value of the
benefit conferred upon the recipient, not the cost to
the provider of producing that benefit and the fair
market value of it. Tooltrend, Inc. v. CMT Utensili,
SRL, 198 F.3d 802, 807 n. 5 (11th Cir. 1999).
Here, Plaintiff does not allege sufficient facts to
support its unjust enrichment claim. As a preliminary
matter, Plaintiffs unjust enrichment claim fails due to
the same insufficient causal allegations that were
fatal to Plaintiffs FHA claim. Plaintiff alleges that the
Defendants were enriched at the City’s expense by
utilizing benefits conferred by the City “[a]s a direct
and proximate result of Defendants’ predatory

138a
lending practices.” Comp. ¶ 174. However, Plaintiff
fails to adequately allege the requisite causal
connection between the terms of Defendants’ loans
and the City’s decreased tax revenue and increased
municipal services. See supra.
Moreover, the City does not allege that it conferred
a direct benefit onto Defendants to which they were
not otherwise legally entitled. First, Plaintiff fails to
allege that the City conferred any direct benefit on the
Defendants. “[Den]ying the City revenues it had
properly expected through property and other tax
payments” is certainly not a direct benefit conferred
from the City to Defendants. See Comp. ¶ 174.
Additionally, the municipal services allegedly
provided in the Complaint benefit property owners
and residents of the City of Miami. Comp. ¶ 172.
Plaintiff alleges that Defendants were aware of and
took advantage of the services and laws provided by
the City of Miami in order to further their business.
Comp. ¶ 173. However, any benefit received by
Defendants in this manner would be derivative and
insufficient for an unjust enrichment claim. Century
Senior, 770 F. Supp. 2d at 1267. Next, Plaintiff fails
to allege sufficient facts that demonstrate that the
City conferred any benefit on the Defendants to which
they were not legally entitled. Municipal services
provided by the City are benefits accruing to the
public at large. Plaintiff fails to allege facts to show
that the Defendants, to the extent that they owned
property in the City of Miami, were not also entitled
to the benefit of these municipal services. Although
Plaintiff argues that the City paid for Defendants’
externalities and this constitutes unjust enrichment,
this Court disagrees with this position. See e.g.,
Adventist Health Sys., 2004 WL 6225293 at *6 n. 8

139a
(M.D. Fla. March 8, 2004) (dismissing unjust
enrichment claim because “[e]quity has never
required compensation for positive externalities.”).
For the above reasons, this Court dismisses Plaintiffs
Count II: Unjust Enrichment.
IV. CONCLUSION
Based upon the foregoing, it is ORDERED AND
ADJUDGED as follows:
1. Defendants’ Motion to Dismiss [DE 33] is hereby
GRANTED;
2. Count I - Violation of the FHA is hereby
DISMISSED WITH PREJUDICE4;
3. Count II - Unjust enrichment is hereby
DISMISSED WITHOUT PREJUDICE.5
DONE AND ORDERED in Chambers at Ft.
Lauderdale, Broward County, Florida, this 8th day of
July, 2014.

4 While it is possible that an amendment could remedy the
statute of limitations problems the Court has identified with
Plaintiff’s Complaint, it would not remedy the Plaintiff’s lack of
standing to bring this action under the FHA.
5 While it does not appear that Plaintiff can overcome the
deficiencies in its claim for unjust enrichment, in an abundance
of caution, the Court will dismiss this count without prejudice,
with leave to amend in accordance with the analysis set forth
this Order. If Plaintiff chooses to file an amended complaint, the
deadline to do so is July 21, 2014. As currently pled, Plaintiff’s
unjust enrichment claim is pled as a supplemental jurisdiction
state law claim. The Court takes no position, at this time, as to
whether it would exercise supplemental jurisdiction over a
complaint that only contains a state law claim.

140a
s/ William P. Dimitrouleas
WILLIAM P. DIMITROULEAS
United States District Judge
Copies to: Counsel of record

141a
APPENDIX D
UNITED STATES DISTRICT COURT SOUTHERN
DISTRICT OF FLORIDA
CASE NO. 13-24506-CIV-DIMITROULEAS
CITY OF MIAMI, a Florida municipal
corporation,
Plaintiff,
vs.
BANK OF AMERICA CORPORATION;
BANK OF AMERICA, N.A.;
COUNTRYWIDE FINANCIAL
CORPORATION; COUNTRYWIDE
HOME LOANS; and COUNTRYWIDE
BANK, FSB,
Defendants.
/
ORDER DENYING MOTION FOR
RECONSIDERATION
THIS CAUSE is before the Court upon Plaintiff City
of Miami (“Plaintiff” or “City”)’s Motion for
Reconsideration and Leave to File First Amended
Complaint, filed herein on July 21, 2014. [DE 72]. The
Court has carefully considered the Motion [DE 72],
Defendants Bank of America Corporation (“BoA”),
Bank of America, N.A., Countrywide Financial
Corporation, Countrywide Home Loans, and
Countrywide Bank FSB (“Defendants”)’s Opposition
[DE 74], Plaintiff’s Reply [DE 75], and is otherwise
fully advised in the premises.

142a
On December 13, 2013, Plaintiff filed this suit
pursuant to the Fair Housing Act of 1968 (“FHA”), as
amended, 42 U.S.C. § 3601, et seq., to seek redress for
injuries allegedly caused by Defendants’ pattern or
practice of illegal and discriminatory mortgage
lending. [DE 1]. Specifically, Plaintiff sought
injunctive relief and damages for financial injuries
due to foreclosures on Defendants’ loans in minority
neighborhoods and to minority borrowers that were
the result of Defendants’ discriminatory lending
practices. Plaintiff sought damages based on reduced
property tax revenues based on: (a) the decreased
value of the vacant properties themselves; and (b) the
decreased value of properties surrounding the vacant
properties. Plaintiff also sought damages based on the
expenditures of municipal services that have been and
will be required to remedy the blight and unsafe and
dangerous conditions which exist at vacant properties
that were foreclosed as a result of Defendants’ illegal
lending practices.
Defendants moved to dismiss the Complaint on the
grounds that Plaintiff lacked standing under the
FHA, Plaintiffs FHA claim was time-barred by the
statute of limitations, and the Complaint failed to
state a claim upon which relief can be granted. After
extensive briefing and oral argument, the Court
entered an Order Granting Motion to Dismiss on July
8, 2014. See [DE 71].
Therein, the Court held that the City did not meet
the zone of interests nor the proximate causation
requirements for standing to sue under the FHA. See
Lexmark Intern., Inc. v. Static Control Components,
Inc., 134 S. Ct. 1377, 1387 (2014). In making that
ruling, the Court was guided by the Eleventh Circuit’s

143a
opinion in Nasser v. City of Homewood, 671 F. 2d 432
(11th Cir. 1982). The policy and purpose of the Fair
Housing Act is to “provide, within constitutional
limitations, for fair housing throughout the United
States.” 42 U.S.C.A. § 3601. After a thorough review
of the Complaint, the Court explained that Plaintiff
alleged merely economic injuries—Plaintiff sought
relief for economic injury from the reduction in tax
revenue from the decrease in property values and for
injury caused by direct expenditures that the City
spent due to the foreclosures. The Court held that
neither of these economic injuries is “somehow
affected by a racial interest.” Thus, the Court found
that the City of Miami’s claims fell outside of the zone
of interests protected by the FHA, as the City’s
complaints of decreased tax revenue and increased
municipal services are “so marginally related to . . .
the purposes implicit in the statute that it cannot
reasonably be assumed that Congress intended to
permit suit.” Thompson v. N. Am. Stainless, LP, 131
S. Ct. 863, 870 (2011). Additionally, the Court held
that proximate causation for standing was not
adequately alleged, as Plaintiffs allegations failed to
demonstrate that the Defendants’ alleged practices of
redlining and reverse redlining caused the
foreclosures to occur. Further, the Court noted that
the independent actions of a multitude of non-parties
-- a historic drop in home prices and a global recession,
the decisions and actions of third parties, such as loan
services, government entities, competing sellers, and
uninterested buyers—break the causal chain,
thwarting the City’s ability to trace a foreclosure to
Defendants’ activity. See Fla. Family Policy Council v.
Freeman, 561 F. 3d 1246, 1253 (11th Cir. 2009)
(casual chain cannot rely on “independent action of

144a
some third party not before the court”). Moreover, the
Court held that Plaintiffs offered vague and
generalized allegations of harm, failing to allege facts
demonstrating that the foreclosures caused the City
to be harmed. Finally, the Court held that the
Complaint was also subject to dismissal on statute of
limitations grounds, as the Complaint contained no
allegations of any loan that was closed within the
relevant limitations period. The Complaint merely
alleged a generalized policy of discrimination, failing
to allege facts evidencing that each type of alleged
discriminatory practice continued into the limitations
period. The Court dismissed Count I, violation of the
FHA, with prejudice, explaining that, while it is
possible that an amendment could remedy the statute
of limitations problems the Court identified with
Plaintiffs Complaint, it would not remedy the
Plaintiffs lack of standing to bring this action under
the FHA.
The Court’s July 8, 2014 Order Granting Motion to
Dismiss also held that Plaintiff failed to allege
sufficient facts to support its unjust enrichment claim.
That claim suffered the same insufficient causal
allegations that were fatal to Plaintiffs FHA claim.
Moreover, the City failed to allege sufficient facts
demonstrating that the City conferred any benefit on
the Defendants to which they were not legally
entitled. The Court dismissed Count II, unjust
enrichment, without prejudice with leave to amend in
accordance with the Court’s Order.
Rather than appeal the Court’s July 8, 2014 Order
Granting Motion to Dismiss challenging this Court’s
application of Lexmark and Nassar to the City’s FHA
claim, or file an amended complaint as to Plaintiff’s

145a
unjust enrichment claim in accordance with the
dismissal
Order,
Plaintiff
has
moved
for
reconsideration.
“[R]econsideration of a previous order is an
extraordinary remedy to be employed sparingly.”
Burger King Corp. v. Ashland Equities, Inc., 181 F.
Supp. 2d 1366, 1370 (S.D. Fla. 2002) (citing Mannings
v. School Board of Hillsborough County, 149 F.R.D.
235, 235 (M.D. Fla. 1993)). For a court to reconsider
its prior judgment the moving party must present
facts or law of a “strongly convincing nature” that
would induce a court to reverse its prior decision. Id.
(citing Sussman v. Salem Saxon & Nielsen, P.A., 153
F.R.D. 689, 694 (M.D. Fla 1994)). Three major
grounds justify reconsideration: “(1) an intervening
change in the controlling law; (2) the availability of
new evidence; and (3) the need to correct clear error
or prevent manifest injustice.” Burger King, 181 F.
Supp. 2d at 1369. “A motion for reconsideration
cannot be used to relitigate old matters, raise
argument or present evidence that could have been
raised prior to the entry of judgment.” Wilchombe v.
TeeVee Toons, Inc., 555 F.3d 949, 957 (11th Cir. 2009)
(internal quotation marks omitted).
Plaintiff has not presented strongly convincing
arguments in the instant reconsideration Motion that
would cause the Court to reconsider its prior Order.
The arguments in the Motion are ones that the
Plaintiff already made or that it could have, but chose
not to, in the extensive process of briefing,
supplemental briefing, and oral argument related to
Defendants’ Motion to Dismiss. Arguing that this
Court’s reasoning was flawed is not enough for a
motion for reconsideration. Furthermore, to the

146a
extent that the Plaintiff alternatively seeks to amend
its FHA claim to assert it has a generalized noneconomic interest in having an integrated community
and in racial diversity—claims it never made and
amendments it did not previously raise or offer
despite ample opportunity—these new matters are
improperly raised as grounds for reconsideration.1
Finally, regarding Plaintiffs unjust enrichment
claim, the Court stated in its July 8, 2014 Order
Granting Motion to Dismiss:
While it does not appear that Plaintiff can
overcome the deficiencies in its claim for unjust
enrichment, in an abundance of caution, the Court
will dismiss this count without prejudice, with
leave to amend in accordance with the analysis set
forth in this Order. If Plaintiff chooses to file an
amended complaint, the deadline to do so is July
21, 2014. As currently pled, Plaintiffs unjust
enrichment claim is pled as a supplemental
jurisdiction state law claim. The Court takes no
position, at this time, as to whether it would
exercise supplemental jurisdiction over a
complaint that only contains a state law claim.
See case no. 13-24506 at [DE 71], p. 14, n. 2. Thus, the
Court has already granted Plaintiff permission to file
an amended complaint as to its unjust enrichment
1 Moreover, sprinkling in allegations that the City has a
generalized interest in racial integration falls far short of
alleging facts sufficient to demonstrate that Defendants’ lending
practices adversely affected the racial diversity or integration of
the City, nor do those generalized allegations appear to be
connected in any meaningful way to the purported loss of tax
revenue and increase in municipal expenses allegedly caused by
Defendants’ lending practices.

147a
claim. If Plaintiff chooses to file such an amended
complaint, the Court will extend the deadline to do so
until September 15, 2014. Any arguments Defendants
have raised in the instant briefing regarding the
sufficiency of the unjust enrichment claim set forth in
Plaintiffs proposed amended complaint may be
reasserted in response to the amended complaint, if
one is timely filed.
Based upon the foregoing, it is ORDERED AND
ADJUDGED
that
Plaintiffs
Motion
for
Reconsideration and Leave to File First Amended
Complaint [DE 72] is DENIED.
DONE AND ORDERED in Chambers at Ft.
Lauderdale, Broward County, Florida, this 8th day of
September, 2014.
s/ William P. Dimitrouleas
WILLIAM P. DIMITROULEAS
United States District Judge

148a
APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 14-14543-CC
CITY OF MIAMI,
a Florida Municipal Corporation,
Plaintiff - Appellant,
versus
BANK OF AMERICA CORPORATION,
BANK OF AMERICA, N.A.,
COUNTRYWIDE FINANCIAL CORPORATION,
COUNTRYWIDE HOME LOANS,
COUNTRYWIDE BANK, FSB,
Defendants - Appellees.
Appeal from the United States District Court
for the Southern District of Florida
Date Filed: August 26, 2019
ON PETITION(S) FOR REHEARING
PETITION(S) FOR REHEARING EN BANC

AND

BEFORE: MARCUS and WILSON, Circuit Judges,
and SCHLESINGER,* District Judge.
PER CURIAM:

149a
The Petition(s) for Rehearing are DENIED and no
Judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc (Rule 35, Federal Rules of Appellate Procedure),
the Petition(s) for Rehearing En Banc are DENIED.
ENTERED FOR THE COURT:

s/ Stanley Marcus
UNITED STATES CIRCUIT JUDGE
* Honorable Harvey E. Schlesinger, United States
District Judge for the Middle District of Florida,
sitting by designation.

150a
APPENDIX F
42 U.S.C. § 3613 provides in pertinent part:
Enforcement by private persons
(a) Civil action
(1)

(A) An aggrieved person may commence
a civil action in an appropriate United
States district court or State court not
later than 2 years after the occurrence or
the
termination
of
an
alleged
discriminatory housing practice, or the
breach of a conciliation agreement
entered into under this subchapter,
whichever occurs last, to obtain
appropriate relief with respect to such
discriminatory housing practice or
breach.
*

*

*

*

(c) Relief which may be granted
(1) In a civil action under subsection (a) of this
section, if the court finds that a discriminatory
housing practice has occurred or is about to
occur, the court may award to the plaintiff
actual and punitive damages, and subject to
subsection (d) of this section, may grant as
relief, as the court deems appropriate, any
permanent or temporary injunction, temporary
restraining order, or other order (including an
order enjoining the defendant from engaging in
such practice or ordering such affirmative
action as may be appropriate).
(2) In a civil action under subsection (a) of this
section, the court, in its discretion, may allow

151a
the prevailing party, other than the United
States, a reasonable attorney’s fee and costs.
The United States shall be liable for such fees
and costs to the same extent as a private
person.
*

*

*

*

42 U.S.C. § 3614 provides in pertinent part:
Enforcement by Attorney General
(a) Pattern or practice cases
Whenever the Attorney General has reasonable
cause to believe that any person or group of
persons is engaged in a pattern or practice of
resistance to the full enjoyment of any of the
rights granted by this subchapter, or that any
group of persons has been denied any of the
rights granted by this subchapter and such
denial raises an issue of general public
importance, the Attorney General may
commence a civil action in any appropriate
United States district court.
(b) On referral of discriminatory housing practice or
conciliation agreement for enforcement
(1)

(A) The Attorney General may
commence a civil action in any
appropriate United States district court
for appropriate relief with respect to a
discriminatory housing practice referred
to the Attorney General by the Secretary
under section 3610(g) of this title.
(B) A civil action under this paragraph
may be commenced not later than the
expiration of 18 months after the date of

152a
the occurrence or the termination of the
alleged discriminatory housing practice.
(2)

(A) The Attorney General may
commence a civil action in any
appropriate United States district court
for appropriate relief with respect to
breach of a conciliation agreement
referred to the Attorney General by the
Secretary under section 3610(c) of this
title.
(B) A civil action may be commenced
under this paragraph not later than the
expiration of 90 days after the referral of
the alleged breach under section 3610(c)
of this title.
*

*

*

*

(d) Relief which may be granted in civil actions under
subsections (a) and (b)
(1) In a civil action under subsection (a) or (b),
the court—
(A) may award such preventive relief,
including a permanent or temporary
injunction, restraining order, or other
order against the person responsible for
a violation of this subchapter as is
necessary to assure the full enjoyment of
the rights granted by this subchapter;
(B) may award such other relief as the
court deems appropriate, including
monetary damages to persons aggrieved;
and

153a
(C) may, to vindicate the public interest,
assess a civil penalty against the
respondent—
(i) in an amount not exceeding
$50,000, for a first violation; and
(ii) in an amount not exceeding
$100,000, for any subsequent
violation.
(2) In a civil action under this section, the court,
in its discretion, may allow the prevailing
party, other than the United States, a
reasonable attorney’s fee and costs. The United
States shall be liable for such fees and costs to
the extent provided by section 2412 of title 28.
*

*

*

*

